<html>
<title> - THE ENVIRONMENTAL PROTECTION AGENCY (EPA) LIBRARY CLOSURES: BETTER ACCESS FOR A BROADER AUDIENCE?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                      THE ENVIRONMENTAL PROTECTION 
                 AGENCY (EPA) LIBRARY CLOSURES: BETTER 
                     ACCESS FOR A BROADER AUDIENCE? 

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON INVESTIGATIONS AND
                               OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 13, 2008

                               __________

                           Serial No. 110-85

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

41-131 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






























                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

              Subcommittee on Investigations and Oversight

               HON. BRAD MILLER, North Carolina, Chairman
JERRY F. COSTELLO, Illinois          F. JAMES SENSENBRENNER JR., 
EDDIE BERNICE JOHNSON, Texas             Wisconsin
DARLENE HOOLEY, Oregon               DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
BRIAN BAIRD, Washington              PAUL C. BROUN, Georgia
BART GORDON, Tennessee               RALPH M. HALL, Texas
                DAN PEARSON Subcommittee Staff Director
                  EDITH HOLLEMAN Subcommittee Counsel
            JAMES PAUL Democratic Professional Staff Member
       DOUGLAS S. PASTERNAK Democratic Professional Staff Member
           KEN JACOBSON Democratic Professional Staff Member
                    BART FORSYTH Republican Counsel
            TOM HAMMOND Republican Professional Staff Member
                    STACEY STEEP Research Assistant



















                            C O N T E N T S

                             March 13, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Prepared Statement by Representative Bart Gordon, Chairman, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    22

Statement by Representative Ralph M. Hall, Ranking Minority 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    20

Statement by Representative Brad Miller, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science and 
  Technology, U.S. House of Representatives......................    17
    Written Statement............................................    19

Prepared Statement by Representative F. James Sensenbrenner Jr., 
  Ranking Minority Member, Subcommittee on Investigations and 
  Oversight, Committee on Science and Technology, U.S. House of 
  Representatives................................................    20

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science and Technology, U.S. House of Representatives..........    22

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Investigations and Oversight, Committee 
  on Science and Technology, U.S. House of Representatives.......    23

Statement by Representative Paul C. Broun, Member, Subcommittee 
  on Investigations and Oversight, Committee on Science and 
  Technology, U.S. House of Representatives......................    21

                               Witnesses:

Mr. John B. Stephenson, Director, Natural Resources and 
  Environment, Government Accountability Office
    Oral Statement...............................................    28
    Written Statement............................................    30
    Biography....................................................    39

Mr. Charles Orzehoskie, President, National Council of EPA Locals 
  #238, American Federation of Government Employees
    Oral Statement...............................................    39
    Written Statement............................................    41

Dr. Francesca T. Grifo, Senior Scientist, Union of Concerned 
  Scientists; Director, Scientific Integrity Program
    Oral Statement...............................................    49
    Written Statement............................................    51
    Biography....................................................    54

Mr. James R. Rettig, President-elect, American Library 
  Association; University Librarian, University of Richmond
    Oral Statement...............................................    55
    Written Statement............................................    56
    Biography....................................................    59

Ms. Molly A. O'Neill, Assistant Administrator for Environmental 
  Information, The Office of Environmental Information (OEI); 
  Chief Information Officer (CIO), U.S. Environmental Protection 
  Agency
    Oral Statement...............................................    60
    Written Statement............................................    62

Discussion
  Access to EPA Library Services.................................    64
  Availability of Library Materials..............................    64
  More on Access to EPA Library Services.........................    65
  When Did EPA Develop Library Commonality Procedures and 
    Outreach?....................................................    66
  EPA Actions Since the Senate Hearings..........................    68
  EPA Report to Congress.........................................    69
  Effect of Library Closings on EPA Employees....................    70
  Progress Report on Digitization................................    71
  More on EPA's Report to Congress...............................    72
  Is EPA Briefing Stakeholders on the Report?....................    73
  Effect of Librarian Loss on EPA Employees......................    74
  Is EPA Reaching Out to Communities With Library Closures?......    75
  More on the EPA Report to Congress.............................    75
  Reopening EPA Libraries........................................    76

             Appendix 1: Answers to Post-Hearing Questions

Mr. John B. Stephenson, Director, Natural Resources and 
  Environment, Government Accountability Office..................    80

Ms. Molly A. O'Neill, Assistant Administrator for Environmental 
  Information, The Office of Environmental Information (OEI); 
  Chief Information Officer (CIO), U.S. Environmental Protection 
  Agency.........................................................    83

             Appendix 2: Additional Material for the Record

Exhibit #1, EPA Office of Environmental Information Report, 
  ``Business Case for Information Services: EPA's Regional 
  Libraries and Centers'' (January 2004).........................    88

Exhibit #2, EPA Library Network Workgroup Report, ``EPA Library 
  Network: Challenges for FY 2007 and Beyond'' (November 22, 
  2005)..........................................................   112

Exhibit #3, EPA Office of Environmental Information ``EPA FY 2007 
  Library Plan: National Framework for the Headquarters and 
  Regional Libraries'' (August 15, 2006).........................   122

Exhibit #4, EPA Office of Enforcement and Compliance Assurance 
  (OECA) Position Paper on the 2007 EPA Library Plan (August 23, 
  2006)..........................................................   140

Exhibit #5, Letter to GAO Comptroller General David Walker 
  requesting an investigation of the EPA Libraries Restructuring 
  Plan from Chairmen Gordon, Dingell, Waxman, and Oberstar 
  (September 19, 2006)...........................................   145

Exhibit #6, Letter to EPA Administrator Johnson from Chairmen 
  Gordon, Dingell, and Waxman (November 30, 2006)................   149

Exhibit #7, Letter to Chairman Gordon from Molly O'Neill, 
  Assistant Administrator and Chief Information Officer, Office 
  of Environmental Information, EPA responding to November 30, 
  2006 (Exhibit #6) (January 12, 2007)...........................   151

Exhibit #8, The Arbitration decision between EPA and the American 
  Federation of Government Employees, AFL-CIO; Council 238.......   153


  THE ENVIRONMENTAL PROTECTION AGENCY (EPA) LIBRARY CLOSURES: BETTER 
                     ACCESS FOR A BROADER AUDIENCE?

                              ----------                              


                        THURSDAY, MARCH 13, 2008

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 9:35 a.m., in 
Room 2318, Rayburn House Office Building, Hon. Brad Miller 
[Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            hearing charter

              SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                      The Environmental Protection

                 Agency (EPA) Library Closures: Better

                     Access for a Broader Audience?

                        thursday, march 13, 2008
                          9:30 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    The Environmental Protection Agency (EPA) manages an extensive 
library system designed to serve the specific needs of its research and 
regulatory scientists, its enforcement specialists and the interested 
public. Beginning in 2003, EPA managers began a series of studies of 
how to consolidate and restructure their library system to reduce costs 
among its 26 branches.
    By the end of FY 2006, seven libraries were closed. The libraries 
closed included three regional libraries (Dallas, Chicago, Kansas 
City), a technical library in Edison, NJ, associated with the Region 
two library, a laboratory library in Region three located in Fort 
Meade, MD, and two libraries located in Washington, D.C. (the 
headquarters library and the chemical library managed by the Office of 
Prevention, Pesticides and Toxic Substances (OPPTS) ).
    Because EPA did not complete work necessary to restructure its 
library network, the collections previously housed in these libraries 
are still not fully accessible to EPA employees and the public. On 
Thursday, March 13 at 9:30 a.m. in Rayburn 2318 the Subcommittee on 
Investigations and Oversight will hold a hearing on EPA's plan to 
consolidate and modernize its library network and the impacts of their 
implementation of this plan on EPA employees and the public.

Witnesses:

    The witnesses testifying at the hearing will be:

Mr. John Stephenson, Director Natural Resources and Environment, 
Government Accountability Office;

Mr. Charles Orzehoskie, President, American Federation of Government 
Employees, Council 238;

Dr. Francesca Grifo, Senior Scientist and Director of the Scientific 
Integrity Program, Union of Concerned Scientists;

Mr. Jim Rettig, President-elect, American Library Association;

Ms. Molly O'Neill, Assistant Administrator for the Office of 
Environmental Information (OEI) and Chief Information Officer, 
Environmental Protection Agency.

Background

    This matter has been of interest to the Committee since March 2006 
when Jeff Ruch, Executive Director of Public Employees for 
Environmental Responsibility (PEER) testified before the Subcommittee 
on Environment, Technology and Standards about a proposed funding cut 
of $2 million dollars in the budget for EPA's regional libraries was 
likely to lead to the closure of library facilities. In September 2006, 
Mr. Gordon was joined by Mr. Dingell and Mr. Waxman (Senator Boxer 
later joined the request) in a letter to GAO requesting an 
investigation of EPA's library restructuring plan, its implementation, 
and its potential impacts on delivery of library services to EPA 
employees and the public (letter attached).
    In November 2006, those same House Members, joined by Mr. Oberstar, 
wrote to EPA Administrator Johnson asking that he suspend all activity 
designed to close facilities or dispose of materials until Congress 
could be heard on its preferences for EPA's library system. Early in 
2007, Administrator Johnson agreed to do so. In the FY 2008 omnibus 
appropriation Congress included $1 million in additional funding for 
EPA's libraries to reopen the regional libraries that were closed and 
required the Agency to provide a plan to restore library services 
within 90 days of the law's enactment (signed on December 26, 2007).
    A good primer on the restructuring effort can be found in the 
attached report by CRS, this charter will briefly touch on five key 
questions which we hope to explore in the hearing.

1.  Did EPA Have a Plan for Maintaining Continuity of Library Services 
When the Plan Was Implemented in 2006?

    For several years, EPA managers have looked at alternative 
structures for delivering library services to their employees and the 
public. The collections in EPA's libraries are extraordinarily 
specialized and, in some cases, absolutely unique. The network as a 
whole is a unique library collection. EPA's own information procedures 
guidance on library materials dispersion reads in relevant part:

         ``Although it may be tempting to dispose of library materials 
        quickly, the loss of important and unique materials could have 
        serious future consequences if the Agency cannot document 
        scientific findings or enforcement actions.'' \1\

    \1\ ``EPA Library Network Procedure: Library Materials 
Dispersion,'' Issued by the EPA Chief Information Officer pursuant to 
delegation 1-19 dated 07/07/05.
---------------------------------------------------------------------------
    Used by both their science staff and their enforcement staff, the 
holdings in these libraries are essential to the work done at EPA. 
Librarians at the facilities also play an integral role in helping 
staff locate the most responsive, richest materials for the particular 
research, enforcement action, or litigation that EPA staff are 
pursuing.
    While EPA initiated a review in 2003 that identified areas for 
improvement and modernization of EPA's library network, the follow-up 
work recommended in the 2004 report: Business Case for Information 
Services: EPA's Regional Libraries and Centers\2\ was not done before 
libraries were closed or limited in their service and collections were 
dispersed and disposed of. The failure to do the required preparatory 
work suggests that no plan was guiding the library consolidation 
process.
---------------------------------------------------------------------------
    \2\ Business Case for Information Services: EPA's Regional 
Libraries and Centers. Prepared by Stratus Consulting for U.S. 
Environmental Protection Agency, Office of Environmental Information, 
EPA 260-R-001, January 2004.
---------------------------------------------------------------------------
    Seven libraries were simply closed without the holdings being 
digitized, clearly prioritized for future digitization or even always 
secured for future access. Nothing about this effort appears to have 
been consistent with the guidance quoted above. In fact, the regions 
appear to have been presented with draconian budget cuts and then 
``allowed'' to figure out how they would cope with those cuts with 
little or no guidance or coordination from Washington. This situation 
was guaranteed to lead to confusion and a collapse in service for many, 
many EPA employees.

2.  Did EPA Realize Budget Savings Through Implementation of Their 
Plan?

    EPA has said repeatedly that they had to respond to a $2 million 
budget cut. This budget reduction appears to have been a cut initiated 
by the Agency itself. There is no line in the EPA's budget submission 
to Congress or in the appropriations legislation or its accompanying 
report where the cut to services planned for FY 2007 (which began to 
unfold in September 2006) was revealed. Funding for the regional 
libraries is included in the budget for the Office of Environmental 
Information which is within a larger allocation for administrative 
functions of the Agency. The Administration chose to fold into their 
budget less money for library services. It was not a problem imposed 
upon the agency, and this budget decision runs contrary to information 
in their earlier planning activities that suggested that additional 
resources would be required initially to move to a more electronically-
based system for delivering library services. EPA initiated library 
closings before Congress passed EPA's appropriation for FY 2007, which 
ultimately included a larger overall Agency budget than was requested 
by the Administration, yet that did not slow the effort by EPA to 
implement this reduced ``budget.''
    As to budget savings, EPA also had no accounting mechanism in place 
to ensure that savings would in fact be realized by closing libraries. 
The Agency claimed it was committed to ensuring continued access to the 
materials in the libraries that closed. In order to provide continued 
access to library materials and digitize unique EPA documents, the 
collections would have to be sorted, identified and cataloged for 
distribution to the new location. In terms of documents to be 
digitized, materials would have to be identified, prioritized, 
digitized, and hosted on a computer with an effective interface to 
allow searching and retrieval. The prospect of virtual libraries is 
tempting, but it is not a cheap exercise.
    The 2004 study on library restructuring laid out all the analyses 
that would have to occur to result in a net benefit to the government. 
GAO found that none of that research--including surveying library users 
about their needs, conducting a complete inventory of each library's 
information resources, and fully evaluating alternative models for 
delivering library services--had taken place.
    The Business Case report had laid out a high bar to get over for 
any plan aimed at closing libraries and changing access: they found 
that for every dollar spent, anywhere from $2 to $5.70 came back to the 
Agency and the public in benefits. The active involvement of librarians 
in searches for materials was the primary gain from the library system 
as it existed. Librarians were found to both speed searches for 
materials and improve the quality of materials identified for a 
specific purpose. Digitizing collections alone would not fully capture 
those benefits--or necessarily offset the costs of searches done absent 
expert knowledge of reference material contained in the collections.

3.  Has EPA's Effort to Digitize Library Holdings Resulted in Greater 
Access to Library Collections?

    On its face, a claim that modernizing a library system through 
delivery of web-based or electronic library services is persuasive. It 
sounds like it should be cheaper to maintain, cheaper to provide access 
and that it would result in expanded access to library collections and 
services. However, in the case of EPA's efforts, there is little 
evidence that these presumed benefits have been realized or will be in 
the near-term. Digitization of library materials does not require 
libraries to be closed, yet EPA closed libraries before collections 
were properly inventoried and digitization of materials appropriate for 
conversion to electronic media was completed.
    EPA still has not digitized all materials eligible for digitization 
and it is unclear whether the products of this effort are appropriate 
for use by a library system. Materials were simply boxed up and stored 
or shipped to other EPA libraries; some materials were disposed of 
(including materials being tossed into dumpsters), and others were 
distributed to other public and private libraries. While employees who 
used closed libraries have all been provided with guidance on how to 
work with libraries that remain open somewhere in the system, it is 
still unclear whether collections from the closed libraries are still 
accessible to employees. Public access to these materials has 
apparently not yet been restored.

4.  Did Implementation of EPA's Plan Ensure Continuity of Library 
Services to EPA Employees and the Public or Improve Library Services?

    Library Services have been interrupted for both EPA employees and 
the public. Not only have libraries been closed, but librarians with 
experience in managing the individual collections are no longer with 
the Agency. As important as the loss of access to materials was the 
loss of qualified librarians to help employees and the public navigate 
the extensive, often technical, holdings in these libraries. The 
closure of seven libraries had an absolute impact on the ability of EPA 
employees to do their jobs. In August of 2007, the Office of 
Enforcement and Compliance Assurance provided a position paper on the 
closure plan arguing that it would materially impact their ability to 
enforce the law.\3\
---------------------------------------------------------------------------
    \3\ Office of Enforcement and Compliance Assurance Position Paper 
on the 2007 EPA Library Plan, 8/23/2006.
---------------------------------------------------------------------------
    Another sign of the impact on employees was that it was substantial 
enough to contribute to a Federal Mediation and Conciliation Service 
arbitrator to find ``that the changes effected by the Agency associated 
with the reorganization of its Library Network did, in some profound 
ways, affect the working conditions of the Union's bargaining unit 
employees.'' \4\ Agency employees complained to their Union 
representatives as well as to the Union of Concerned Scientists (UCS) 
and to the Public Employees for Environmental Responsibility (PEER) 
about these conditions.
---------------------------------------------------------------------------
    \4\ In the Matter of the Arbitration Between the U.S. Environmental 
Protection Agency and American Federation of Government Employees, AFL-
CIO, Council 238, FMCS Case No. 07-50725, February 15, 2008, p. 66.
---------------------------------------------------------------------------
    EPA's failure to conduct the follow-on work necessary to realize 
the benefits of modernizing the delivery of library services resulted 
in a disruption of library service to EPA employees and the public. 
Service has not improved nor is the same level of service being 
provided today as existed prior to the closure of the libraries. This 
is especially true for service to the public. The 2004 study noted 
that: ``EPA libraries often act as the safety net, catching the most 
frustrated members of the public trying to find information or 
assistance.'' \5\ The safety net has now been eliminated at five 
locations and hours have been reduced at other EPA libraries.
---------------------------------------------------------------------------
    \5\ Business Case for Information Services: EPA's Regional 
Libraries and Centers. Prepared by Stratus Consulting for U.S. 
Environmental Protection Agency, Office of Environmental Information, 
EPA 260-R-001, January 2004. Page 3.

---------------------------------------------------------------------------
5.  What Is the Path Forward?

    As mentioned above, Congress has appropriated funds to reopen 
closed libraries. Note that the Region 5 library's physical 
infrastructure was auctioned by the General Services Administration--
$40,000 worth of shelves, desks and materials went for $300. The EPA 
also is required to present Congress with their plan for the future. 
That plan is due later in March, but the Subcommittee hopes to learn 
what steps EPA has taken to restore those libraries and get a firm 
commitment on when the agency's plan will be delivered to Congress.
    GAO and the other witnesses at the hearing will also offer their 
recommendations on the steps EPA should take to restore library 
services to their employees and the public and to move forward with a 
modernization plan that truly delivers on EPA's stated goal of 
providing broader access to environmental information to a wider 
audience.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Miller. Good morning. Welcome to this hearing this 
morning: ``The Environmental Protection Agency (EPA) Library 
Closures: Better Access for a Broader Audience?''
    The EPA has built an absolutely unique library system. It 
contains collections of documents that are very specialized, 
and are used to inform scientific advice, regulatory proposals, 
and enforcement of environmental laws. With 26 branches around 
the country, the network, as it stood in the beginning of 2006, 
was an integrated whole, with regions possessing collections 
appropriate to those regions, as well as a general collection 
of journals and books.
    By the end of that year, however, the system was in 
disarray. EPA headquarters had imposed an 80 percent budget cut 
on the regional library system, which resulted in the closings 
of the Chicago, Dallas, and Kansas City libraries, and closed 
both the Headquarters Library and the Chemistry Library in 
Washington. The materials of those libraries were boxed, 
stored, shipped, given away, and in some cases, apparently, 
just thrown away.
    Members of the public, EPA employees, Members of Congress, 
were all concerned about the way the library closings 
developed, and Congress had no real warning that it was coming. 
And neither did the employees or the public, who rely upon the 
EPA's library system. Our Full Committee Chairman, Mr. Gordon, 
joined in a GAO request, a Government Accountability Office 
request, with Chairman Dingell and Chairman Waxman, as well as 
Senator Boxer, and gave the GAO the task of examining the 
methods used by the EPA for closing the libraries.
    We will hear the testimony of the GAO today, but their 
findings confirm that our concerns about the library closings 
were very well founded. EPA managers had quietly begun 
considering how to consolidate the libraries and modernize 
their libraries in 2003. They gave it a lot of thought. They 
developed a thoughtful plan to avoid hobbling the EPA's work or 
the public's access, to develop a continuous availability of 
the information, with minimum disruption.
    But then, when it came time to consolidate the system, 
those managers, EPA managers, just ignored all of that careful 
planning, and simply shut the libraries, or told the libraries 
your budget is now 20 percent of what it was before. Deal with 
it.
    There was no effort to reach out to the staff, to learn 
what they needed from the libraries, and how to serve the EPA 
employees' continued work, that the EPA managers did not try to 
establish priorities in library holdings, or to digitize those 
holdings before boxing them up, so that they would remain 
continuously available to the EPA and to the public. They made 
no effort to do a cost-benefit analysis of various ways to 
organize the library system, and when it came to decisions to 
close libraries, EPA headquarters made no effort to provide 
guidance or assure integration within the system. Again, 
headquarters simply announced a $2 million cut, leaving 
$500,000, a half a million, across the regional system, and 
just told the regions to figure out, figure it out. Your budget 
is 20 percent of what it was before. Deal with it.
    Perhaps it is not surprising that the library system was as 
disrupted as it has been, that libraries have closed. What is 
pretty remarkable is the effort of EPA's employees to keep the 
libraries open, even if they have had to reduce hours and 
access.
    The most generous interpretation of EPA's conduct in 
closing the libraries is incompetence, that EPA managers 
grossly mismanaged the library system. Despite careful thinking 
and planning, in the end, incompetence seems to have ruled the 
manner in which the EPA budget cuts were administered.
    Others see a more sinister motive. Because it is 
undoubtedly the case that closing the libraries and limiting 
access to important information reduces the ability of EPA 
employees to protect the environment or the public health, it 
certainly hobbles the work, also, of independent scientists who 
had relied upon the libraries. I am not persuaded that there 
was actually a conscious motive behind those actions of 
hobbling the work of the EPA and of independent scientists, but 
it is an unavoidable and absolutely predictable consequence of 
what management did in 2006, and there is a well known legal 
doctrine that you are held to the natural consequences of your 
conduct, of your actions.
    EPA managers took a library system that was working well, 
that was the best in the world at what they did, that they knew 
was important to what EPA did, that they knew was important to 
independent scientists, and they disrupted it so much that it 
will take years and a lot of money to make things right, and 
some things will never be made right.
    So, where do we go from here? First, Congress directs, 
through the 2008 Omnibus Appropriation, that the regional 
libraries that have been closed should be reopened. I 
congratulate Senator Boxer for her strong work to make that 
happen. And I want to know what EPA is doing to follow that 
direction from Congress.
    Second, the Agency should reopen its headquarters and 
chemical libraries. Those are central assets that serve the 
Washington staff of EPA, and the loss of those libraries is a 
tragedy. Third, EPA managers need to return to the studies of 
2004 and 2005 for how to consolidate and manage and modernize 
the libraries. There should certainly be no further closings 
until the holdings of the libraries have been effectively 
cataloged, evaluated, ranked in priority order, and digitized.
    No library should be closed without a promise, should be 
closed with a promise of eventual Internet or Intranet access, 
until the search engines that would make it happen are proven 
to provide the access that is promised. No library should be 
closed until methods are established to guarantee librarian 
support for the work of the libraries, even, and for the EPA 
and for the scientists who depend upon those libraries, even if 
that work is done with virtual materials.
    Finally, no effort to restructure services should come 
without significant consultation and guidance from the staff of 
the Agency, the concerned public, the scientists who depend 
upon those libraries, and with Congress.
    We are right in the Constitution, right there, just before 
Article II, Article I. We are not meddling. We are part of the 
government.
    We have an excellent panel of witnesses with us this 
morning. I look forward to their testimony, your testimony, and 
your recommendations on how to rebuild and modernize the EPA's 
network.
    Now, I would like to recognize Mr. Hall, who is filling in 
today for Mr. Sensenbrenner of Wisconsin. Mr. Hall, would you 
like to make an opening statement?
    [The prepared statement of Chairman Miller follows:]
               Prepared Statement of Chairman Brad Miller
    Good morning and welcome to today's hearing on the Environmental 
Protection Agency's (EPA) management of its library system.
    EPA has developed an absolutely unique library system. It contains 
collections of documents that are very specialized and are used to 
inform scientific advice, regulatory proposals, and enforcement of 
environmental laws. With 26 branches across the country, the network as 
it stood in early 2006, was an integrated whole with regions possessing 
collections appropriate to the issues in those regions as well as other 
journals and books.
    By the end of 2006, that system stood in disarray. In the interim, 
EPA headquarters had imposed an almost 80 percent budget cut on the 
regional library system--which resulted in closings of the Chicago, 
Dallas and Kansas City libraries--and had closed both the headquarters 
library and the chemistry library in Washington, D.C. The materials of 
those libraries were boxed, stored, shipped, given away or simply 
thrown away.
    Members of the public, EPA employees and Members of Congress were 
all concerned about the way the library closure process unfolded. 
Congress had no real warning that this was coming--and as it turns out 
neither did employees or the public. Our Full Committee Chairman, Mr. 
Gordon, was joined in a GAO request by Chairmen Dingell and Waxman as 
well as Senator Boxer. GAO was tasked with examining the methods used 
by EPA for closing the libraries. We will hear their testimony today, 
but their findings confirm that our concerns were well founded.
    EPA managers had quietly begun studying how to consolidate and 
modernize their library system in 2003. They gave it a lot of thought. 
They developed a terrific road map to how to do it in a 2004 report. 
Then, when it came time to consolidate the system, those managers 
simply ignored all the careful planning they had engaged in and simply 
shuttered libraries. No effort had been made to reach out to staff to 
learn what they needed and how to better serve them. No effort had been 
made to prioritize library holdings and digitize those holdings, prior 
to boxing them up, so that they would remain available to EPA and the 
public. No effort was made to even do a careful cost-benefit analysis 
of various ways to reorganize the library system. And when it came to 
decisions to close libraries, headquarters made no effort to provide 
guidance or assure integration across the system. Headquarters simply 
announced a $2 million cut--leaving just $500,000 across the regional 
system--and left it to the regions to figure out what to do. Perhaps 
the surprise isn't that so many libraries closed, but that so many 
found the means to stay open--even if they reduced their hours and 
access.
    The best interpretation of this situation is that EPA managers 
appeared to grossly mismanage their library system. Despite all the 
careful thinking and planning, in the end, incompetence seems to have 
won the day. Others may see a more nefarious motive in these actions, 
because it is undoubtedly the case that closing libraries and limiting 
access to important information reduces the ability of EPA employees to 
act to protect the environment or the public health. I am not persuaded 
that was the motive behind these actions, but I do think it is an 
unavoidable and predictable consequence of the moves by management in 
2006. They took a library system that was working, and shook it up so 
that much of it is not working well and it may take years and a lot of 
money to set things right again.
    So where do we go from here?
    First, Congress directed in the 2008 Omnibus Appropriation that the 
regional libraries that have been closed should be reopened. I want to 
particularly congratulate Senator Boxer for her strong work to 
accomplish this. I want to know what steps EPA has taken to follow that 
guidance.
    Second, the agency should reopen its headquarters and chemical 
libraries. These are central assets that serve the Washington, D.C. 
staff of EPA and the public and the loss of these libraries is a 
tragedy.
    Third. EPA managers need to return to its studies of 2004 and 2005 
and restart their effort to enhance library services. No library should 
be closed until its holdings have been effectively catalogued, 
prioritized and digitized. No library should be closed with a promise 
of Internet or Intranet access, until the search engines are proven to 
provide meaningful access. No libraries should be closed until methods 
are established to guarantee librarian support for work, even if that 
work is done with virtual materials.
    Finally, no efforts to restructure services should come without 
significant consultation and guidance from the staff of the agency, the 
concerned public or Congress.
    We have an excellent panel of witnesses with us this morning. I 
look forward to your testimony and your recommendations on how to 
rebuild and modernize the EPA library network.

    Mr. Hall. I would like to, and I am going to.
    With that opening statement from one of the renowned 
lawyers who came to Congress with the reputation of being one 
of the really great lawyers in the whole area that he 
represented, he is kind of a hard guy to take on, and I am not 
taking him on. I am not here to push nor to pull. I am here, 
really, to be a Member sitting here, to where we can get this 
committee going, and you do have a good panel. I know some of 
them, and known them for some time, but I am kind of, I have 
listened to you there, very capable output.
    I thought about Tom Connelly, a judge, long-time judge 
later in the Senate, he was about to sentence a man to death, 
and he reiterated all of the hard crimes he had done, and how 
horrible and heinous it all was, and said now, do you have 
anything to say before I sentence you to die, and he said no, 
sir, the way you put it, it seemed like I'm getting off pretty 
light. So, I don't know if that is the way this group feels or 
not, but Mr. Chairman, I don't have an opening statement.
    I would like to ask unanimous consent for Mr. Sensenbrenner 
to put a statement in the record. Without objection.
    Chairman Miller. Without objection.
    [The prepared statement of Mr. Sensenbrenner follows:]
    Prepared Statement of Representative F. James Sensenbrenner Jr.
    The Environmental Protection Agency (EPA) established its library 
network in 1971, one year after the Agency's creation. Since that time, 
the network grew to 26 libraries, serving both EPA staff and the 
public. In 2004, EPA's Office of Environmental Information (OEI) 
completed a cost-benefit analysis of EPA's library services. OEI 
concluded that the libraries provided ``substantial value'' to the 
agency and to the public, with a benefit-to-cost ratio ranging between 
2:1 and 5.7:1. These benefits were based on time savings for EPA staff 
because of the benefits of assistance from a professional librarian.
    In FY2007, EPA began restructuring its libraries to transition from 
walk-in services to electronic dissemination. As part of the 
restructuring, EPA closed five of its libraries and restricted access 
to eight more. In theory, EPA's restructuring would improve access to 
library materials by making them available electronically and reduce 
costs by eliminating the need for some of the physical structures. In 
practice, however, the implementation of the plan appears to have 
restricted access without providing any cost savings.
    The Union of Concerned Scientists found that 35.6 percent of 
surveyed EPA scientists (555 total) agreed with the statement: the 
``recent changes and closures in the EPA library system have impaired 
my ability to do my job.'' This sentiment was much higher, nearly 50 
percent, for scientists who practiced in areas where a physical library 
was actually closed.
    In a report released at today's hearing, titled EPA Needs to Ensue 
that Best Practices and Procedures are Followed When Making Further 
Changes to its Library Network, the Government Accountability Office 
(GAO) found that, not only has service been interrupted, but also that 
EPA failed to document any costs savings. GAO wrote:

         EPA's primary rationale for the library network reorganization 
        was to generate cost savings by creating a more coordinated 
        library network and increasing the electronic delivery of 
        services. However, EPA did not fully follow procedures 
        recommended in a 2004 EPA study of steps that should be taken 
        to prepare for a reorganization. In particular, EPA did not 
        fully evaluate alternative models, and associated costs and 
        benefits, of library services.

    Government Accountability Office, EPA Needs to Ensue that Best 
Practices and Procedures Are Followed When Making Further Changes to 
Its Library Network, p. 1 (February, 2008).

    EPA thus failed to follow its own guidance and failed to perform 
cost-benefit analysis before taking actions with the goal of reducing 
costs. GAO also found that EPA hindered its transition by failing to 
develop a plan to communicate the reorganizations to the public and its 
staff. Finally, EPA may have violated federal property management 
regulations for disposal or dispersal of library materials by failing 
to make a written determination that property had ``no value'' before 
discarding it. Without such a determination, regulations require that 
agencies report surplus property to the General Services 
Administration. The end result of EPA's hasty reorganization may have 
been reduced benefits at comparable costs.
    I, of course, support any effort to provide superior service at a 
lower cost. EPA has not, however, demonstrated either that service was 
not impaired or that costs were in fact lowered. The motivation to 
reduce costs is not cost effective when coupled with hurried analysis 
and rushed execution. GAO has provided a detailed analysis of EPA's 
reorganization. I urge EPA to properly conduct this cost-benefit 
analysis and ensure continued access to an important resource.

    Mr. Hall. And I would like to have the right to let Judge 
Broun, Dr. Broun, have my time, and I understand he just wants 
to put one in the record.
    Chairman Miller. Also without objection.
    Mr. Broun. I want to thank the Chairman for holding this 
hearing, and yes, likewise, I am looking forward to the 
testimony of the panel, and I also will just submit my opening 
statement for the record, if that is agreeable with the 
Chairman. I ask unanimous consent to be able to do so.
    Chairman Miller. Again, without objection.
    [The prepared statement of Mr. Broun follows:]
           Prepared Statement of Representative Paul C. Broun
    I want to thank the Chairman for holding this hearing and welcome 
our witnesses here today.
    EPA's ability to protect public health and the environment is 
contingent on timely access to accurate information. The existing 
library infrastructure plays a major role in providing that information 
to not only EPA, but also the general public.
    While the manner in which EPA scientists, outside scholars, 
advocacy groups, and litigators receive information has changed over 
the last 20 years, the importance of that information has not. Modern 
information technology has given access to many more users than 
traditional brick and mortar libraries, but we must be cautious in how 
we transition to new data formats.
    One of the challenges EPA faces is access. Continuous, 
uninterrupted, and timely access to EPA-unique documents by both EPA 
scientists and private citizens is critical to executing EPA's charter 
of protecting the environment and the public. Additionally, access to 
information that is not unique to EPA such as journals, commercially 
available information, and other reference materials are still vitally 
important to EPA scientists and the general public. Even though access 
to this information can be obtained through other means such as 
interlibrary loan or Internet accessed databases, rarely is it as 
timely or as efficient as having it on-site.
    Another challenge EPA must address is how to keep professional 
research support staff and librarians involved in the process. These 
key professionals will still be required to help users navigate the 
ever-growing collections of data, perhaps even more so in our new 
digital age.
    How to manage EPA's library infrastructure investment and balance 
the competing concerns of access and efficiency is no easy task. EPA 
began the process of transitioning to a more modern system in 2003 by 
doing all the right things. They conducted a cost-benefit analysis and 
reviewed the program no less than four times between 2004 and 2006. 
Unfortunately, it doesn't seem as though EPA learned from these 
reviews, or consulted with any outside experts such as the American 
Library Association (ALA), internal unions, or outside users. Rather 
than carefully and methodically implementing a transition, they instead 
closed libraries in an abrupt attempt at cost savings. Earlier EPA 
reviews had pointed to the cost effectiveness of the library 
infrastructure, but those reviews apparently did not influence their 
decision.
    While EPA's motivation to modernize the way it provides information 
to its employees and the general public should be commended, we in 
Congress have the responsibility to ensure that the process is done in 
a prudent manner that does not adversely impact the end-users.
    I want to commend GAO for their excellent work on the topic. I look 
forward to the witness's testimony today and pledge to work with EPA to 
make certain that any changes to the library system do not negatively 
impact end-users that are tasked with protecting our environment and 
public health.
    Thank you Mr. Chairman. I yield back my time.

    Chairman Miller. And if there are any Members of the 
Committee, of the Subcommittee who are not here this morning, 
we will also welcome statements that they may submit.
    So, all that, without objection, is so ordered.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    The Government Accountability Office's report on EPA's library 
network is a blueprint of how not to modernize and restructure a 
functioning organization.
    When I requested this investigation with my colleagues back in 
September 2006, I suspected EPA was moving too quickly to close 
libraries. I was skeptical that any cost savings would be achieved 
through this exercise, or that the Agency was taking proper care to 
ensure this unique library collection would remain intact and 
accessible. I hoped I was wrong.
    A library is more than a collection of books and documents. It is 
an organized body of knowledge that we continue to build upon as we 
expand our understanding of the world we live in. It is a public 
institution that promotes democracy by providing everyone the 
opportunity to access and utilize the accumulated knowledge of our 
society.
    I believe libraries should move into the modern era of electronic 
communication just as all our other public and private institutions are 
doing. If it is done right, the creation of a web-based virtual library 
would expand access to information to a much broader audience. I fully 
support such a goal. Unfortunately, the EPA library network is nowhere 
near that goal.
    Simply stating and repeating the goal of ``providing greater access 
for a broader audience'' does not accomplish it. Real work needed to be 
done by the Agency prior to emptying library shelves or closing any 
library doors.
    GAO's report documents the Agency's failure to do any of the work 
necessary to ensure their stated goal for the modernization would be 
accomplished. EPA executed a failed process for modernizing their 
library network. The only goal they accomplished was to reduce the 
number of libraries in the EPA network. This is not a goal that serves 
the public or the Agency's mission.
    The Agency appears to have avoided talking to any group with 
expertise or interest in their libraries. The Agency did not consult 
experts inside or outside the government to determine best practices 
for establishing and maintaining an electronic library. They also 
refused to meet with their own employees--an action that ultimately led 
to arbitration and a finding that the Agency violated its agreement 
with their Unions. EPA made no attempt to reach out to the public, and 
they virtually ignored Congress until they reluctantly agreed to a 
moratorium on further implementation of their flawed plan.
    Until EPA has completed the work necessary to move to an electronic 
delivery of library services, the closed libraries should be reopened. 
Documents should be retrieved and replaced and library services should 
be restored to the level they were prior to the initiation of this 
flawed plan. The public and the EPA employees who serve them deserve no 
less.

    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Mr. Chairman, I would like to thank you for overseeing this hearing 
today and for your leadership of this subcommittee. The closure of the 
EPA libraries is one that this committee, and many other Members of 
Congress, has been concerned about for some time. The nature of the 
closures, the way in which they were carried out and the effect on the 
Agency and its employees have caused a great deal of concern in both 
the science and library community.
    I am concerned that the closure of the Region 5 EPA library has had 
a considerable impact on my home State of Illinois. I am interested in 
hearing more from our panel on this issue, as I have heard reports of 
concerned scientists, librarians and community members on the issue.
    What I find particularly troubling about today's subject matter is 
that the nature in which these closures were implemented is consistent 
with the dismissive attitude this Administration has taken towards 
Congressional oversight. The reports of potentially lost unique 
documents and hastily-sold furniture in order to save money do not seem 
like part of a well-thought out plan.
    I thank our witnesses for coming today and I look forward to 
hearing their thoughts on this matter. I yield back.

    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Thank you, Mr. Chairman. I would like to welcome today's witnesses 
to this hearing of the Subcommittee on Investigations and Oversight: 
both the witness from the Environmental Protection Agency as well as 
the witnesses from the Government Accountability Office and from 
stakeholder groups.
    I appreciate that the E.P.A. manages an extensive library system 
designed to serve the specific needs of its research and regulatory 
scientists and its enforcement specialists.
    The libraries also are a good resource for environmental data to 
the interested public.
    The issue at hand today is not a new one.
    In March 2006, Mr. Jeff Ruch, the Executive Director of Public 
Employees for Environmental Responsibility, testified before one of our 
subcommittees that a proposed funding cut of $2 million dollars for 
E.P.A.'s regional libraries would likely lead to the closure of library 
facilities.
    Surely enough, the cuts occurred, and libraries closed at the end 
of fiscal year 2006, including one library located in Dallas, Texas, 
which I represent.
    Despite Congressional requests to the Government Accountability 
Office regarding the effects of the E.P.A.'s library restructuring 
plan, seven libraries were closed without the holdings being digitized 
or secured for future access.
    While I can certainly support the Administration's interest to 
spend taxpayer dollars wisely, it seems to me that we are taking a step 
backward in making environmental resource data unavailable by closing 
these libraries.
    I will be interested to know what efforts have been made by the 
E.P.A. to make the information available to the public.
    In addition, I will be glad to hear the other witness testimony 
regarding the impact of these library closings.
    Thank you, Mr. Chairman. I yield back.

    Chairman Miller. I believe that--yes, Mr. Hall. And Mr. 
Hall, if I ever return to the practice of law, I assume that I 
can use some part of what you said today in my promotional 
materials.
    All right. I believe that we have four photographs to show 
before we begin the testimony. The first photograph shows the 
sign that now greets library visitors at EPA headquarters. ``As 
of October 1, 2006, the EPA Headquarters Library space is 
closed.'' Now, the second photo shows the sign that greeted 
visitors at the Chicago library. ``This U.S.A. EPA Region 5 
Library is permanently closed.'' The third photo, which was 
taken by our Committee staff, shows boxes of materials at the 
Headquarters Library. The final photograph shows empty shelves, 
again at headquarters. Those shelves, we assume, used to be 
full of the documents that EPA employees and independent 
scientists relied upon to do their work. Those photographs, as 
well as others taken by the Committee staff, or provided to the 
Committee, will also appear in the record.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Miller. So, with that, I want to introduce our 
witnesses. It is my pleasure to introduce our witnesses.
    Our first witness is Mr. John Stephenson, the Director of 
the Natural Resources and Environment Division at the 
Government Accountability Office. Mr. Charles Orzehoskie is the 
President of the American Federation of Government Employees 
Council 238, AFGE. Dr. Francesca Grifo is a Senior Scientist 
and Director of the Science Integrity Program at the Union of 
Concerned Scientists. Mr. Jim Rettig is the President of the 
American Library Association. And our final witness is Ms. 
Molly O'Neill, Assistant Administrator for the Office of 
Environmental Information and Chief Information Officer at the 
Environmental Protection Agency.
    Welcome to all our witnesses. You will each have five 
minutes for your spoken testimony, and you have, I think, all 
submitted written testimony, which will be included in the 
record of the hearing. When you all end your testimony we will 
begin with questions. And each Member will have five minutes to 
question the panel.
    All right. It is my intention to keep this hearing moving 
at a brisk pace. It looks like the usual sources of disruption 
are not, will not be the problem they are sometimes, so we 
should be able to do that. We will almost certainly be 
interrupted by votes. I say we, but it may just be me. I want 
to encourage all of my colleagues who may be watching this on 
the House Internet system to get back as quickly as possible, 
if they intend to attend any part of the meeting, so we can 
continue our business as rapidly as possible.
    It is our practice to take testimony under oath. This is an 
Investigations and Oversight Subcommittee. Do any of you have 
any objection to swearing an oath? Okay. You also have the 
right to be represented by Counsel. Is anyone here represented 
by Counsel at today's hearings? We ask these questions to put 
you at ease. Please stand and raise your right hand.
    [Witnesses sworn]
    Mr. Stephenson, please begin.

    STATEMENT OF MR. JOHN B. STEPHENSON, DIRECTOR, NATURAL 
  RESOURCES AND ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stephenson. Thank you, Mr. Chairman. I am pleased to be 
here today to discuss our report being released today on EPA's 
library restructuring.
    We conducted our review, as you have already mentioned, at 
the request of the Full Science and Technology Committee, as 
well as the House Committee on Oversight and Government Reform, 
the House Committee on Energy and Commerce, and the Senate 
Committee on Environment and Public Works.
    The EPA's library network provides access to critical 
environmental information that the Agency needs to promote 
environmental awareness, conduct research, enforce 
environmental laws, make policy decisions, and fulfill its 
mission of protecting human health and the environment. The 
library network also provides information and services to state 
environmental agencies, local community organizations, and the 
general public. Before the reorganization, the network included 
26 libraries, some at the EPA headquarters, but most at its ten 
regional offices, research centers, and laboratories around the 
country.
    In summary, as you have in your report, we found that in 
late 2006, the EPA embarked on an effort to restructure its 
library network by closing physical access to one headquarters 
and three regional office libraries, and reducing or changing 
operations at six others. In a separate move, it also closed 
its headquarters-based Chemical Library, containing vast 
information on hazardous chemicals and pesticides. Furthermore, 
some of the libraries began to digitize, disperse, and dispose 
of books, research studies, and other materials without a 
common set of Agency-wide guidance for doing so.
    EPA's approach created the risk that not only would library 
services not be improved, but they may actually be degraded. 
While exploring ways to restructure and make library operations 
more efficient is always a good idea, it should not be done 
haphazardly. Certainly, you don't close libraries, get rid of 
staff, and dispose of materials first, and then figure out what 
to do later.
    But it seems that that is exactly what happened here. EPA 
began restructuring its libraries without conducting several 
analyses that you would typically expect to see to adequately 
justify, plan, and implement such an important endeavor. For 
example, it did not fully survey EPA staff and other users to 
characterize their needs. It did not fully inventory its vast 
holdings to determine what it had and how it should be handled. 
It did not develop or analyze business, organizational, or 
technical models for improving service. It did not develop new 
policy and procedures to guide the library reorganization, nor 
did it do a basic cost-benefit analysis that OMB generally 
recommends for agency decisions such as this.
    According to the EPA officials that decided to proceed 
without completing such analyses, many of which were 
recommended, as you mention, in its own 2004 Library Study, to 
create $2 million in savings needed to contribute to the 
overall EPA reduction in the President's fiscal year 2007 
budget proposal. Interestingly, EPA's Regional Managers usually 
have discretion as to how to absorb budget reductions such as 
this, but in fiscal year 2007, they agreed that the reduction 
would come from the libraries.
    As of today, EPA has still not developed an effective 
strategy or plan to ensure the continuity of library services. 
EPA's 2007 plan describes library reorganization as a phased 
approach, but it does not provide specific goals, timelines, or 
feedback mechanisms to measure performance and monitor user 
needs to ensure a successful reorganization while maintaining 
quality services.
    Moreover, library collections and services formerly 
provided by the closed libraries will now be provided on a fee 
for service basis by other libraries in the network, and some 
materials will be digitized and made available online, but EPA 
has yet to estimate what these activities will cost or where 
the funds will come from.
    In conclusion, Mr. Chairman, our report contains 
recommendations to the EPA Administrator to continue the 
moratorium on further changes to the library network until the 
Agency: one, develops a comprehensive plan to justify and guide 
the implementation of its reorganization; two, institutes an 
outreach process to ensure that the views of all stakeholders 
affected by the reorganization are considered; three, creates 
mechanisms to ensure sufficient oversight to control the 
library reorganization and to monitor the impact on EPA staff 
and other users; and four, implements procedures to ensure 
library materials are appropriately handled.
    EPA agreed with the recommendations in the report, but now, 
it needs to take the next step and implement them.
    Mr. Chairman, that concludes the summary of my statement, 
and I will be happy to answer questions at the appropriate 
time.
    [The prepared statement of Mr. Stephenson follows:]
                Prepared Statement of John B. Stephenson

Mr. Chairman and Members of the Subcommittee:

    I am pleased to appear here today to discuss our recent review of 
the reorganization of the Environmental Protection Agency's (EPA) 
library network, which is being released today.\1\ We conducted this 
review at the request of the House Committees on Science and 
Technology, Oversight and Government Reform, and Energy and Commerce, 
and the Senate Committee on Environment and Public Works.
---------------------------------------------------------------------------
    \1\ GAO, Environmental Protection: EPA Needs to Ensure That Best 
Practices and Procedures Are Followed When Making Further Changes to 
Its Library Network, GAO-08-304 (Washington, D.C.: Feb. 29, 2008).
---------------------------------------------------------------------------
    As you know, the library network provides access to critical 
environmental information that the agency needs to promote 
environmental awareness, conduct research, enforce environmental laws, 
make policy decisions, and fulfill its mission of protecting human 
health and the environment. The library network also provides 
information and services to State environmental agencies, local 
community organizations, and the general public to help these 
stakeholders in protecting human health and the environment. In fiscal 
year 2006, the network included 26 libraries across headquarters, 
regional offices, research centers, and laboratories, and these 
libraries were independently operated by several different EPA program 
offices, depending on the nature of the libraries' collections.
    In fiscal year 2007, EPA began to reorganize its library network on 
the basis of a 2006 reorganization plan issued by EPA's Office of 
Environmental Information (OEI). This plan focused on OEI's 
headquarters library and libraries located in each of the agency's 10 
regional offices. The plan was intended to provide a framework for 
consolidating libraries and making more materials and services 
available online.
    My testimony, which is based on our report being released today on 
the EPA library network, addresses (1) the status of, and plans for, 
the library network reorganization; (2) EPA's rationale for its 
decision to reorganize the library network; (3) the extent to which EPA 
has communicated with and solicited views from EPA staff and external 
stakeholders in planning and implementing the reorganization; (4) the 
steps EPA has taken to maintain the quality of library services 
following the reorganization, both currently and in the future; and (5) 
how EPA is funding the library network and its reorganization.
    To address these objectives, we reviewed relevant EPA documents, 
policies, plans, and guidance as well as related laws and requirements 
pertinent to the library network and reorganization effort. We 
interviewed EPA librarians and library managers from each of the 26 
libraries in EPA's library network as well as EPA officials 
knowledgeable about EPA's library network and budget. In addition, we 
interviewed representatives from local unions, who represent EPA staff, 
and regional science councils, which is a group that consists of EPA 
scientists and technical specialists. We also sought information from 
library professionals, including representatives from the American 
Library Association and the Association of Research Libraries; members 
of academia; and private consulting companies with expertise in 
libraries.
    We conducted this work from December 2006 through February 2008 in 
accordance with generally accepted government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.

Summary

    In summary, we found the following:

        <bullet>  Since 2006, EPA has implemented its library 
        reorganization plan and closed physical access to the OEI 
        headquarters library and three regional office libraries. In 
        the same period, six other libraries in the network 
        independently changed their operations: one closed, four 
        reduced their hours of operation, and one changed how it 
        provides library services. Sixteen libraries did not change. 
        Furthermore, some of these libraries digitized, dispersed, or 
        disposed of their materials before EPA had drafted a common set 
        of agency-wide library procedures for doing so. Until these 
        procedures are completed, EPA plans no further changes to the 
        library network. In addition to completing these procedures, 
        the library network's future configuration and operations may 
        depend on EPA's response to directions accompanying its fiscal 
        year 2008 appropriation to use $1 million to restore libraries 
        recently closed and EPA's 2008 library plan, which describes 
        how EPA expects to operate the library network in the future.

        <bullet>  EPA reorganized its library network primarily to 
        generate cost savings through a more coordinated library 
        network and more electronic delivery of services. However, we 
        found that EPA did not effectively justify its reorganization 
        decision. That is, before launching the reorganization, EPA did 
        not conduct several analyses, including many that its own 2004 
        study of the libraries recommended, as well as a cost-benefit 
        analysis that the Office of Management and Budget recommends. 
        According to EPA officials, OEI decided to reorganize its 
        libraries without completing the recommended analyses in order 
        to reduce its fiscal year 2007 funding by $2 million to create 
        the savings necessary for its headquarters library and the 
        regional office libraries, per the President's fiscal year 2007 
        budget proposal.

        <bullet>  EPA did not systematically inform the full range of 
        stakeholders on the final configuration of the library network. 
        In addition, EPA libraries varied considerably in the extent to 
        which they communicated with and solicited views from staff, 
        external stakeholders, and experts before and during the 
        reorganization effort. Such efforts were limited or 
        inconsistent because EPA acted quickly to make changes in 
        response to a proposed fiscal year 2007 funding reduction and 
        because of the decentralized nature of the library network. EPA 
        is currently reaching out to stakeholders, including EPA staff 
        and library experts, by holding and attending stakeholder 
        meetings and conferences.

        <bullet>  EPA does not yet have an effective strategy to ensure 
        the continuity of library services following the reorganization 
        and does not know the full effect of the reorganization on 
        library services. EPA's library plan describes the 
        reorganization effort as a ``phased approach,'' but it does not 
        provide specific goals, timelines, or feedback mechanisms that 
        allow the agency to measure performance and monitor user needs 
        to ensure a successful reorganization while maintaining quality 
        services. EPA did not follow key practices for a successful 
        transformation, even though the agency made several changes to 
        the library network that could have impaired the continued 
        delivery of library materials and services to its staff and the 
        public. For example, EPA did not determine whether federal 
        property management regulations applied to the dispersal and 
        disposal of library materials before it closed the libraries. 
        Instead, EPA provided vague criteria and guidance to its 
        libraries and did not adequately oversee the process.

        <bullet>  The several different program offices responsible for 
        the EPA libraries in the network each generally decide how much 
        of their available funding to allocate to their libraries and 
        how to fund their reorganization. For example, OEI typically 
        provides funding for the regional office libraries through each 
        region's support budget and gives regional management 
        discretion on how to allocate this funding among the library 
        and other support services. However, when faced with a proposed 
        budget reduction of $2 million in fiscal year 2007, rather than 
        following its normal procedures, OEI directed the regional and 
        headquarters offices to reduce funding for OEI libraries--a 
        reduction of 77 percent for these libraries from the previous 
        fiscal year. EPA did not allocate funds to help closing 
        libraries manage their collections; instead, the responsible 
        program or regional office used its annual funding to pay for 
        these costs. Services formerly provided by the closed libraries 
        are now provided on a fee-for-service basis by other libraries 
        in the network. While EPA did not track the costs associated 
        with closing the libraries, it estimated that it spent about 
        $80,000 through an existing contract to digitize 15,260 titles 
        between December 2006 and January 2007.

    We recommended that the Administrator of EPA continue the agency's 
moratorium on changes to the library network until the agency (1) 
develops a strategy to justify its reorganization plans; (2) improves 
its outreach efforts; (3) ensures sufficient oversight and control over 
the reorganization process, and continuously and consistently monitors 
the impact of the reorganization on EPA staff and the public; and (4) 
implements procedures that ensure that library materials are dispersed 
and disposed of consistently and in accordance with federal property 
management regulations. EPA agreed with the recommendations made in our 
report.

Background

    The EPA library network was established in 1971 to provide staff 
and the public with access to environmental information in support of 
EPA's mission to protect human health and the environment. The 
libraries differ in function, scope of collections, extent of services, 
and public access. Before the 2007 reorganization, the network 
comprised 26 libraries, each funded and managed by several different 
program offices at EPA: one library was managed by OEI and 10 by 
regional offices;\2\ eight libraries were located at EPA laboratories 
within the Office of Research and Development (ORD), and two were 
within the Office of Administration and Resources Management (OARM). In 
addition, each of the following program offices had one library: Office 
of the Administrator, Office of General Counsel, Office of Prevention, 
Pesticides, and Toxic Substances (OPPTS), Office of Enforcement and 
Compliance Assurance, and Office of Air and Radiation. A national 
program manager within OEI was responsible for coordinating the major 
activities of the entire EPA library network.
---------------------------------------------------------------------------
    \2\ OEI primarily funds these regional office libraries.
---------------------------------------------------------------------------
    Aside from visiting a physical location, the network provides 
access to its collections to its staff and to the public through (1) a 
Web-based database of library holdings--the Online Library System 
(OLS); (2) interlibrary loans from another network library or a public 
library; and (3) through a separate online database--the National 
Environmental Publications Internet Site (NEPIS). EPA staff also have 
access to other information sources--such as online journals, the 
Federal Register, news, databases of bibliographic information, and 
article citations--from their desktop computers.
    EPA began to evaluate its library network in 2003. It developed and 
issued studies to determine the value of library services and inform 
regional management of their options to support library services beyond 
fiscal year 2006.\3\ EPA also issued an internal report in November 
2005, which offered recommendations on how to maintain an effective 
library network if the library support budget were reduced. After these 
reports were issued, EPA established a Library Steering Committee--
composed of senior managers from EPA's program offices and regions--to 
develop a new model for providing library services to EPA staff. In 
August 2006, the steering committee issued the EPA FY 2007 Library 
Plan: National Framework for the Headquarters and Regional Libraries.
---------------------------------------------------------------------------
    \3\ U.S. Environmental Protection Agency, Office of Environmental 
Information, Business Case for Information Services: EPA's Regional 
Libraries and Centers, EPA 260-R-04-001 (January 2004); and Optional 
Approaches to U.S. EPA Regional Library Support, EPA 260-R-05-002 (June 
2005).
---------------------------------------------------------------------------
    The August 2006 library plan provided the framework for the network 
to begin reorganizing in the summer of 2006 in preparation for the 
proposed fiscal year 2007 budget reduction beginning in October 2006. 
The plan provided guidelines for EPA staff to determine how the 
collections would be managed; noted that OEI libraries in Regions 5, 6, 
and 7 would close, and that the headquarters library would close 
physical access to its collection but would function as a repository 
library, along with the OARM libraries in Cincinnati, Ohio, and 
Research Triangle Park, North Carolina. In addition, according to the 
plan, EPA is to develop Library Centers of Excellence, where a library 
with more expertise in a specific area of reference research would 
provide that service to staff in other regions.

Some Libraries Independently Decided to Close, Reduce Their Hours, or 
                    Take Other Actions, but the Final Network 
                    Configuration Is Still Uncertain

    As a part of EPA's 2006 reorganization effort, some EPA libraries 
have closed, reduced their hours of operation, or changed the way that 
they provide library services. Furthermore, some of these libraries 
have digitized, dispersed, or disposed of their materials. The future 
of EPA's library network--its configuration and its operations--are 
contingent on final policies and procedures, on EPA's response to 
directions accompanying its fiscal year 2008 appropriation, and on 
EPA's 2008 library plan.
    Owing to the decentralized nature of the EPA library network, each 
library decided on its own whether to change its operations. Table 1 
shows the operating status of each library in the EPA library network.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    While EPA's August 2006 library plan noted that three regional 
libraries--Regions 5, 6, and 7--and the headquarters library would 
close physical access to their libraries, it did not reflect other 
changes that occurred, as shown in Table 1. According to EPA officials, 
the plan focused on the OEI headquarters and regional office libraries, 
and they did not think it was necessary to reflect all changes that 
were planned for other libraries. The focus of the plan, according to 
EPA officials, was to set the framework on how library services would 
be provided electronically and not on what physical changes were to 
occur.
    Although no longer accessible to walk-in traffic from EPA staff and 
the public, the closed regional and headquarters libraries continue to 
provide library services, such as interlibrary loans and research/
reference requests, to EPA staff through service agreements that the 
closed libraries established with libraries managed by OARM or with the 
Region 3 library located in Philadelphia, Pennsylvania.\4\
---------------------------------------------------------------------------
    \4\ OARM libraries are located in Cincinnati, Ohio and in Research 
Triangle Park, North Carolina. The OARM libraries and the Region 3 
library have been designated as Centers of Excellence for the EPA 
library network, meaning that these libraries have staff qualified to 
conduct research in specific areas, have access to tools to support 
services, and have the ability to handle increased workload. According 
to EPA officials, the OARM libraries serve as Centers of Excellence for 
core library services, such as research requests and interlibrary 
loans, and the Region 3 library serves as a Center of Excellence for 
business research issues.
---------------------------------------------------------------------------
    As part of the library reorganization, each library in the network 
that was planning to close access to walk-in services independently 
decided which materials would be retained at their library or be 
selected for digitization, dispersal to EPA or non-EPA libraries, or 
disposal. Table 2 shows the actions taken by the closed libraries.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    In terms of digitization, the criteria in the August 2006 library 
plan noted that unique EPA materials--which, according to EPA 
officials, refers to materials created by or for EPA--that are not 
already electronically available in NEPIS would be digitized and made 
available in NEPIS. At the time of our review, 15,260 titles had been 
digitized, and EPA anticipates that a total of about 51,000 unique EPA 
library materials from closed and open libraries will be digitized.
    In terms of dispersal, EPA's library plan noted that a library 
choosing to disperse its materials can send materials to one of the 
EPA-designated repositories, other libraries in the library network, 
EPA regional record management centers, other federal agency libraries, 
state libraries and state environmental agency libraries, colleges and 
university libraries, public libraries, or e-mail networks used 
specifically to exchange library materials.
    Finally, in terms of disposal, the OEI headquarters library and the 
OPPTS Chemical Library disposed of some of their materials as a part of 
the reorganization. EPA's library plan noted that certain materials not 
claimed during the dispersal process could be destroyed. In total, the 
OEI headquarters library has disposed of over 800 journals and books, 
and the Chemical Library has disposed of over 3,000 journals and books.
    Recognizing that libraries could function more cohesively as a 
network, EPA established a new interim library policy in 2007 and 
established uniform governance and management for the network. This 
interim policy, among other things, (1) re-established the National 
Library Program Manager position, which was left vacant from 2005 
through 2007 and (2) resulted in 12 draft agency-wide library 
procedures, including procedures on digitizing and dispersing library 
materials, and developing a communication strategy. EPA officials told 
us that they do not have a time frame for completing these procedures 
but will complete them before the moratorium on changes to the network 
is lifted. The January 2007 moratorium was imposed in response to 
congressional and other concerns, and extended indefinitely in February 
2007.
    The future of the library network, its configuration, and its 
operations are contingent on the completion of the final policies and 
procedures, on EPA's response to directions accompanying its fiscal 
year 2008 appropriation,\5\ and on EPA's 2008 library plan. In an 
explanatory statement accompanying the fiscal year 2008 Consolidated 
Appropriations Act, $1 million was allocated to restore the network of 
EPA libraries that were recently closed or consolidated. The 
explanatory statement also directed EPA to submit a plan to the 
Committees on Appropriations within 90 days of enactment regarding 
actions it will take to restore the network. Separately; EPA officials 
told us that they are developing a Library Strategic Plan for 2008 and 
Beyond, which details EPA's library services for staff and the public 
and a vision for the future of the library network.
---------------------------------------------------------------------------
    \5\ Pub. L. No. 110-161.

EPA Did Not Effectively Justify Its Decision to Reorganize Its Library 
                    Network

    EPA reorganized its library network primarily to save costs by 
creating a more coordinated library network and increasing the 
electronic delivery of library services. However, EPA did not fully 
complete several analyses, including many that its 2004 study 
recommended. In addition, EPA's decision to reorganize its library 
network was not based on a thorough analyses of the costs and benefits 
associated with such a reorganization.
    EPA initiated its 2004 Business Case study because of ongoing 
budget uncertainties and because of technological changes in how users 
obtain information and how commercial information resources are made 
available. While the study concluded that EPA's libraries provide 
``substantial value'' to the agency and the public, it raised concerns 
about EPA's ability to continue services in its present form. As such, 
the study recommended that EPA take several actions to foster an 
agency-wide discussion on the library network's future. In addition, 
according to Office of Management and Budget guidance, a benefit-cost 
analysis should be conducted to support decisions to initiate, renew, 
or expand programs or projects, and that in conducting such an 
analysis, tangible and intangible benefits and costs should be 
identified, assessed, and reported.\6\ One element of this analysis is 
an evaluation of alternatives to consider different methods of 
providing services to achieve program objectives.
---------------------------------------------------------------------------
    \6\ Office of Management and Budget, Guidelines and Discount Rates 
for Benefit-Cost Analysis of Federal Programs, OMB Circular A-94 
(Washington, D.C.: Oct. 29, 1992).
---------------------------------------------------------------------------
    However, EPA did not fully complete these assessments before it 
closed libraries and began to reorganize the network. According to EPA 
officials, EPA decided to reorganize its libraries without fully 
completing the recommended analyses in order to reduce its fiscal year 
2007 funding for the OEI headquarters and regional office libraries by 
$2 million. This claimed savings, however, was not substantiated by any 
formal EPA cost assessment. According to EPA officials, the $2 million 
funding reduction was informally estimated in 2005 with the expectation 
that EPA would have been further along in its library reorganization 
before fiscal year 2007. Furthermore, EPA did not comprehensively 
assess library network spending in advance of the $2 million estimation 
of budget cuts.
    By not completing a full assessment of its library resources and 
not conducting a benefit-cost analysis of various approaches to 
reorganizing the network, EPA did not justify the reorganization 
actions in a way that fully considered and ensured adequate support for 
the mission of the library network, the continuity of services provided 
to EPA staff and the public, the availability of EPA materials to a 
wider audience, and the potential cost savings. In effect, EPA 
attempted to achieve cost savings without (1) first determining whether 
potential savings were available and (2) performing the steps that its 
own study specified as necessary before moving forward.

EPA Did Not Fully Inform or Solicit Views from the Full Range of 
                    Stakeholders on the Reorganization But Is Now 
                    Increasing Its Outreach Efforts

    Communicating with and soliciting views from staff and other 
stakeholders axe key components of successful mergers and 
transformations.\7\ We have found that an organization's transformation 
or merger is strengthened when it (1) makes public implementation goals 
and a timeline; (2) establishes an agency-wide communication strategy 
and involves staff to obtain their ideas, which among other things, 
involves communicating early and often to build trust, ensuring 
consistency of message, and incorporating staff feedback into new 
policies and procedures; and (3) adopts leading practices, such as 
those for library services, to build a world-class organization. While 
EPA did not fully take these actions during the library reorganization, 
it is now reaching out to both EPA staff and external stakeholders.
---------------------------------------------------------------------------
    \7\ GAO, Results-Oriented Cultures: Implementing Steps to Assist 
Mergers and Organizational Transformations, GAO-03-669 (Washington, 
D.C.: July 2, 2003). This report identified nine key practices and 
related implementation steps that have led to successful mergers and 
transformations in large private and public sector organizations.
---------------------------------------------------------------------------
    EPA's August 2006 library plan did not inform stakeholders on the 
final configuration for the library network or implementation goals and 
a timeline. Through the library plan, EPA generally informed internal 
and external stakeholders of its vision for the reorganized library 
network, noting that EPA would be moving toward a new model of 
providing library services to EPA staff and the public. However, EPA 
did not provide enough information on how the final library network 
would be configured or the implementation goals and timeline it would 
take to achieve this configuration. For example, EPA did not inform its 
staff or the public that OPPTS would close its Chemical Library and 
that other libraries would reduce their hours of operation or make 
other changes to their library services. According to OEI officials, 
the plan was intended to provide a framework for how new services would 
be provided and not to lay out the network's physical configuration. 
Without a clear picture of what EPA intends to achieve with the library 
network reorganization and the implementation goals and timeline to 
achieve this intended outcome, EPA staff may not know if progress is 
being made, which could limit support for the network reorganization.
    Because EPA's library structure was decentralized, EPA did not have 
an agency-wide communication strategy to inform EPA staff of, and 
solicit their views on, the changes occurring in the library network, 
leaving that responsibility to each EPA library. As a result, EPA 
libraries varied considerably in the information they provided to staff 
on library changes.
    For example, management in only a few of the regions solicited 
views from their regional staff through discussions with their regional 
science councils--an employee group located in each region composed of 
EPA scientists and technical specialists--or unions.\8\ In addition, 
EPA generally did not communicate with and solicit views from external 
stakeholders before and during the reorganization because it was moving 
quickly to make changes in response to proposed funding cuts. Of the 
libraries that closed, only the headquarters library informed the 
public of the changes occurring at its library by posting a 
notification in the Federal Register.\9\ EPA also did not fully 
communicate with and solicit views from professional library 
associations while planning and implementing its library 
reorganization. EPA did meet with the American Library Association, a 
professional library association, on a few occasions, but did so later 
in the reorganization planning process. Without an agency-wide 
communication strategy, staff ownership for the changes may be limited, 
and staff may be confused about the changes. Furthermore, EPA cannot be 
sure that the changes are meeting the needs of EPA staff and external 
stakeholders.
---------------------------------------------------------------------------
    \8\ In September 2007, the national EPA union held arbitration 
talks with EPA. The EPA union won its unfair labor practice claim 
against the agency. More specifically, the Federal Labor Relations 
Authority administrative law judge ruled that EPA violated federal 
labor law by failing to enter arbitration with the union regarding its 
grievance about the library restructuring. U.S. Environmental 
Protection Agency v. American Federation of Government Employees. The 
ruling also required the agency to post signs notifying employees that 
EPA had violated labor law. On February 15, 2008, an arbitrator found 
that EPA had violated provisions of the Master Collective Bargaining 
Agreement by not engaging the union in impact and implementation 
bargaining pertaining to the reorganization of its library network. EPA 
v. American Federation of Government Employees Council 238, FMCS Case 
No. 07-50725 (George Edward Lamey, Arbitrator).
    \9\ 71 Fed. Reg. 54,986 (Sept. 20, 2006).
---------------------------------------------------------------------------
    Finally, EPA did not solicit views from federal and industry 
experts regarding the digitization of library materials and other 
issues. These experts could have provided leading practice information 
and guidance on digitization processes and standards for library 
materials. As such, EPA cannot be sure that it is using leading 
practices for library services.
    Recognizing the need to communicate with and solicit the views of 
staff, external stakeholders, and industry experts, EPA recently 
increased its outreach efforts. For example, EPA asked local unions to 
comment on a draft of the 2008 library plan, and attended and presented 
information at a stakeholder forum at which a number of professional 
library associations were present. Furthermore, OEI started working 
with the Federal Library Information Center Committee, a committee 
managed by the Library of Congress, to develop a board of advisers that 
will respond to EPA administrators and librarians' questions about the 
future direction of EPA libraries.

EPA Lacks a Strategy to Ensure Continuity of Library Services and Does 
                    Not Know Whether Its Actions Have Impaired Access 
                    to Environmental Information

    EPA does not yet have a strategy to ensure that library services 
will continue and does not know the full effect of the reorganization 
on library services. However, several changes it has made may have 
limited access to library materials and services. According to our 
review of key practices and implementation steps to assist mergers and 
organizational transformations, organizations that are undergoing 
change should seek and monitor staff attitudes and take the appropriate 
follow-up actions. While EPA's library plan describes the 
reorganization effort as a ``phased approach,'' it does not provide 
specific goals, timelines, or feedback mechanisms so that the agency 
can measure performance and monitor user needs to ensure a successful 
reorganization while maintaining quality services. In addition, to 
balance the continued delivery of services with merger and 
transformation activities, it is essential that top leadership drives 
the transformation. However, during the reorganization, EPA did not 
have a national program manager for the library network to oversee and 
guide the reorganization effort.
    Several changes that EPA made to its library network may have 
impaired the continued delivery of library materials and services. For 
example, because of copyright issues, only unique reports produced by 
or for EPA will be digitized in NEPIS--only about 10 percent of EPA's 
holdings of books and reports. If the material is not available 
electronically, EPA staff in locations where libraries have closed will 
receive the material through an interlibrary loan--delaying access to 
the materials from one day to up to 20 days. EPA also does not have a 
plan to ensure the continuation of library services for the public, 
such as State and local government environmental agencies, 
environmental groups, and other nongovernmental organizations.
    Furthermore, EPA may have inadvertently limited access to 
information because it did not determine whether federal property 
management regulations applied to the dispersal and disposal of library 
materials and hence may have disposed of materials that should have 
been retained. For example, the Regions 5 and 6 libraries gave 
materials to private companies, and the OEI headquarters library and 
the Chemical Library discarded materials without first determining that 
they had no monetary value. EPA officials stated that it was unclear 
whether library materials, such as books and journals, were subject to 
federal property management regulations. EPA officials stated that they 
will engage federal property management officials at GSA regarding what 
steps should be taken in the future.

EPA Program Offices Are Responsible for Funding Their Libraries and 
                    Their Reorganization Through Their Support Budgets

    The program offices responsible for the EPA libraries in the 
network generally decide how much of their available funding to 
allocate to their libraries out of larger accounts that support 
multiple activities. Until fiscal year 2007, library spending had 
remained relatively stable, ranging from about $7.14 million to $7.85 
million between fiscal years 2002 and 2006.\10\ OEI, which is the 
primary source of funding for the regional libraries, typically 
provides funding for them through each region's support budget, and 
generally allows regional management to decide how to allocate this 
funding among the library and other support services, such as 
information technology. For fiscal year 2007, OEI management decided to 
reduce funding for the OEI headquarters and regional office libraries 
by $2 million, from $2.6 million in enacted funding for fiscal year 
2006--a 77 percent reduction for these libraries and a 28 percent 
reduction in total library funding. After $500,000 of the $2 million 
reduction was applied to the headquarters library, the regional 
administrators together decided that the remaining $1.5 million 
reduction should be spread equally across all regions, rather than by 
staffing ratios in each region or previous years' spending. The $2 
million reduction for the libraries was included in the President's 
fiscal year 2007 budget proposal for EPA. However, like most agencies, 
EPA was included in the full-year continuing resolution, which held 
appropriations near fiscal year 2006 levels. The continuing resolution 
was enacted after EPA began reorganizing the library network. According 
to EPA, OEI restored $500,000 to the library budget in fiscal year 2007 
to support reorganization activities.
---------------------------------------------------------------------------
    \10\ These figures are based on estimates from EPA. We did not 
independently determine their accuracy. Because EPA does not track 
library funding, each library in the network provided estimates that 
were based on past spending and enacted funding. However, libraries may 
have varied in the type of spending data provided in terms of whether 
the data included contract costs, salaries, and acquisitions.
---------------------------------------------------------------------------
    When planning the reorganization, EPA recognized that the 
responsible dispersal, disposal, and digitization of an EPA library 
collection is a major project requiring planning, time, and resources. 
However, EPA did not allocate funds specifically to help the closing 
libraries manage their collections. According to EPA, the funding for 
library closures was taken into account during the budget process. As a 
result, the program or regional office responsible for the library used 
its usual library funding available at the end of fiscal year 2006 to 
pay for closing costs.
    Mr. Chairman, this concludes my prepared statement. I would be 
happy to respond to any questions that you and Members of the 
Subcommittee may have.

                    Biography for John B. Stephenson
    Mr. Stephenson is currently the Director of Natural Resource and 
Environment issues for the U.S. Government Accountability Office--the 
independent investigative arm of the Congress. In that capacity, he has 
for the past eight years directed numerous studies and research 
projects, issued hundreds of reports, and testified on many occasions 
before several Senate and House Committees. His work has provided 
invaluable assistance to the Congress in its oversight and legislative 
role on diverse environmental protection issues such as clean air, 
clean water, safe drinking water, chemical controls, toxic substances, 
climate change, superfund, and hazardous materials spill prevention and 
cleanup, as well as critical infrastructure protection.
    He began his career in GAO's Cincinnati Field Office, and 
transferred to GAO's Washington D.C. headquarters office in 1987 where 
he worked on a variety of information technology and national and 
international security issues. From April 1998-February 2000, he was 
Deputy Staff Director for the Senate Special Committee on the Year 2000 
Technology Problem for the Chairman (Senator Robert Bennett, R-UT), and 
Vice Chairman (Senator Christopher Dodd, D-CT). In that capacity, he 
ran the day-to-day operations of the Committee including orchestrating 
over 35 hearings, preparing legislation, organizing briefings and floor 
activities for the full Senate, working with the White House's Year 
2000 Director and staff, and organizing numerous press and public 
events. He returned to GAO in March 2000 where he was executive 
assistant to the U.S. Comptroller General (the head of GAO) until 
entering the Senior Executive Service in October 2000.
    Mr. Stephenson holds a BS degree in Industrial Management from 
Purdue University, an MBA from Xavier University, and is a graduate of 
the Harvard Kennedy School of Government's Senior Executive Fellows 
program. He lives in Fairfax Station, Virginia with his wife, his 11-
year-old daughter, and his 9-year-old son.

    Chairman Miller. Thank you, Mr. Stephenson. Mr. Orzehoskie.

   STATEMENT OF MR. CHARLES ORZEHOSKIE, PRESIDENT, NATIONAL 
 COUNCIL OF EPA LOCALS #238, AMERICAN FEDERATION OF GOVERNMENT 
                           EMPLOYEES

    Mr. Orzehoskie. Good morning. I would like to thank 
Chairman Miller, Congressman Sensenbrenner, and Members of the 
Subcommittee on Investigations and Oversight for this 
opportunity to appear before you today.
    My name is Charles Orzehoskie. I am President, AFGE Council 
238, and I have worked for EPA for over 37 years, more than 20 
of those years as a supervisor. I hold an engineering degree 
from Illinois Institute of Technology, and a law degree from 
DePaul University in Chicago. Our organization, AFGE Council 
238, represents almost 9,000 employees of EPA, and 11 locals 
throughout the country, and we strive to improve the working 
conditions and agency efficiency.
    For EPA to carry out our mission requires a deep 
understanding of environmental science that EPA engineers and 
scientists have historically utilized the EPA libraries and 
library staff to assist them in that effort. Sadly, EPA library 
services are no longer available to staff or to the general 
public at two headquarters libraries and three regional 
offices.
    Yet, on February 6 of 2007, EPA Administrator Stephen L. 
Johnson testified before the Senate Environmental and Public 
Works Committee, stating: ``We discontinued walk-in service at 
five of our 26 libraries, and reduced the hours of operation at 
other libraries. However, the services provided remain 
unchanged.''
    Council 238 does not understand Administrator Johnson's 
statement. For example, he must not have visited Chicago 
recently, because the space where the library was located is 
vacant. Even the furniture has been sold. How have the services 
provided remained unchanged, particularly for any person who 
does not receive EPA messages explaining the new library 
procedures?
    Administrator Johnson further testified, ``EPA saw a 
decline in the walk-in traffic at many of our libraries,'' 
implying the public's demand for information had decreased. The 
decline in walk-in traffic may be due, in part, to increased 
security measures at federal buildings since 9/11, and EPA 
budget reductions in public outreach programs, but the public's 
interest in environmental issues remains strong.
    At the same hearing, Leslie Burger, President of the 
American Library Association, testified: ``Is the EPA library 
plan based on end-users' needs? Apparently not.'' The Council 
tried to work with the EPA on this issue, but we were 
stonewalled. Management was apparently not interested in the 
Agency's engineers and scientists had to say about EPA 
libraries. Unfortunately, so many of this Administrator's 
decisions appear to based on the President's Management Agenda, 
PMA, and not on the mandate of Congress, the will of the 
American people, or what would be best for accomplishing EPA's 
mission.
    We have many concerns about closing libraries. Let me just 
summarize that common sense suggests that to make sound 
scientific decisions, data and information are at the heart of 
a good process, and closing libraries at this time appears to 
work counter to that objective. We have been told that the 
libraries were closed to save the government money, yet this 
doesn't make sense. EPA's own Office of Environmental 
Information did a cost-benefit analysis in 2004, which 
estimated that EPA's library network saved Agency professional 
staff 214,000 hours, a cost saving of approximately $7.5 
million. The benefit-to-cost ratio was conservatively estimated 
at 4.4 to one.
    EPA management has stated that closing the libraries was 
also an act of modernization. Hopefully, at some time in the 
future, we will see positive results of modernization. However, 
wouldn't it have made sense to have piloted the project, tested 
how well digitization worked, and only then considered whether 
there was a need for redundancy of hardcopy? More should have 
been done before declaring ``Mission Accomplished,'' turning 
off the lights, locking the doors, and tossing out documents.
    When AFGE Council 238 first raised the issue of libraries, 
EPA rebuffed the Council, saying the Union's request for input 
was premature. In March of 2006, after EPA Region 5 announced 
the regional library would close, we issued a demand to bargain 
over the libraries, thinking the issue was now ripe for 
negotiations. However, management again refused to bargain, and 
instead, went ahead and dismantled EPA libraries.
    On August 16, 2006, Council 238 filed a grievance against 
EPA for failure to negotiate. Filed by Council 238 invoking 
arbitration over the grievance after the Agency declined to 
settle. Still, the Agency refused to bargain. On February 5, 
2007, we filed with the Federal Labor Relations Authority 
(FLRA) for the Agency's failure to pick an arbitrator.
    FLRA Judge Pearson ordered the Agency ``to cease and desist 
from failing or refusing to proceed to arbitration, or 
interfering with its employees in their rights to exercise 
their rights assured by the Federal Service Labor Management 
Relations statute.'' Then, on September 25, 2007, an 
arbitration was heard, and Arbitrator George E. Larney's 
opinion was issued last month. The opinion found that the 
Agency had violated applicable provisions of the union contract 
when it acted to forestall and preclude engaging the Council in 
bargaining. The Arbitrator ruled to sustain the grievance and 
order the Agency to engage the Council in bargaining.
    Arbitrator Larney stated in his finding: ``The evidence 
reveals that the Agency stonewalled the Union with regard to 
negotiations, let alone allowing the Union a real and viable 
role in the library reorganization process.'' Arbitrator Larney 
went on to state: ``If the Agency's conduct was not bad enough, 
the Agency compounded the error of its ways by closing 
libraries unilaterally without the benefit of legitimate Union 
input.''
    EPA's report to Congress on reopening the libraries is due 
later this month. Yet EPA, even after Larney's ruling, has 
failed to meet with the Council to negotiate any aspect of the 
library closing. This type of behavior, where EPA ignores the 
rights of its employees, must stop.
    In conclusion, the EPA should depend on impartial research 
and science to make informed decisions, and a first class EPA 
library can help with those decisions. Council 238 would like 
to see the libraries reopened and restored by the end of this 
fiscal year, and we thank Congress for providing $1 million in 
the fiscal year 2008 budget to reopen the libraries.
    However, we are concerned that the funding may be 
insufficient to get all of the libraries open, and there was no 
funding to hire research librarians, a critical aspect of any 
library, let alone a state of the art environmental library.
    Finally, in almost four decades of working for EPA, I have 
never experienced such an unprecedented level of political 
consideration in the performance of EPA's missions. This 
political influence threatens the integrity of EPA engineers 
and scientists, and undermines the very mission of the Agency, 
and must stop.
    Thank you again for the opportunity to speak on behalf of 
AFGE Council 238 and its almost 9,000 engineers, scientists, 
and staff, which we represent.
    I am happy to take any questions from the Committee.
    [The prepared statement of Mr. Orzehoskie follows:]
                Prepared Statement of Charles Orzehoskie
    Good morning, Chairman Miller, Congressman Sensenbrenner and 
Members of the Subcommittee on Investigations and Oversight. I thank 
you for this opportunity to appear before you today to present AFGE 
Council 238's views about the closure of EPA's libraries.

INTRODUCTION

    My name is Charles Orzehoskie. I am President of the National 
Council of EPA Locals# 238 of the American Federation of Government 
Employees (AFGE). I have worked for EPA for over 37 years as a 
professional engineer in the construction grants program, facilities 
planning, and 208 plans under the Clean Water Act, and served as Chief 
of EPA Region 5's Wetlands Enforcement Program. Over 20 years of my EPA 
service has been as a supervisor, including two years on an Interagency 
Personnel Agreement to the Indiana Department of Environment Management 
as Chief of their Facilities Development Branch. I am a Licensed 
Attorney in the State of Illinois, and have been a Registered 
Professional Engineer in the States of Indiana and Illinois. 
Additionally, I served two terms as the Vice President of the Illinois 
Society of Professional Engineers, and have been a member of both the 
American Bar Association and the Chicago Bar Association.

AFGE COUNCIL 238

    AFGE Council 238 represents almost 9,000 employees of the 
Environmental Protection Agency (EPA) who are first and foremost, 
committed to the protection of human health and the environment, and 
ensuring that our nation's environmental acts, laws and regulations are 
carried out. AFGE Council 238's mission is to strive to improve 
workplace conditions so that EPA employees have the opportunity, 
support and tools needed to accomplish EPA's mission and advance in 
their chosen field and respective careers.
    AFGE Council 238 does this as our employees' exclusive legal 
representative in national labor negotiations, and works to obtain 
agreements which provide our members with a supportive work environment 
and improved opportunities to work more effectively and efficiently for 
the protection of human health and the environment.

EPA'S MISSION AND WHY LIBRARIES ARE IMPORTANT

    EPA's mission is to protect human health and the environment. To 
carry out that mission requires a deep understanding of environmental 
science and technology. EPA engineers, risk assessors, and scientists 
rely heavily on EPA technical information and have over the years 
utilized EPA libraries to perform their jobs in an effective and 
efficient manner. EPA library staff provide Agency professionals with 
the latest research on cutting-edge environmental, homeland security 
and public health issues.
    In addition, EPA libraries conduct business searches for EPA 
inspectors, investigators, and enforcement officers, providing a host 
of other resources that cannot be found with a standard Internet 
search. EPA technical library staff provide vital support services that 
allow EPA employees to spend more time conducting inspections, writing 
public health and environmental policies and reports, and enforcing and 
implementing EPA regulations.

EPA LIBRARY CLOSURES

    Sadly, EPA library services are no longer available to EPA staff or 
the general public at two EPA Headquarters libraries and three Regional 
libraries (Region 5 in Chicago, Region 6 in Dallas, and Region 7 in 
Kansas City)--which serve 15 states. EPA libraries in Regions 1 
(Boston), 2 (New York), 9 (San Francisco), and 10 (Seattle) have 
reduced hours. The closure of EPA Headquarters' Office of Prevention, 
Pesticides and Toxic Substances (OPPTS) library was a particularly 
severe loss to the public, research institutes, as well as EPA 
engineers, risk assessors, and scientists.

CLOSURE OF OPPTS HEADQUARTERS LIBRARY

    The EPA Headquarters OPPTS Chemical Library was shut down on 
October 20, 2006. It provided research services to EPA scientists who 
review industry requests for the introduction of new chemicals into the 
environment. Among other holdings, the library contained unique 
toxicological studies on the potential effects of pesticides on 
children, up-to-date research on genetically engineered chemicals and 
other biotech products, and extensive literature on emergency planning 
and chemical risk assessments.
    EPA scientists often begin their reviews by looking at the effects 
of similar chemicals or analogues--a technique hampered by closing the 
library housing research on chemicals and their effects. Headquarters 
EPA scientists now have fewer resources to conduct thorough analyses on 
hundreds of new chemicals for which companies are clamoring for ``EPA 
approval.''
    When it was closed, the OPPTS library's valuable, paper-only 
collection was moved into boxes, and stored in a Headquarters basement 
cafeteria. EPA made no public announcement concerning its dismantling 
of the OPPTS Library, nor was it mentioned in the ``EPA FY 2007 
Framework'' as one of the several libraries slated to be shuttered. It 
is a travesty that EPA closed this all important library critical to 
the Agency's mission and the general public.
    We concur with Leslie Burger, President of the American Library 
Association and Director of the Princeton Library, when she testified 
before the Senate Environment and Public Works Committee on February 6, 
2007, ``In an age of global warming and heightened public awareness 
about the environment, it seems ironic that the Administration would 
choose this time to limit access to years of research about the 
environment.''

WHY PUBLIC ACCESS TO EPA LIBRARIES IS CRUCIAL

    Public access to EPA libraries is crucial because without it, 
organizations such as the Lake Michigan Federation may never have come 
into existence. While raising four children in Chicago's Hyde Park 
neighborhood in the 1950s and 1960s, Lee Botts became involved as a 
volunteer in several local issues leading up to taking a leadership 
role in the campaign which in 1966 resulted in the creation of the 
Federal Indiana Dunes National Lakeshore. In 1971, Ms. Botts founded 
the Lake Michigan Federation. The Lake Michigan Federation was the 
first independent citizens' organization dedicated to the protection 
and preservation of a specific Great Lake. Part of the reason for Ms. 
Botts' success was her frequent visits to the EPA Region 5 library in 
Chicago. Today, the Lake Michigan Federation is known as the Alliance 
for the Great Lakes, and has been instrumental in the effort to restore 
the sixth largest lake in the world. EPA Region 5's library is now 
closed, so I am concerned for the new Lee Botts of this country who may 
not have access to a world-class environmental library.

IMPACT OF EPA LIBRARY CLOSURES ON STAFF

    On February 6, 2007, EPA Administrator Stephen L. Johnson testified 
before the Senate Committee on Environment and Public Works, stating in 
part, ``We discontinued walk-in services at five of our 26 libraries 
and reduced the hours of operations at some other libraries. However, 
the services provided remain unchanged.'' AFGE Council 238 does not 
understand Administrator Johnson's statement based upon the fact that 
there are no libraries in Region 5 (Chicago), Region 6 (Dallas), and 
Region 7 (Kansas City) or at EPA Headquarters, particularly the OPPTS 
library. In Chicago, the space is vacant; even the furniture has been 
sold. How have ``. . .the services provided remain unchanged. . .''?
    We surveyed some of our bargaining unit and they indicated adverse 
impacts due to the closure of the EPA Library in their location. High 
on the list of concerns and complaints was the loss of quick and direct 
access by EPA Ecologists, Environmental Engineers, Environmental Health 
Scientists, Environmental Scientists, Risk Assessors, and 
Toxicologists, among others, to EPA studies, reports, and reference 
materials. Many of our top engineers, risk assessors and scientists 
find themselves either purchasing their own expensive reference texts, 
or spending time in university libraries that might otherwise be better 
spent if we had our libraries back.
    High on the list of concerns in Chicago was the loss of the 
specialized reference materials for the Great Lakes National Program 
Office. Yet on February 6, 2007, EPA Administrator Johnson testified 
that, ``Let me also assure you that unique EPA material has been 
retained, catalogued, and is available to EPA and the public.'' Our 
bargaining unit employees tell us they cannot access some of these 
materials. Does EPA management know where all of the Great Lakes 
National Program Office material is? Can they assure us that ALL of the 
``. . .unique EPA material has been retained, catalogued, and is 
available to EPA and the public?''
    Administrator Johnson also testified on February 6, 2007, ``EPA saw 
a decline in the walk-in traffic at many of our libraries,'' implying 
that the public's demand for information had decreased. EPA libraries 
were used as repositories for information on Superfund Sites, among 
other things, which the general public has now lost access to in at 
least four major metropolitan areas (Chicago, Dallas, Kansas City and 
Washington, DC). The decline in walk-in traffic may be due in part to 
increased security measures at federal buildings since 9-11. We also 
believe that EPA budget reductions in public outreach programs have 
contributed to a decline in walk-in traffic. However, I do believe that 
the general public's interest in environmental issues is still strong. 
I am left with the question as to whether or not EPA wants walk-in 
traffic and a public engaged in environmental decision-making. If the 
Agency really wanted to find out what the public wanted or needed from 
EPA libraries, it should have publicly noticed its proposed changes to 
library services AND held information sessions in the locations where 
the libraries were either going to be closed or the hours reduced.
    EPA employees have already experienced significant decreases in the 
support necessary to maintain their ability to work effectively and 
efficiently due to decreases in travel and training dollars. Now with 
the decreases in networking support EPA libraries offered, their 
ability to perform their jobs has been further diminished. The loss of 
institutional memory, as well as the loss of expertise from 
professional librarians in the Regions, hampers the scientific 
decision-making process. The current Administrator maintains that he 
wants decisions that are scientifically based, yet the ability of EPA 
staff to accomplish sound science continues to be impaired. Is the real 
goal to have even more of the technical assistance and evaluations 
contracted out at higher cost to the taxpayer?
    How much money can EPA possibly save by taking away reasonable 
access to newswires and reports that inform Agency technical staff of 
so many issues that impact EPA's mission, in a condensed and summarized 
form? The idea of taking away EPA staffs' easy access to important 
environmental journals is appalling. Certainly, it can be said that 
EPA's library plan was not based on an assessment of the end-users 
needs. On February 6, 2007, Leslie Burger testified, ``Is EPA's library 
plan based on the end-users' needs? Apparently not. . .ALA doesn't see 
what's being done as connected to users' needs in any way.'' AFGE 
Council 238 agrees with Ms. Burger's testimony.
    The Council tried to work with EPA management but was stonewalled. 
Management was apparently not interested in what the Agency engineers, 
risk assessors, and scientists had to say about EPA libraries. The 
Administration's action in shuttering EPA Libraries appears penny wise, 
pound foolish and a step backwards in protecting the environment. 
Unfortunately, so many of the Administrator's decisions appear to be 
based on the President's Management Agenda, and not on the mandates of 
Congress, the will of the American people or what would be in the best 
interest of accomplishing EPA's mission.

AFGE COUNCIL 238 IS CONCERNED:

        <bullet>  Because the $2 million budget cut for EPA libraries 
        was proposed by the President and the Office of Management and 
        Budget, but carried out without Congressional approval by EPA 
        management. AFGE Council 238 believes that the EPA library 
        closures reduces the effectiveness of EPA, and continues to 
        demoralize its employees.

        <bullet>  About the sudden, draconian manner, in which EPA 
        libraries were closed, with little regard to protection of 
        unique collections of technical reports and documents, such as 
        the Great Lakes collection. We consider it one more example of 
        suppressing information on environmental and public health-
        related topics.

        <bullet>  Because we consider the EPA library closures to be an 
        ``environmental justice'' (EJ) issue. At least four major 
        metropolitan areas have lost EPA libraries--Chicago (Region 5), 
        Dallas (Region 6), Kansas City (Region 7), and Washington, DC 
        (Headquarters). It is an EJ issue because people of color and 
        lower economic means have been impacted disproportionately by 
        these library closures since they rely more heavily on publicly 
        accessible services.

        <bullet>  In the interim, until digitization is completed, the 
        ability of EPA to respond to emergencies may well be reduced 
        because important reference materials are not available or will 
        take a significant time to be retrieved from storage or another 
        library.

        <bullet>  That the public will no longer have convenient access 
        to many of EPA's past reports and technical documents, even 
        though EPA management has indicated that the public will get 
        their information either from EPA hotlines, program staff 
        (which would require a Freedom of Information Act or FOIA 
        request), or from the EPA website.

        <bullet>  EPA management has assured Agency personnel and the 
        general public that all documents will be available ``on-
        line,'' for easy retrieval. Yet, EPA's own National 
        Environmental Publications Information System has indicated 
        that thousands of documents have yet to be ``digitized.''

EPA'S RATIONALE--TO PROMOTE INCREASED EFFICIENCIES

    Senior EPA managers touted the message that the $2 million budget 
reduction, and subsequent library closures, would promote increased 
``efficiencies,'' with virtually all EPA reports being available in an 
electronic format. These ``savings'' were illusory, and nothing could 
have been further from the truth. Here are some sobering facts 
regarding the EPA library closures:

        <bullet>  EPA's Office of Environmental Information (OEI), in a 
        cost-benefit analysis completed in 2004 (``Business Case for 
        Information Services: EPA's Regional Libraries and Centers,'' 
        EPA-260-R-04-001, January 2004), estimated that EPA's library 
        network saved Agency professional staff more than 214,000 
        hours--a cost savings of approximately $7.5 million. The 
        benefit to cost ratio was conservatively estimated at 4.4-to-1. 
        Despite this study indicating cost savings by maintaining these 
        specialized environmental libraries, EPA shuttered those same 
        libraries in a ``cost savings'' move. It is interesting to note 
        that this report stated, ``Librarians are found to save 
        professional staff as much as 16 hours ``per question 
        answered.'' Patron surveys also suggest that librarians save 
        professional staff approximately one hour ``per document 
        delivered.'' That adds up to huge hidden costs in wasted salary 
        dollars when you multiply EPA staffs' time to do their own 
        library searches. The report even explains why this happens: 
        ``Library patrons do not always come with well-formed questions 
        or clearly articulated requests for specific information 
        resources. Rather, research is frequently a joint venture 
        between the patron and the librarian.''

           
    I find it pretty sad that Agency management apparently ignored this 
report in its frenzy to shutter EPA libraries. The Agency's own report 
stated, ``Many of EPA's mission activities entail the need for rapid 
and/or repeated access to relatively specialized collections of data, 
scientific information and methods, and legal and legislative 
information. Similarly, it is necessary for EPA scientists, economists, 
attorneys, financial analysts, and other professional staff to stay 
abreast of cutting-edge developments and state-of-the-discipline 
information. The establishment of these collections enable EPA 
professionals to save time during the research phase of their 
activities, to conduct rapid turnaround research projects in response 
to evolving events, and to complete research projects that might have 
been stymied were unique and appropriate references not immediately 
available.'' The report concluded that EPA libraries were ``. . 
.clearly a source of substantial value to the Agency, its stakeholders, 
and the public. Even employing the most conservative of assumptions, 
benefit-to-cost ratios for core library services indicate that 
libraries ``give back'' far more than they take in terms of Agency 
resources. . ..''

           As a result of the EPA library closures, we have literally 
        thousands of EPA staff conducting their own library searches. 
        This is not a cost-effective use of EPA employees' time. We 
        find the February 6, 2007, testimony of Ms. Leslie Burger 
        particularly on point regarding the need for librarians when 
        she stated, ``ALA understands that we are living in the 21st 
        century, an age when users can access much of what they need 
        from their own desk. . .. But the bottom line is that libraries 
        still need skilled professionals to a) assist users, b) 
        organize Internet access, and c) determine the best way to make 
        the information available to those users. When searching the 
        EPA site, one retrieves thousands of hits for a topic such as 
        ``water.'' When qualifying the search by a date range the 
        results include items outside the date range. The user will 
        wonder about the veracity of the data and will need the 
        assistance of the librarian.''

        <bullet>  Some of EPA's library collections were dispersed 
        without establishing any standard procedures or criteria to 
        ensure that important documents were not lost. For instance, 
        the EPA Region 5 library in Chicago closed on September 30, 
        2006, and its collections were offered to other libraries. Ms. 
        Leslie Burger in her February 6, 2007, testimony stated ``What 
        this ``dispersement'' entails isn't exactly clear at this point 
        and what concerns us is how this information will be handled, 
        and therefore what type of long-term damage has been done to 
        the effectiveness of EPA and the ability of the American public 
        to find important environmental and government information.'' 
        Can EPA management account for ALL of the documents and 
        materials from, for example the Great Lakes collection?

        <bullet>  The National Environmental Publications Information 
        System, EPA's repository of electronic documents, currently 
        holds over 25,000 documents. But the Agency has thousands more 
        documents that should be retained; most of these are not yet 
        available in any electronic format. EPA management has not 
        addressed the issue of how much it will cost to digitize these 
        thousands of reports, where the money will come from, or how 
        long it will take to complete the task.

        <bullet>  EPA's approach did not consider how university, 
        school, and municipal libraries will borrow paper copies of 
        EPA's documents through the interlibrary loan process.

        <bullet>  EPA's approach has deprived working-class people of a 
        user-friendly, well-staffed EPA library system that could 
        provide them with environmental and public health information.

MODERNIZATION OF EPA LIBRARIES

    EPA management has stated that shuttering its libraries was an act 
of modernization. As the saying goes, ``the devil is in the details.'' 
If AFGE Council 238 had been tasked with modernizing EPA's libraries, 
we would have first consulted with the experts such as the American 
Library Association, the Association of Research Libraries, and the 
American Association of Law Libraries. We would have acknowledged up-
front that not all parts of each EPA's library collection could be 
digitized, since much of it is copyrighted. We would have acknowledged 
the abundance of specialized and unique materials to the EPA 
collection--including reports paid for by taxpayers, maps and other 
specialized formats, which would be and are very difficult and time-
consuming to digitize.
    Ms. Leslie Burger stated on February 6, 2007, ``Before we begin the 
costly digitization process, we always consider the needs of the 
current and future user communities. Digital content must be created in 
a fashion assuring that it will be usable 25 and 50 years from now. We 
need to capture cataloging information, or what we call metadata, about 
the digital resource so that we can find the digital object now and in 
the future, or so that if we have to recreate it we know how we created 
it the first time.''
    Second, if we were tasked with digitizing EPA library materials, we 
would have piloted the project; testing it out and discovering problem 
areas and processes, as well as procedures that would need to be 
followed to ensure accuracy and completeness of the digitization 
process. Third, we would have ensured that all materials had first been 
digitized and made available electronically, and only then would we 
have considered whether the redundancy of hard copies was necessary or 
in the best interest of the general public. All this and more we would 
have done prior to declaring ``mission accomplished,'' shuttering EPA's 
libraries, and tossing out documents--which in fact is what EPA did 
when it shuttered its libraries.
    Despite Administrator Johnson's testimony that ``. . .our library 
modernization effort has and will continue to provide more people with 
more access to EPA information, both online and through traditional 
library services,'' feedback from bargaining unit employees has 
indicated just the opposite. To date EPA's modernization effort has not 
provided more people with more access to EPA information.

AFGE COUNCIL 238'S RESPONSE TO EPA'S LIBRARY CLOSURES

    Administrator Johnson testified on February 6, 2007, ``We also plan 
on continuing a strong network of physical libraries. Some will serve 
as repositories to hold hard copies of our collection and some will 
continue to provide walk-in services.'' The Agency's actions in closing 
EPA libraries, reducing hours at other libraries and how they went 
about accomplishing those changes were the reasons we wanted to sit 
down and negotiate with EPA management and find a solution that would 
be in the best interest of EPA and the employees we represent.
    AFGE Council 238 tried to have an impact on this issue internally 
by negotiating with EPA management. Senior Agency management rebuffed 
the Council, saying that the topic was ``premature'' to negotiate 
because no formal FY 2007 library plan had yet been adopted. On March 
13, 2006, the EPA Region 5 Regional Administrator announced that the 
Region 5 Library would close ``. . .in the near future.'' Therefore, on 
March 16, 2006, AFGE Council 238 demanded to bargain procedures and 
appropriate arrangements over the closing and major reorganization of 
EPA's libraries. In spite of AFGE Council 238's Demand to Bargain, EPA 
management went ahead with its dismantling of EPA libraries unchecked, 
with no coherent plan in place.
    On August 16, 2006, AFGE Council 238 filed a grievance against the 
Agency for failure to negotiate with the Council over the closure of 
the libraries. Since the Agency made no real effort to resolve the 
grievance, on October 17, 2006, AFGE Council 238 invoked arbitration. 
On February 5, 2007, the Council filed an Unfair Labor Practice (ULP) 
with the Federal Labor Relations Authority (FLRA) because the Agency 
refused to pick an arbitrator. On September 25, 2007, FLRA 
Administrative Law Judge Richard A. Pearson ruled on the ULP and 
ordered the Agency, among other things, ``. . .to cease and desist from 
. . . Failing or refusing to proceed to arbitration. . .'' and ``. . 
.in any like or related manner, interfering with, restraining or 
coercing its employees in the exercise of their rights assured by the 
Federal Service Labor-Management Relations Statute.'' The September 25, 
2007, FLRA Order also required EPA to post at its facilities where 
bargaining unit employees represented by the Council are located, 
copies of a notice to all employees that the EPA had committed a ULP 
and their agreement to abide by the FSLMRS. EPA management has dragged 
its feet complying with FLRA's Order to post the settlement agreement 
nationwide. AFGE Council 238 continues to work with FLRA to resolve 
this matter.
    Coincidentally, on September 25, 2007, the arbitration was heard by 
Arbitrator George E. Larney. On February 15, 2008, Arbitrator Larney 
found that the Agency had violated applicable provisions of the Master 
Collective Bargaining Agreement (MCBA) when it acted to forestall and 
preclude engaging the Council in impact and implementation bargaining 
pertaining to issues attendant to the reorganization of its Library 
Network. The Arbitrator ruled to sustain the substance of the grievance 
and ordered the Agency to engage the Council in impact and 
implementation bargaining over issues attendant to the reorganization 
of the Agency's Library Network in a timely manner. Such bargaining 
should include all issues that directly affect and may potentially have 
an adverse impact on the working conditions of bargaining unit 
employees. Arbitrator Larney stated in his ruling last month, ``Thus, 
the record evidence establishes with great clarity and without 
contravention that from the very beginning of its initiative in FY 
2003, to consider making changes to its Library Network and continuing 
up until midway through FY 2006 when the Agency began laying the 
groundwork to effect the changes that had already been determined by it 
to implement, Management had precluded the Union, both on a national 
and local level, from assuming any role in the planning and decision-
making stages relative to the reorganization of its Library Network 
and, consideration of the possible potential impacts such a 
reorganization would have on its bargaining unit employees. . ..'' [p. 
60 of 81, February 15, 2008, OPINION and AWARD, EPA v AFGE Council 238 
(FMCS Case No. 07-50725)]
    Arbitrator Larney went on to state that ``. . .the record evidence 
reveals that the Agency stonewalled the Union with regard to permitting 
commencement of negotiations let alone allowing the Union a real and 
viable consultative role in the library reorganization process.'' [p. 
61 of 81, February 15, 2008, OPINION and AWARD, EPA v AFGE Council 238 
(FMCS Case No. 07-50725)]

    Arbitrator Larney continued by stating ``. . .As if the Agency's 
conduct as evidenced by the above enumerated four (4) instances was not 
bad enough, the fact that, in addition to precluding the Union from 
entering into impact and implementation bargaining pursuant to its 
contractual right to do so as provided for in Article 45 of the Master 
Collective Bargaining Agreement (Jt.Ex.1), pertaining to the 
reorganization of its Library Network, the Agency compounded the err of 
its ways by instituting changes attendant to its reorganization 
initiative unilaterally without the benefit of legitimate Union input. 
Such unilateral changes were implemented over much of the time period 
the Union was seeking to enter into impact and implementation 
bargaining with the Agency up to and including the period of time 
leading to this arbitral proceeding.'' [p. 66 of 81, February 15, 2008, 
OPINION and AWARD, EPA v AFGE Council 238 (FMCS Case No. 07-50725)].
    As of this date, we have not yet been able to schedule a meeting 
with the Agency to discuss this ruling or Arbitrator Larney's Order. 
AFGE Council 238 is concerned that EPA's actions tend to limit not only 
EPA staffs' access to information, but also discourages the public's 
access to EPA libraries and information.

NATIONAL PARTNERSHIP COUNCIL

    On April 14, 2003, Administrator Christine Todd Whitman signed the 
``EPA Labor-Management Partnership Strategic Plan and Operational 
Guidance,'' which stated, among other things that: ``The overarching 
goal of the Partnership Council is to increase collaboration between 
EPA's labor unions and management thereby furthering the accomplishment 
of the Agency's mission through improving job satisfaction and working 
conditions for all employees and managers at all organizational levels 
and locations.'' The Strategic Plan stated that: ``Rather than having 
management make decisions and then negotiate with the union, the PDI 
process involves the union early in the decision-making process, when 
issues are at the formative stage. When PDI is used, the union and 
management work together as a team to resolve issues to their mutual 
satisfaction and interest.''
    EPA management not only repeatedly refuses to adopt the principles 
of pre-decisional involvement (PDI), but also refuses to engage the 
unions in meaningful negotiations such as library closures, even though 
they are required to do so by law and contract. For at least six years, 
EPA management has repeatedly said that it wanted to engage Unions in 
PDI as part of the NPC activities. Yet as of this date, AFGE Council 
238 is unaware of any PDI activities emanating from the NPC, despite 
numerous requests.
    As a result of the failure of EPA management to work with us on the 
library closures, as well as on a multitude of other issues, AFGE 
Council 238 served notice on February 28, 2008, along with our Union 
partners, that we were suspending any further involvement with the 
National Labor-Management Partnership Council with EPA management. AFGE 
Council 238 is particularly incensed by EPA's refusal to discuss, let 
alone negotiate with us on the closure of EPA's libraries.

SOME OF THE LOW-LIGHTS OF EPA'S LIBRARY CLOSURES INCLUDE:

        <bullet>  EPA's library collections were dispersed before 
        establishing any standard procedures or criteria to ensure that 
        important documents were not lost.

        <bullet>  EPA did not have a complete inventory of all 
        documents prior to the closures, nor do we believe that they 
        have one now. Can EPA management account for the whereabouts of 
        ALL unique library documents prior to the day of shuttering?

        <bullet>  EPA's approach to closing its libraries has deprived 
        working-class people of a user-friendly, EPA-staffed library 
        system that provided them with environmental and public health 
        information. The general public, particularly minorities in 
        four major metropolitan areas have been impacted--Chicago, 
        Dallas, Kansas City and Washington, DC.

        <bullet>  AFGE Council 238 finds it ironic that EPA shuttered 
        its libraries when its congressionally mandated mission is to 
        protect human health and the environment; a scientific and 
        legal mission that requires ready access to the latest research 
        and information in the many scientific and technical fields.

        <bullet>  EPA failed to fulfill its contractual obligations 
        under the MCBA, as well as its statutory obligations under the 
        Federal Service Labor-Management Relations Statute (5 U.S.C. 
        7101 et seq.), by failing to negotiate with AFGE Council 238 on 
        these closures.

CONCLUSION

    EPA policy-makers, managers and senior executives should depend on 
impartial, peer reviewed research and science to make informed 
decisions. A valuable resource and research tool is a first class EPA 
Library Network. AFGE Council 238 would like to see all EPA libraries 
reopened and library services fully restored by the end of fiscal year 
2008.
    AFGE Council 238 thanks Congress for providing $1,000,000 ($983,500 
after rescission) in the fiscal year 2008 budget to reopen the closed 
EPA libraries. However, we are concerned that the funding may be 
insufficient to get all of the closed libraries back to full service, 
and will not address the reduced service at the remaining libraries, 
nor the reduced periodical subscriptions. Unfortunately, much of the 
funding will need to be spent on construction and repurchasing library 
furnishings, such as shelving. For example, EPA Region 5 excessed its 
library furniture in 2006, selling it for about $350. That furniture 
was originally purchased in 1990-1991 for approximately $35,000, and to 
replace that furniture now in 2008 could easily approach $100,000.
    Most importantly, AFGE Council 238 points out that there was no 
funding to rehire research librarians, a critical aspect of any 
library, let alone a state-of-the-art environmental library. Ms. Leslie 
Burger appears to support this position when she stated on February 6, 
2007, ``Further, there are still traditional library users out there. 
Not everyone does their searching via web-based search engines. Many 
would still rather put their trust in the hands of a knowledgeable 
library professional, someone who knows the materials inside and out. 
It has been argued that the time of librarians is vanishing with the 
rise of the Internet, but this is a case in point where that is just 
not so. The EPA's environmental holdings are vast and dense, and a 
simple search engine just isn't enough. With the loss of the brick-and-
mortar facilities comes the loss of the most important asset in the 
library: the librarian. After all, what good is information if you 
can't find it?''
    AFGE Council 238 believes that reopening EPA libraries will require 
aggressive oversight by Congress to ensure that the Agency successfully 
reopens and restores them in a timely and effective manner. We urge 
Congress to include explicit instructions that funding must be used to 
reopen shuttered EPA libraries. AFGE Council 238 is also concerned that 
authorizing the reopening of EPA libraries to provide public access 
should include providing EPA staff with ready access to the latest 
research and information in their respective scientific and technical 
fields.
    AFGE Council 238 offers its services to Congress to review and 
comment on the plan that EPA is required to submit to the Committee on 
Appropriations regarding actions the Agency will take to restore 
publicly available libraries to provide environmental information and 
data to each EPA region. The Agency is to submit its report to Congress 
within 90 days of the signing of the appropriations bill on December 
26, 2007.
    We are also concerned about EPA's library closures since it appears 
to be a phenomenon not restricted only to EPA. Library closures are, in 
fact, happening at other federal agencies and departments. For example, 
the National Institute on Drug Abuse closed its library in 2007 for 
``budgetary reasons.'' The Housing and Urban Development Headquarters 
Library was decreased in size by 60 percent; periodicals and monograph 
materials were reduced by over 16 percent. The General Services 
Administration Headquarters library closed in October 2006. We 
understand that at the U.S. Geological Survey, budget constraints have 
created concerns about the future of their library services as well.
    Finally, I must state that in my over 37 years as a dedicated 
federal civilian employee, I have never experienced such an 
unprecedented level of political consideration in the performance of 
EPA's mission. I express my sincerest concern that this political 
influence threatens the integrity of EPA's Principles of Scientific 
Integrity, and undermines the very mission of the Agency, which is to 
protect human health and the environment. EPA must make decisions based 
upon the best reasonably obtainable economic and technical information, 
as well as sound science that has been peer reviewed. By initiating 
these changes now, it would not only improve EPA staff morale, but also 
help accomplish EPA's mission and strengthen the faith of the American 
people in this world-class Agency.
    Thank you again for this opportunity to speak on behalf of AFGE 
Council 238 and the almost 9,000 EPA employees that we represent. I am 
happy to take any questions from the Committee.

    Chairman Miller. Thank you. Dr. Grifo.

STATEMENT OF DR. FRANCESCA T. GRIFO, SENIOR SCIENTIST, UNION OF 
  CONCERNED SCIENTISTS; DIRECTOR, SCIENTIFIC INTEGRITY PROGRAM

    Dr. Grifo. Good morning. My name is Francesca Grifo, and I 
am a Senior Scientist and Director of the Scientific Integrity 
Program at the Union of Concerned Scientists, a leading 
science-based nonprofit working for a healthy environment and a 
safer world. Chairman Miller, Congressman Hall, thank you for 
this opportunity.
    In 2006, as we have heard, the EPA began to close or reduce 
access to parts of its network of libraries as part of a 
modernization plan. This process took items out of circulation 
before making them available electronically, and did not fully 
consider how to make the diversity of EPA's library holdings 
accessible during the transition period and beyond.
    We do not object to modernization per se, rather to the 
ongoing lack of access to critical library resources, 
deficiencies in stakeholder consultation, and lack of 
transparency in the process, and the rapid pace of library 
closures, in contrast to the slow rate of digitization of 
library holdings.
    The Scientific Integrity Program works to expose political 
interference in Federal Government science, and to ensure a 
federal scientific workforce able to serve the public interest. 
Together with several eminent scientists, we recently released 
a statement entitled ``Scientific Freedom and the Public 
Good,'' that outlines the conditions needed by federal 
scientists to do their jobs and serve the public good. Research 
support systems such as libraries are one such necessary 
condition for a thriving federal scientific enterprise.
    In order to fulfill its mission to protect human health and 
the environment, the EPA must rely on up to date scientific 
information, as well as historical materials. Despite the 
increasing availability of information on the Internet, world 
class academic and scientific institutions are maintaining and 
expanding their libraries, with the understanding that they are 
the bedrock of scholarship and scientific research. Without 
ease of access to information, the efficiency and accuracy of 
EPA's determinations are under threat.
    In the fall of 2006, we mobilized our network of scientists 
and citizen-activists to call Administrator Johnson's office 
and demand a halt to the closures. UCS activists made nearly 
8,000 phone calls. We have continued to monitor the situation, 
and have met twice with EPA's Office of Environmental 
Information. Despite these meetings, in the 14 months since we 
stopped phoning Administrator Johnson, we have seen very little 
progress. Our main concern continues to be that the EPA 
libraries are a valuable and cost-effective resource for both 
the Agency and the public, and that nearly a year and a half 
after their closures, the system that currently replaces them 
is inadequate.
    We decided to go to the scientists themselves. 
Approximately nine months after the closure, we asked the 
scientists at the EPA what they thought; 555 scientists agreed 
or strongly agreed that the recent changes and closures in the 
EPA library system impaired their ability to do their jobs. 
When we went to the scientists from Regions 5, 6, and 7, where 
the libraries had closed, half the respondents agreed or 
strongly agreed that library closures impaired their ability to 
do their jobs.
    A number of EPA scientists also provided written comments 
on the closures. One scientist stated: ``The library must also 
be reopened. Since its closure, some journals are just no 
longer accessible.'' Another wrote: ``EPA program offices use a 
lot of scientific information. Reduced library access is 
crippling.'' And there are more comments in my written 
testimony.
    These results show that contrary to EPA's claims, the 
libraries are an important resource for EPA employees, and that 
desktop subscriptions, digitization, and the interlibrary loan 
service are an imperfect replacement. Essential resources, such 
as copyright reference books and older volumes of scientific 
journals, cannot be reproduced online. Plans for access to data 
and documentation that came from contractors, or form the basis 
for guidance or determinations, are unclear. The interlibrary 
loan system is slower than visiting a local library, and cannot 
replace librarians, browsing, or the spontaneous, informal 
learning that takes place in a library.
    Almost a year and a half later, we still do not know the 
current status of the digitization process, if skeletal 
reference collections might be restored, how many librarians 
have been lost and any plans for their replacement, what level 
of access is available for materials in repositories, such as 
older documents, microfilm, and documents generated by EPA 
contractors, if there are adequate provisions to ensure access 
to digitized documents for people with disabilities, the status 
of the OPPTS Chemical Library, and any plans to digitize those 
materials, and perhaps most importantly, we don't have a firm 
deadline for when full, efficient access to needed library 
resources will be restored. Large problems persist, and no 
specific timeline for addressing them has been put forth.
    The Union of Concerned Scientists urges Congress to 
continue its oversight of the EPA and Administrator Johnson 
until full access to EPA library materials is restored. 
Transparency of library decisions, stakeholder consultations, 
and protections for scientists who publicly raise concerns 
about the libraries are important issues, and are addressed in 
my written testimony.
    In conclusion, regardless of the timing and manner of the 
eventual reopening of portions of the library network, there 
are three immediate actions that must happen now. The first, a 
basic reference collection and a librarian should be restored 
to scientists in Regions 5, 6, and 7, EPA headquarters, and the 
OPPTS Chemical Library. Second, the EPA must set and meet a 
firm deadline for completion of the digitization of all EPA 
documents. And third, the EPA must set and meet a deadline for 
full public access to all the rest of EPA's informational 
holdings.
    We look forward to working with Congress on bipartisan 
legislation and other reforms, to restore scientific integrity.
    And I will be happy to answer any questions. Thank you.
    [The prepared statement of Dr. Grifo follows:]
                Prepared Statement of Francesca T. Grifo
    Good morning, my name is Francesca Grifo. I am a Senior Scientist 
and the Director of the Scientific Integrity Program at the Union of 
Concerned Scientists, a leading science-based nonprofit working for a 
healthy environment and a safer world. Chairman Miller, Ranking Member 
Sensenbrenner, and Members of the Subcommittee, thank you for the 
opportunity to share our work and concerns regarding the closures of 
libraries at the Environmental Protection Agency.

Introduction

    In summer 2006, the EPA closed or reduced access to parts of its 
network of 27 libraries, thereby reducing the public's ability to use 
to a valuable source of information and making it more difficult for 
hundreds of EPA employees to do their jobs of protecting human health 
and the environment. EPA officials claim the closings are part of a 
modernization plan, and that all library materials will eventually be 
available online. Unfortunately, the process adopted by the EPA for 
modernizing the library system was backwards and mostly non-transparent 
to stakeholders concerned about the ability of the EPA to do its work. 
We do not object to modernization per se, rather to the woefully 
dysfunctional way the EPA sought to undertake it.
    The Scientific Integrity Program at the Union of Concerned 
Scientists works to expose political interference in the work of 
Federal Government scientists and to push for reforms that ensure the 
free flow of scientific information between the government and the 
public. We recently released a statement entitled ``Scientific Freedom 
and the Public Good'' that outlines the conditions needed by federal 
scientists to do their jobs and serve the public good. Quality research 
support systems, such as libraries, are a necessary condition for a 
thriving scientific enterprise at federal agencies.
    In order to fulfill its mission to protect human health and the 
environment, the EPA must rely on accurate, up-to-date scientific 
information as well as the findings of earlier studies. Scientists 
build their research on the findings of those who came before them. 
Libraries are the source of much of this intellectual wealth. To make 
the best scientific determinations, scientists need access to 
information regarding the health effects of toxic substances, records 
of environmental change over time, impacts on specific regions or 
communities and many other issues. Despite the increasing availability 
of information on the Internet, world-class academic institutions are 
maintaining and expanding their libraries with the understanding that 
such institutions are the bedrock of scholarship and scientific 
research. Without ease of access to information, the efficiency and 
accuracy of EPA's scientific determinations are under threat--with 
potentially serious consequences for public health and the environment.
    We have been concerned about the fate of the EPA Libraries since 
the closures were first announced. Once the closures began in the fall 
of 2006, we mobilized our network of scientists--activists who signed 
our scientist statement on scientific integrity--to call administrator 
Stephen Johnson's office and demand a halt to the closures.
    Over the course of several weeks UCS activists made nearly 8,000 
phone calls to EPA headquarters. We believe that this outcry from the 
scientific community, together with attention from both the House and 
the Senate, the EPA employee unions, the library community and other 
non-profit organizations was instrumental in convincing the EPA to stop 
and reassess its plan for the library network. Since that initial 
flurry of activity, we have continued to monitor the situation and have 
met twice with officials in EPA's Office of Environmental Information 
(OEI) to voice our concerns.
    Despite these meetings, in the 14 months since our phone offensive, 
we have seen very little progress in repairing the damage already done 
to the library network. Our main concern continues to be that the EPA 
libraries are a valuable and cost-effective resource for both the 
agency and the public, and that the system that currently replaces them 
is sadly inadequate.

Survey Results

    To assess the impact of the library closures on EPA's workforce, 
UCS surveyed scientists at the EPA in July of 2007. The survey results 
show:

        <bullet>  555 scientists (35.6 percent of survey respondents) 
        agreed or strongly agreed that the ``recent changes and 
        closures in the EPA library system have impaired my ability to 
        do my job.''

        <bullet>  This opinion was especially prevalent among 
        scientists in Regions 5, 6 and 7, which had their libraries 
        closed. 86 scientists, or nearly half of the survey 
        respondents, agreed, however the impact of the closures was 
        felt across the entire EPA.

    A number of EPA scientists also provided written comments on the 
library closures. One scientist stated ``The library must also be re-
opened. Since its closure, some journals are just no longer 
accessible.'' Another explained why libraries are necessary, saying 
``EPA program offices [. . .] use a lot of scientific information. 
Reduced library access is crippling'' while yet another called the loss 
of library facilities ``ludicrous.''
    Other quotes from EPA scientists include--

        <bullet>  ``Give us back our library.''

        <bullet>  ``Re-open libraries.''

        <bullet>  ``Restore the libraries.''

        <bullet>  ``Libraries with the technical support staff should 
        be restored.''

        <bullet>  ``Bring back the two EPA libraries at Headquarters 
        that were closed. Many journal articles are now available 
        online, but these go back only about 20 years. Unfortunately, a 
        large number of bound journals from the collection were 
        discarded.''

        <bullet>  ``The . . . loss of EPA libraries are bleeding down 
        the EPA's technical knowledge base and our ability to provide 
        or share the skills and knowledge that are critical to overall 
        mission success.''

        <bullet>  ``Proper facilities, including re-establishing EPA's 
        network of libraries is essential to give staff sufficient 
        access to information.''

        <bullet>  ``Restore . . . library and other research resources. 
        . .''

        <bullet>  ``Have access to tech resources and in a timely 
        fashion (includes library/lit search issues).''

        <bullet>  ``Stop slashing services that made the EPA what it 
        was (library closings are just one of many. . .).''

        <bullet>  ``Give us back our library. . .''

        <bullet>  ``Better support for ORD, libraries (regional and 
        others). . .''

    In addition some scientists described progress:

        <bullet>  ``BTW--while I loved the library, the new service 
        that was set-up for requesting materials via the Internet is 
        great, quick and responsive.''

        <bullet>  ``The RTP Interlibrary Loan facility has been very 
        good in obtaining articles and pages in books as the need has 
        arisen.''

    These results show that, contrary to the EPA's claims, the 
libraries are an important resource for EPA employees and that the 
Interlibrary Loan service is an imperfect replacement, that may work 
for certain employees, but not for all.

A Backwards Process

    The process by which EPA closed the libraries was backwards. The 
closing of the physical library should be the very last stage of a 
well-thought-out modernization plan, if and only if it is determined 
that the physical library is truly extraneous. Unfortunately, closing 
the EPA libraries was the first step and the driver of all subsequent 
decisions. UCS supports the digitization of those EPA documents that 
can legally be made available on the Internet, but again that process 
should be complete before the physical materials are discarded or 
placed in a repository. Thousands of EPA documents are currently 
stranded in digitization limbo for the indefinite future.
    Furthermore, digitization cannot fully replace all the resources 
provided by a physical library. Essential resources, such as 
copyrighted reference books and older volumes of scientific journals, 
cannot be reproduced online yet are potentially invaluable for the day-
to-day work of EPA's scientists. The Interlibrary Loan system is a 
possible solution for some of these problems, but it is undoubtedly 
slower than a local library and, for commonly used materials, 
considerably less efficient. Nor do interlibrary loans replace browsing 
or the spontaneous informal learning that takes place in a library.
    Our survey indicates that the current system is not meeting the 
needs of hundreds of EPA scientists. The EPA should carry out a 
comprehensive, transparent assessment of the information needs of its 
staff to determine which locations have a need for a full-service 
library, which need basic reference collections and which can make do 
with the current system. EPA's library specialists are valuable 
resources in their own right and their expertise in answering research 
and reference questions has been shown to save the EPA millions of 
dollars of staff time. Any information needs assessment should consider 
the best way to provide access to EPA librarians to all of EPA's staff.
    Changes to the library system impact the wider public and the 
information that is available to them. The EPA libraries are used by 
community environmental justice groups, historians, independent 
researchers, and others. Any changes to the library system should be 
done in a fully transparent and open manner and the EPA should solicit 
comment from the various stakeholder groups with an interest in the 
library network.
    Finally--all of this has taken far too long. Almost a year and a 
half is too long to be without these critical materials.

Outstanding Questions

    After two meetings with OEI officials, many questions remain about 
the future of EPA's library network:

        <bullet>  What is the current status of the digitization 
        process? When will all the unique documents be available?

        <bullet>  Copyrighted material can never be part of the EPA's 
        digital library. While an interlibrary loan system will address 
        some of these needs, it may not efficiently address the needs 
        of all EPA staff. EPA officials have told us skeletal reference 
        collections might be restored in each region. Has this 
        happened? If not, when will it happen? Will stakeholders be 
        involved in decisions regarding the composition of these 
        collections?

        <bullet>  The EPA's own internal documents highlight the 
        monetary savings derived from having trained professionals 
        assist staff. Have librarians been lost? Will the general 
        public be allowed access to librarians when the closed 
        libraries reopen? In the interim? If so, how and when?

        <bullet>  What level of access is currently available for all 
        materials moved to the repositories, including older documents, 
        documents on microfilm and documents generated by EPA 
        contractors? When will full access be restored?

        <bullet>  Have adequate provisions been taken to ensure access 
        for people with disabilities?

        <bullet>  What level of access will the public have to 
        materials in the repositories?

        <bullet>  Will the OPPTS chemical library be re-opened? Are 
        there plans to digitize the materials from that library and 
        make them available online? Will those materials be available 
        through the repositories and Interlibrary loans? If so when?

Solutions

    While we believe it is possible that senior library officials do 
seek to remedy the situation and address these questions, it has been 
seventeen months since the closures began. Large problems persist and 
no specific timeline for addressing them has been put forth. Congress 
has allocated funds to re-open some of the closed libraries, yet it 
remains unclear how long that process will take. The Union of Concerned 
Scientists urges this committee to continue its oversight of the EPA 
until adequate access to EPA library materials is consistently 
available to EPA employees and the public.

Immediate Actions
    Regardless of the timing and manner of the eventual re-opening of 
portions of the library network, there are three actions that must be 
taken by the EPA immediately:

        <bullet>  A basic reference collection should be restored to 
        scientists in Regions 5, 6 and 7, EPA Headquarters and the 
        Office of Prevention, Pesticides, and Toxic Substances (OPPTS). 
        The contents of these collections should be determined by a 
        quick assessment of the needs of scientists and research groups 
        in those regions. This is not a replacement for a more 
        comprehensive assessment, or for the possible re-opening of 
        those libraries, but is instead a stop-gap measure to provide 
        the necessary resources for EPA employees in the meantime.

        <bullet>  The EPA must set a firm deadline for completion of 
        the digitization of all EPA documents and meet it.

        <bullet>  The EPA must commit to full public access to EPA's 
        informational holdings. At a minimum this should include making 
        materials available through OCLC and Interlibrary Loan and 
        providing staffing and hours when members of the public may 
        access materials in all the repositories.

            Transparency of Library Decisions

        <bullet>  The EPA should open up its decision-making process 
        regarding agency informational needs to public scrutiny. 
        Information on plans for the library network should be 
        available on the EPA's website and should include timelines for 
        digitization and access to information, details on the 
        digitization process, and the names of responsible parties.

            Stakeholder Consultations

        <bullet>  The EPA should undertake a comprehensive assessment 
        of the information needs of its workforce, including scientific 
        and legal staff, and should design its library modernization 
        plans with those goals in mind.

        <bullet>  The EPA should also routinely consult with outside 
        stakeholders, including community groups, independent and 
        academic researchers, and the library community, to ensure that 
        decisions regarding its library network conform to best 
        practices and ensure continued public access to information.

            Whistleblower Rights

        <bullet>  In passing reforms to the Whistleblower Protection 
        Act that include significant protections for government 
        scientists, the House of Representatives has sent a strong 
        signal that scientific openness and access to information 
        should be core agency values and that scientists who speak out 
        deserve protection. The staff of the EPA should have the right 
        to publicly raise their concerns about the loss of the 
        libraries.

    We look forward to working with the 110Congress on bipartisan 
legislation and other reforms to restore scientific integrity to 
federal policy-making.

                    Biography for Francesca T. Grifo
    Francesca T. Grifo, Ph.D., is the Senior Scientist and Director of 
the Scientific Integrity Program at the Union of Concerned Scientists 
(UCS). The Scientific Integrity Program works to defend government 
science from political interference.
    Dr. Grifo came to UCS in 2005 from Columbia University where she 
directed the Center for Environmental Research and Conservation 
graduate policy workshop and ran the Science Teachers Environmental 
Education Program. Prior to that, she was Director of the Center for 
Biodiversity and Conservation and a curator of the Hall of Biodiversity 
at the American Museum of Natural History in New York.
    Dr. Grifo edited and contributed to the books Biodiversity and 
Human Health and The Living Planet in Crisis; biodiversity science and 
policy. In addition to her scholarly work, Dr. Grifo was the manager of 
the International Cooperative Biodiversity Groups Program at the 
National Institutes of Health. She was also a senior program officer 
for Central and Eastern European for the Biodiversity Support Program, 
a consortium of the World Resources Institute, the Nature Conservancy, 
and the World Wildlife Fund; and an AAAS Fellow in the Office of 
Research at the Agency for International Development.
    Francesca earned her Ph.D. in botany from Cornell, and a BA in 
biology from Smith College. She currently holds adjunct appointments at 
Columbia and Georgetown.

    Chairman Miller. Thank you, Dr. Grifo. Mr. Rettig.

  STATEMENT OF MR. JAMES R. RETTIG, PRESIDENT-ELECT, AMERICAN 
   LIBRARY ASSOCIATION; UNIVERSITY LIBRARIAN, UNIVERSITY OF 
                            RICHMOND

    Mr. Rettig. Chairman Miller and Congressman Hall, thank you 
for inviting me today to speak on behalf of the American 
Library Association. My name is Jim Rettig. I am University 
Librarian at the University of Richmond in Virginia. I am also 
President-Elect of the American Library Association, the oldest 
and largest library association in the world, with some 66,000 
members.
    The importance of this hearing and the gravity of the 
situation has caused the American Association of Law Libraries 
to support my testimony and the stance of the American Library 
Association.
    Overall, the key issue to determine is whether or not EPA's 
library plan is based on users' needs. Our sources have 
repeatedly told us that EPA has not reached out to the EPA 
library user community, the thousands of scientists, 
researchers, and attorneys who use these resources daily, as 
well as members of the public, who have benefited greatly from 
access to these unique collections.
    In light of that, I would like to address two issues. 
First, the vital importance of access to scientific, 
environmental, legal, and other government information for EPA 
employees, scientists, and the American public. Second, the 
necessity for the information specialists, the staff librarian, 
to ensure the most effective access to this information. 
Because there are fewer libraries and professional library 
staff, scientists and the public will have less access to this 
information.
    So, let me first address the loss of valuable environmental 
information. As one recently retired EPA librarian described 
it, the EPA libraries once functioned as a virtual national 
library for the environment. Because of its networking, both 
technical and human, an interlibrary loan and reference 
services, users of any EPA library had access to the 
collections of all other sites. This cost-effective structure 
provides wide access for staff and public.
    Now that some of these regional libraries and the Chemical 
Library here in Washington, D.C. are closed, key links have 
been removed from the chain, weakening the whole. All EPA 
library users suffer, not just those near closed facilities. 
Further, the library community is deeply troubled by the 
dispersing of materials from the closed libraries. What this 
dispersement entails is not clear. We are concerned about how 
the dispersed information has been handled, causing long-term 
damage to EPA's effectiveness and the ability of the American 
people to find important environmental and government 
information.
    Preservation of digital assets is also very important. 
Without more detailed information about the EPA's digitization 
project, we cannot assess whether it is digitizing the most 
appropriate materials, whether there is appropriate metadata 
and cataloging to make sure that people can access the digital 
materials, or whether the technology that will be used to host 
the digital contents meets today's standards.
    While EPA has met with ALA staff on several occasions to 
discuss this issue, it has consistently failed to act upon the 
advice that came as a result of these meetings. This experience 
with EPA underscores the need for the executive branch to 
develop and implement effective and consistent approaches for 
how government agencies undertake digitization of government 
records and publications, and how they provide access to these.
    The process of library improvements and/or closures, which 
directly impacts access to these government materials, must be 
coherent and user-focused, with proper planning and oversight 
of the process.
    Our second concern is what this means for EPA's information 
specialists, its librarians. ALA understands that in the 21st 
Century, people can access much of what they need from their 
own desks. We also understand how complicated and costly the 
move to digitization can be. But the bottom line is that 
libraries still need skilled professionals to assist users, to 
organize Internet access, to determine the best way to make 
information available to those users, and to assure that 
digitization projects adhere to standards.
    Furthermore, traditional library users who are not 
comfortable with web-based search engines put their trust in a 
knowledgeable library professional. The EPA's environmental 
collections are vast and deep, and a search engine just isn't 
enough. With the loss of the brick and mortar facilities comes 
the loss of the most important asset in the library, the 
librarian. After all, what good is information if you can't 
find it?
    The future clearly calls for a hybrid, where not every 
single item or service is online, nor is everything confined to 
a physical structure. The hybrid's backbone is the profession 
of skilled, knowledgeable, and helpful information specialists, 
librarians.
    In closing, ALA asks this committee to request EPA to 
discuss with stakeholders how best to meet user needs and plan 
for the future, base its actions upon these users' needs, 
stabilize an inventory of the collections that have been put in 
storage, develop and implement a government-wide process to 
assist agencies to design effective digitization programs, and 
reestablish the standard that Federal Government librarians 
manage Federal Government libraries.
    We appreciate your responsiveness, and look forward to 
determining how we can save these collections, assure library 
service for users, and maximize access to important 
environmental information for staff, scientists, and the public 
at large.
    Thank you again for this opportunity to speak on behalf of 
the American Library Association. I will be happy to take 
questions from the Committee.
    [The prepared statement of Mr. Rettig follows:]
                 Prepared Statement of James R. Rettig
    Chairman Miller, Congressman Sensenbrenner, and Members of the 
Subcommittee, thank you for inviting me today to speak on behalf of the 
American Library Association (ALA). I sincerely appreciate the 
opportunity to comment on the closure of libraries in the EPA network.
    My name is Jim Rettig, and I am the University Librarian of the 
University of Richmond (VA). I am also the President-elect of the 
American Library Association, the oldest and largest library 
association in the world with some 66,000 members, primarily school, 
public, academic, and some special librarians, but also trustees, 
publishers, and friends of libraries. The Association provides 
leadership for the development, promotion, and improvement of library 
and information services and the profession of librarianship to enhance 
learning and ensure access to information for all.
    The importance of this hearing and the gravity of the situation has 
caused the American Association of Law Libraries (AALL) to support my 
testimony and the stance of the American Library Association. AALL is a 
nonprofit educational organization with over 5,000 members nationwide 
who respond to the legal information needs of legislators, judges, and 
other public officials at all levels of government, corporations and 
small businesses, law professors and students, attorneys, and members 
of the general public.
    Given the library community's mission, it should come as no 
surprise that ALA has been so outspoken in its criticism of these 
closures.
    Overall, from the library standpoint, the key issue to determine is 
whether or not the EPA's library plan is based on the end-users' needs. 
We think not. Our sources have repeatedly told us that there has been 
no outreach to the EPA Library user community--comprised of the 
thousands of scientists, researchers, and attorneys who use these 
resources on a daily basis, as well as members of the public who have 
benefited greatly from access to these unique collections. Indeed, 
there has been a lot of talk about getting information to a ``broader 
audience,'' which EPA has repeatedly claimed is its primary goal, but 
how do the steps being taken by EPA accomplish that? ALA doesn't see 
how what's being done is connected to users' needs.
    In light of that, I would like to address two issues:

        <bullet>  First, the vital importance of access to scientific, 
        environmental, legal, and other government information for EPA 
        employees, scientists and the American public. In the course of 
        shutting down these libraries, has valuable, unique 
        environmental information been lost or discarded?

        <bullet>  Second, the necessity of the information specialist--
        the staff librarian--to ensure the most effective access to 
        this information. Because there are fewer libraries and 
        professional library staff, scientists and the public will have 
        limited access to this information. In an age of heightened 
        public awareness about the environment, it seems ironic that 
        the Administration would choose this time to limit access to 
        years of research about the environment.

So let me first address the loss of valuable environmental information.

    Libraries and other cultural heritage institutions (archives, 
museums, and historical societies) have been digitizing collections for 
nearly 20 years. The digital resources provide access 365 days a year, 
24 hours a day, regardless of where a user lives or works. Geographic 
and political boundaries disappear. These digital resources meet 
international and national standards and are created by librarians, 
archivists, museum professionals, and representatives from the 
photographic and audio industry, public broadcasting, and computer 
industry.
    As one recently retired EPA librarian described it, the EPA 
libraries have been functioning like a virtual National Library on the 
Environment. (Indeed, the EPA was at one time a leader in providing 
public access to critical information in their collections.) This 
``virtual'' EPA library network functioned as a single national system. 
Because of its networking (both technical and human) and interlibrary 
loan and mutual reference services, users in any EPA library had access 
to the collections at all other sites. This structure is cost-effective 
and provides wide access for staff and for the public.
    Now that some of these regional libraries and the pesticide library 
are closed, key links have been removed from the chain, thus weakening 
the whole system. All EPA library users suffer, not just those closest 
to the closed facilities. Where will people look for information about 
their drinking water? Or which pesticides are safe? Or how much 
pollution is in the air of their hometown? These issues are of the 
utmost importance; our health and safety depend on them!
    In a plan that was best described as ``convoluted and 
complicated,'' materials from closed EPA libraries have been boxed and 
sent to other locations where they are slowly being re-cataloged and 
then sent back to the Headquarters Library here in Washington, DC--a 
library that is now closed and that has no room to house these 
resources. Other materials have been sent to Research Triangle Park or 
the National Environmental Publications Internet Site (NEPIS) in 
Cincinnati where they are slowly being digitized.
    Before libraries begin a costly digitization project, we always 
consider the needs of the current and future user communities. Digital 
content must be created in a fashion assuring that it will be usable 25 
and 50 years from now. We need to capture cataloging information--which 
we call metadata--about each digital resource so that we can find these 
resources now and in the future. Furthermore if we have to recreate a 
resource the metadata tells us how we created it the first time, giving 
us information such as what camera or which scanner we used to create a 
digital image. All that information goes into the metadata, along with 
the title, descriptive keywords, and publication data.
    Further, the library community is deeply troubled by the 
``dispersing'' of materials from the closed regional libraries and the 
pesticide library here in Washington, DC. What this ``dispersement'' 
entails isn't clear at this point. We are concerned about how this 
information has been handled, causing long-term damage to the EPA's 
effectiveness and the ability of the American public to find important 
environmental and government information.
    Unfortunately, there continues to be a lot that we don't know: 
exactly what materials have been being shipped around the country, 
whether there are duplicate materials in other EPA libraries, whether 
these items have been or will be digitized, and whether a record is 
being kept of what is being dispersed and what is being discarded. We 
remain concerned that years of research and studies about the 
environment may be lost forever.
    Will digital documents be listed in the Online Computer Library 
Center (OCLC), an international database of the holdings of more than 
41,555 libraries in 112 countries, making them available to other 
research institutions? Is there metadata or cataloguing being created 
to ensure that digital documents can be easily located on the web? What 
will happen to the OCLC holdings information of the closed libraries?
    EPA representatives have discussed the creation of a premier 
digital library for the 21st century and making content from the EPA 
libraries available to the general public as well as to EPA scientists. 
To do that, the EPA will need what libraries call a web-enabled Digital 
Asset Management system, which cannot only display the full range of 
digital resources that are being converted but also the digital 
resources of the future: audio, video, simulations, etc. Digital Asset 
Management systems, or DAMs, provide the public with tools to locate 
and display digital resources, but these systems can also allow the EPA 
to provide access to authorized users. For example, if there is a 
publication that contractually can only be viewed by the EPA 
scientists, the EPA could digitize it, put it in the database, make the 
metadata searchable, but allow it to be viewed only by those authorized 
to view it. The DAM controls all of that through its authentication 
system.
    Preservation of digital assets is also very important. There are 
already many stories of digitized collections that have been saved on 
CDs, and when organizations have tried to access them the content is 
not viewable. CDs and DVDs are fine transport media, but no longer are 
they considered acceptable media for preservation. Networked storage 
combined with retention of two or three physical copies in different 
repositories is best preservation practice.
    Without more detailed information about the EPA's digitization 
project, we cannot assess whether it is digitizing the most appropriate 
materials, whether there is appropriate metadata or cataloging to make 
sure that people can access the digitized materials, and that the 
technology that will be used to host the digital content and the 
finding software meets today's standards. In the age of digital media 
it has become easier and easier for information to simply get lost in 
the shuffle, and there is no way of knowing if that's the case here.
    Certainly, not all parts of each EPA library collection can be 
digitized; they probably have some materials that are copyrighted, for 
example. But there is so much specialized and unique material--
including reports already paid for by taxpayers--and we do not know if 
these are part of the digitization projects. Further, we do not know 
about how their maps or other specialized formats have faired, formats 
that are very difficult and time-consuming to digitize.
    In their haste to close down libraries and meet a fiscal deadline 
without a clear plan, EPA has created arbitrarily established 
deadlines. We continue to hear allegations from former and current EPA 
staff, who do not wish to be identified, that hundreds of valuable 
journals and books may have been destroyed. These staff members are 
concerned that materials which are unique to EPA (and in some cases 
exist nowhere else in the world) are no longer available.
    EPA has also claimed in the past to have been following ALA 
guidelines in its reorganization of holdings. In fact, as far as we can 
tell, that meant visiting the ALA website and using our very general 
guidelines about ``weeding'' library collections. Weeding is the 
process of periodically removing materials from a library's collection. 
Materials are weeded because they are out of date, in poor condition or 
are unneeded multiple copies. ALA's weeding standards were never 
intended for application in a digital environment.
    While EPA has met with ALA staff on several occasions to discuss 
this issue, it has consistently failed to act upon the advice that came 
as a result of these meetings.
    This experience with EPA underscores the need for the Executive 
Branch to develop and implement effective and consistent approaches for 
how government agencies undertake digitization of government records 
and publications and how they provide access to them. The process of 
library improvements and/or closures--which directly impacts access to 
these government materials--needs to be coherent and user-focused, and 
there must be proper planning and oversight of the process. The 
government is the largest single producer of information, and the 
information it produces is vital to public health and safety. As a 
consequence, it is critically important that instead of a growing 
patchwork of agency programs emerging--which may fail to satisfy user 
information needs--that we put in place, effective and efficient public 
access programs to reap the benefits of the digital environment.

Our second concern is what this means for the EPA's information 
specialists, its librarians.

    ALA understands that we are living in the 21st century, and users 
can access much of what they need from their own desks. In the digital 
environment the librarian's role is changing. We also understand how 
complicated and costly the move to digitization can be. But the bottom 
line is that libraries still need skilled professionals to a) assist 
users, b) organize Internet access, c) determine the best way to make 
the information available to those users, and d) assure that 
digitization projects adhere to standards. When searching the EPA site, 
one retrieves thousands of hits for a topic such as ``water.'' When 
qualifying the search by a date range the results include items outside 
that date range. The user will understandably wonder about the veracity 
of the data and will need the assistance of a librarian.
    Librarians are also needed to design the interfaces. The web makes 
it possible to design customized interfaces--one for scientists, one 
for teachers and students, and one for the general public.
    Further, there are still traditional library users out there. Not 
everyone does their searching via web-based search engines. Many would 
still rather put their trust in the hands of a knowledgeable library 
professional, someone who knows the materials inside and out. It has 
been argued that the time of librarians is vanishing with the rise of 
the Internet, but this is a case in point where that is just not so. 
The EPA's environmental collections are vast and deep, and a simple 
search engine just isn't enough. With the loss of the brick-and-mortar 
facilities comes the loss of the most important asset in the library: 
the librarian. After all, what good is information if you can't find 
it?
    The future clearly calls for a hybrid, where not every single item 
or service is online, nor is everything confined to a physical 
structure. And the backbone of it all is a profession of skilled, 
knowledgeable, and, most importantly, helpful information specialists: 
librarians.

In closing:

    ALA asks that this committee request EPA to:

        a)  Discuss with stakeholders on how best to meet user needs 
        and plan for the future;

        b)  Base its actions upon these users' needs;

        c)  Stabilize and inventory the collections that have been put 
        in storage;

        d)  Develop and implement a government-wide process to assist 
        agencies to design effective digitization programs; and

        e)  Reestablish the standard that Federal Government librarians 
        manage Federal Government libraries.

    We appreciate your responsiveness and look forward to determining 
how we can save these collections, stabilize the library services for 
users and understand how best to maximize access for staff, scientists, 
and the public at large to important environmental information.
    Thank you again for this opportunity to speak on behalf of the 
American Library Association, and I am happy to take any questions from 
the Committee.

                     Biography for James R. Rettig
    James Rettig currently serves as university librarian at the 
University of Richmond in Virginia. During 2007-2008 he is serving as 
President-elect of the American Library Association, the world's oldest 
and largest library association. He has held numerous leadership 
position in the American Library Association, including a term on its 
Executive Board 2003-2006. Since 1976 he has held reference librarian 
and library administrative positions at Murray State University (KY), 
the University of Dayton (OH), the University of Illinois at Chicago, 
the College of William and Mary (VA), and the University of Richmond. 
He has published and lectured widely on issues in library reference 
service and has received awards for his work in that field. He is 
listed in Who's Who in America, 2008, 62nd ed. He is married, the 
father of three adult children, and is a resident of Williamsburg, 
Virginia (Virginia 1st Congressional District).

    Chairman Miller. Thank you, Mr. Rettig.
    I understand the reason that we are being summoned to the 
Floor is not a vote, but at 10:30, there will be a moment of 
silence for the American servicemen and women who have died in 
Iraq, so obviously, all of us, Mr. Hall and Ms. Johnson and I 
would want to be there for that.
    So, Ms. O'Neill, I think we can get your testimony in, and 
still have time to get to the Floor.
    Ms. O'Neill.

STATEMENT OF MS. MOLLY A. O'NEILL, ASSISTANT ADMINISTRATOR FOR 
    ENVIRONMENTAL INFORMATION, THE OFFICE OF ENVIRONMENTAL 
   INFORMATION (OEI); CHIEF INFORMATION OFFICER (CIO), U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Ms. O'Neill. Thank you, Mr. Chairman. Good morning. Thank 
you for the opportunity to testify today about the progress EPA 
is making on strengthening its national library network, and 
ensuring that the information our employees and the American 
public need to make sound decisions about the environment is 
made available to them.
    Let me begin by saying that I am fully committed to 
enhancing the EPA national library network and providing the 
broadest possible access to environmental information for EPA 
staff and the public. As EPA's CIO, I am very much aware of the 
opportunities that technology offers us to make more 
environmental information accessible to an ever growing number 
of users, both EPA staff and the public, regardless of their 
location.
    However, I also understand that some users need access in 
more traditional formats, and that our professional librarians 
play a valuable role in assisting our library users. The 
network is comprised of 26 libraries, and provides multiple 
methods for delivering information services: walk-in access to 
collections and assistance, online resources, and interlibrary 
loans. To ensure that the network was evolving and keeping pace 
with the newer demands from a growing, diverse customer base, 
EPA began reexamining its library model in 2003, to identify 
new ways to deliver library service and meet customer needs in 
a cost-effective manner.
    While EPA implemented changes in the walk-in services in 
some locations in 2006, we continued to provide a full range of 
library services to EPA staff and the public. EPA appreciates 
the thorough review the Government Accountability Office 
recently conducted of the EPA library network operations. We 
recognize the importance of transparency in our library 
planning processes, and we worked hard to cooperate and assist 
the GAO during this review.
    The Agency has already taken many steps to address the 
recommendations made in the GAO review. We placed a 90 day 
moratorium on any changes at our libraries in mid-December 
2006, in response to concern raised by a number of our 
stakeholders. In late February 2007, this moratorium was 
extended indefinitely in an effort to work more closely with 
various concerned groups.
    Since then, EPA has taken many steps to improve governance 
and coordinate across EPA on enhancing these services. In early 
2007, the EPA issued an interim national library network 
policy, assigning the overall responsibility of the library 
network to me, the Assistant Administrator of the Office of 
Environmental Information. The policy established uniform 
governance and management for the network, applicable to all 
headquarters and regional offices that provide library 
services. To implement the policy, a number of network-level 
procedures and standards are being developed that will ensure 
commonality in the way libraries operate across the network.
    At the same time the policy was issued, EPA hired a highly 
qualified professional librarian, with many years of 
experience, as the Network National Program Manager. The new 
Program Manager coordinates all network activities, and 
provides strategic direction on planning, operations, and 
outreach efforts.
    EPA also increased outreach to outside parties on our 
library operations and plans. We participated in a number of 
meetings and conferences with professional associations such as 
ALA, the Special Libraries Association, and the Union of 
Concerned Scientists. The Agency has stepped up coordination 
with other federal agencies on library operations. My staff is 
working closely with the Federal Library and Information Center 
Committee, FLICC, at the Library of Congress, on our plans for 
the future of the network. FLICC has selected a Board of 
Advisors, composed of federal library managers, to work 
directly with the network to advise us on procedures, 
operations, and future directions.
    I want to assure the Subcommittee that as EPA implemented 
improvements to the network, we continued to provide library 
services to our customers. Customers continue to have access to 
documents, either in person or via interlibrary loans. They 
received help in answering reference and research questions, 
and the Agency continues to enhance our offerings available 
from our digital libraries.
    EPA employees now have electronic access to more than 
120,000 resources from their desktops. Also, we established 
agreements between several of our libraries and the Centers of 
Excellence within the network to allow us to leverage the 
expertise available from other locations. Users of the services 
offered via these agreements report high satisfaction with the 
quality and timeliness of these services.
    Moving forward, EPA continues to develop a long range plan 
for a strong and effective library network, and we continue to 
solicit input from both internal and external customers. In 
recognition of our goal to provide the service our customers 
need, we will be conducting a formal needs assessment to inform 
future planning of the network. Of particular importance is 
assuring EPA staff have access to the information they need to 
do their jobs, and EPA is committed to working collaboratively 
with EPA staff and union representatives on future changes to 
the library network that may impact employees.
    As part of the planning efforts, EPA is currently working 
on a report to Congress pertaining to EPA's libraries requested 
in the report language on the Consolidated Appropriations Act 
of 2008. The report language directs the EPA to restore the 
network of EPA libraries recently closed or consolidated, and 
submit a report to the Committees on Appropriations regarding 
the actions it will take to restore publicly available 
libraries to provide environmental information and data to each 
EPA region within 90 days of the enactment.
    EPA's report will describe the Agency's plans to ensure on-
site support in each EPA region, the EPA Headquarters Library, 
and the Office of Pollution and Pesticides and Toxic 
Substances, our Chemical Library.
    Finally, EPA is committed to examining ways to provide even 
greater access to environmental information to meet customers' 
needs. I believe that all of the Agency's information access 
services, be they through EPA libraries, the EPA website, or 
other Agency mechanisms, are components of a broader canvas 
that supports our commitment to provide access to environmental 
information.
    On behalf of Administrator Johnson, thank you for inviting 
me to speak with you today about our EPA national library 
network and our ongoing efforts to strengthen it to make it a 
premier environmental library network.
    I am happy to address any questions that the Committee 
might have.
    [The prepared statement of Ms. O'Neill follows:]
                 Prepared Statement of Molly A. O'Neill
    Good morning, Mr. Chairman and distinguished Members of the 
Subcommittee. Thank you for the opportunity to testify today about the 
progress EPA is making in strengthening its National Library Network 
and ensuring that the information our employees and the American public 
need to make sound decisions about their environment is available to 
them. This testimony reflects my dual roles as the Chief Information 
Officer (CIO) at the U.S. Environmental Protection Agency (EPA) and as 
the Assistant Administrator of the Office of Environmental Information 
(OEI), where the National Library Network is now one of the programs I 
oversee.

Introduction

    Let me begin by saying that I am fully committed to enhancing the 
EPA National Library Network (Network) and providing the broadest 
possible access to environmental information for EPA staff and the 
public As EPA's CIO, I am very much aware of the opportunities that 
technology offers us to make more environmental information accessible 
to an ever growing number of users, both EPA staff and the public, 
regardless of their location. However, I also understand that some 
users need access in more traditional formats and that our professional 
librarians play a valuable role in assisting our library users. Our 
vision is to be the premier model for the next generation of federal 
libraries by enhancing our electronic tools to complement our 
traditional library services.
    The Network is comprised of twenty-six libraries, and provides 
multiple methods for delivering information services--walk-in access to 
collections and assistance, on-line resources, and interlibrary loans. 
To ensure that the Network was evolving and keeping pace with newer 
demands from a growing, diverse customer base, EPA began reexamining 
its library model in 2003 to identify new ways to deliver library 
services and meet customer needs in a cost-effective manner. While EPA 
implemented changes in walk-in services in some locations in 2006, we 
continued to provide the full range of library services to EPA staff 
and the public.
    EPA appreciates the thorough review the Government Accountability 
Office (GAO) recently conducted of the EPA Library Network operations. 
EPA recognizes the importance of transparency in our library planning 
processes and worked hard to cooperate and assist GAO during its 
review. The Agency has already taken many steps that address the 
recommendations made in GAO's review.

Enhancing EPA's Library Network

    We placed a 90-day moratorium on any changes at our libraries in 
mid-December 2006 in response to concerns raised by a number of 
stakeholders. In late February 2007, this moratorium was extended 
indefinitely in an effort to work more closely with various concerned 
groups. Since then, EPA has taken many steps to improve governance and 
coordination across EPA on enhancing library services.
    In early 2007, EPA issued an interim National Library Network 
Policy assigning the overall responsibility for the Library Network to 
the Assistant Administrator of the Office of Environmental Information. 
The policy established uniform governance and management for the 
Network, applicable to all headquarters and regional offices that 
provide library services. To implement the policy, a number of Network-
level procedures and standards are being developed that will ensure 
commonality in the way libraries operate across the Network.
    At the same time the policy was issued EPA hired a highly qualified 
professional librarian with many years of experience as the Network 
national program manager. The new program manager coordinates all 
Network activities, and provides strategic direction in all planning, 
operations, and outreach efforts. These actions have been instrumental 
in strengthening our network of librarians.
    EPA also increased outreach to outside parties on our library 
operations and plans. We participated in a number of meetings and 
conferences with professional associations such as the American Library 
Association, the Special Libraries Association, and the Union of 
Concerned Scientists. Whether as speakers at national meetings, 
exhibitors during the meetings, or in open conversation with 
association staff or members, we have requested input on Network 
operations, service delivery and future plans for the Network. We have 
also provided additional information online for the general public 
about our library operations and future plans.
    The Agency has also stepped up coordination with other federal 
agencies on library operations. My staff is working closely with the 
Federal Library and Information Center Committee (FLICC) at the Library 
of Congress on our plans for the future of the Network. FLICC has 
selected a board of advisors composed of federal library managers to 
work directly with the Network to advise us on procedures, operations, 
and future directions.
    I want to assure the Subcommittee that as EPA implemented 
improvements to the Network, we continued to provide library services 
to our customers. Customers continued to have access to documents, 
either in person or via interlibrary loans. They received help in 
answering reference and research questions, and the Agency continues to 
enhance our offerings available from our digital libraries. EPA 
employees now have electronic access to more than 120,000 resources 
from their desktops. Also, we established agreements between several of 
our libraries and Centers of Excellence within the Network to allow us 
to leverage the expertise available from other locations. Users of the 
services offered via these agreements report high satisfaction with the 
quality and timeliness of these services. For example, a 2007 survey of 
federal customers who requested literature searches rated EPA high in 
the relevance, timeliness and completeness of results.

Moving Forward

    EPA continues to develop a long range plan for a strong and 
effective Library Network, and will continue to solicit input from both 
internal and external customers. In recognition of our goal to provide 
the service our customers need we will be conducting a formal needs 
assessment to inform future planning for the Network. Of particular 
importance is ensuring EPA staff has access to the information they 
need to do their jobs, and EPA is committed to working collaboratively 
with EPA staff and union representatives on future changes to the EPA 
Library Network that may impact employees.
    As part of the planning efforts, EPA is currently working on a 
Report to Congress pertaining to EPA libraries requested in the report 
language on the Consolidated Appropriations Act of 2008. The report 
language directs EPA ``to restore the Network of EPA libraries recently 
closed or consolidated. . .'' and ``to submit a report to the 
Committees on Appropriations regarding actions it will take to restore 
publicly available libraries to provide environmental information and 
data to each EPA region within 90 days of enactment of this Act.'' 
EPA's report will describe the Agency's plans to ensure on-site support 
in each EPA Region, the EPA Headquarters Library, and the Office of 
Prevention, Pesticides, and Toxic Substances (OPPTS) Chemical Library.
    Finally, EPA is committed to examining ways to provide even greater 
access to environmental information to meet customers' needs. I believe 
that all of the Agency's information access services, be they through 
EPA libraries, the EPA Website, or other Agency mechanisms, are 
components of a broader canvas that supports our commitment to provide 
access to environmental information. To solicit input on how EPA might 
enhance access to information, the Agency is conducting a National 
Dialogue with key stakeholders over the next several months. Based on 
this input, EPA plans to develop a long term Strategy for enhancing 
access to environmental information, including library services.

Conclusion

    On behalf of Administrator Johnson, thank you for inviting me to 
speak with you today about the EPA National Library Network and our 
ongoing work to strengthen it and make it the premier environmental 
library network in the country. I would be happy to address any 
questions that you may have at this time.

    Chairman Miller. Thank you, and our questioning will take 
place after we return from the Floor, so we are at ease.
    [Recess.]

                               Discussion

                     Access to EPA Library Services

    Chairman Miller. Well, the moment of silence was a little 
more optional than I had thought. There was not every Member 
present, but I am glad that I was able to go and join in it, 
and I apologize for the disruption.
    Mr. Hall, in what I assume was sincere compliments of my 
renown as a lawyer, I am reminded that judges, in North 
Carolina at least, tell juries that they should judge the 
evidence not by its quantity, but by its quality and convincing 
force, but Ms. O'Neill, I still cannot help but notice that you 
are badly outnumbered, that every--all of the other witnesses 
tell a very different tale. Their testimony was very different 
from yours.
    In your testimony, you discussed the future network 
services that would bring EPA materials to EPA employees and to 
the public, including the scientists who rely upon the EPA 
libraries, but your testimony is relatively silent, or soft-
spoken, on what is available today, other than to say broadly 
that EPA continues to make, and to provide the full range of 
library services to EPA staff and the public.
    And that certainly sounds like there has been no change in 
the access that the EPA staff has or the public has to EPA's 
library materials. Is that your testimony?
    Ms. O'Neill. Well, let me clarify, that is my testimony, 
but let me clarify. I think the services are there. They may be 
different, in terms of the libraries where we have closed the 
walk-in service, where there was obviously a physical librarian 
there. And that service is still there, in terms of being able 
to have reference checks and research and obtaining 
information, they just go through a different mechanism. So, 
where we don't have the physical presence of the library, the 
EPA staff have a number and a website to go to, to actually get 
some services for help, and we have Centers of Excellence where 
we have librarians there helping them find information that 
they need.

                   Availability of Library Materials

    Chairman Miller. And is it your testimony that all the same 
materials are available that were available before?
    Ms. O'Neill. I can't testify that all the materials, all 
documents and materials are there that they were there before, 
but the key, unique documents are available to them.
    The other thing is that we have arrangements with other 
libraries, so if they were general documents that we have, in 
our libraries, we had a lot of general documents, whether they 
be magazines or something that can go to a public library, but 
we have tried to ensure that they have as much as, there as we 
possibly can, based on the need.
    Chairman Miller. There has been considerable testimony, and 
I think part of the GAO's findings, that some materials were 
just thrown away. Did you keep a catalog of what was thrown 
away?
    Ms. O'Neill. It is not, to my knowledge, nothing was thrown 
away. There were some things that were outdated, that they went 
through, we had guidelines for each, excuse me, for each of the 
regional office to have, in terms of as they went through the 
materials in their portfolio of things, if this is a document 
that is unique, it needs to be tagged for digitization, and we 
also need to make sure it goes, and to see if we have a copy in 
our central repository.
    Where there were journals, where we had other copies in 
other locations, they were tagged for recycling. I don't know 
of anything that was actually--or we were, we offered those 
materials up to other libraries first.
    So, there was a whole process that went through this, in 
terms of what to do with the materials that were either 
duplicative in nature, or that no one wanted, or they weren't 
unique to EPA.
    Chairman Miller. Okay. Mr. Orzehoskie, I----
    Mr. Orzehoskie. Yes, sir.
    Chairman Miller. Apologize for difficulty----
    Mr. Orzehoskie. Everyone in my life has had difficulty with 
my name.
    Chairman Miller. Well, that is reassuring. I grew up in the 
South, there was not a lot of ethnic diversity. Everyone kind 
of came from Northern Europe or from Africa, but had European 
names, and had done that a long time ago. And so, I am less 
familiar than some Members in dealing with ethnic names or not 
Northern European and Western European names.
    If I don't act as country, it is----
    Mr. Orzehoskie. You did very well.
    Chairman Miller.--it is because until recently, I have 
lived exclusively in North Carolina, and have not had to act 
Southern, because I simply was Southern. So, I don't have quite 
the practice in acting Southern.
    Mr. Orzehoskie. Well, my son lives in Louisiana, so I do, I 
know what you are talking about.

                 More on Access to EPA Library Services

    Chairman Miller. You have said that the access to EPA 
services--or do you agree that access to services and resources 
have not really changed since the beginning of Fiscal Year 
2007?
    Mr. Orzehoskie. Well, I think at Region 5, they have 
changed dramatically. Now, I can't--you know, I don't use the 
library in my current position much as a Union person. I have 
talked to some Union members that have had difficulty accessing 
some information, but the library itself is totally gone. I 
mean, the area where the library was is an empty room. Even the 
bookshelves and the materials are gone, and there is no 
reference librarian in Region 5 that I know of.
    Chairman Miller. All right.
    Mr. Orzehoskie. We were told that we could get some 
information from Cincinnati if we wanted to, but now, I hear we 
can go down to the street to our public library and get it, but 
I don't know how many people will be walking in and out of our 
offices and going down to the public library on a regular 
basis.
    Chairman Miller. You could, however, pick up John Grisham's 
latest there.
    Mr. Orzehoskie. Yes.

        When Did EPA Develop Library Commonality Procedures and 
                               Outreach?

    Chairman Miller. Ms. O'Neill, you have just, in your 
printed testimony, I think, in the answer to the previous 
question, you said that EPA was developing network standard 
procedures to ensure commonality, you were hiring highly 
qualified professional librarians to coordinate the network, 
that you had increased outreach to outside parties, and you 
were conducting a formal needs assessment to plan for your 
future service.
    Did you do all of that before implementing the closures, or 
is that something you are doing now?
    Ms. O'Neill. We haven't started the formal needs 
assessment. That is something that we plan on doing very, in 
the short, in the near future. It has come out of our working 
with our Union, excuse me, with our library network. This is 
something that our librarians have mentioned that we need to do 
collectively, and we are committed to doing that.
    So, we have been trying to engage in discussions with our 
librarians throughout the country, and what, really where we 
need to go, and that is one of the suggestions that came out. 
That is why I was really glad to hear it in the testimony from 
two other testimonies here, because that is on our queue to do.
    In terms of reaching out, I can only speak to say that we 
did do some outreach, but we have done a lot more in the last 
year. I can tell you that.
    Chairman Miller. So, the sense I get from all the other 
witnesses is that, as you have just said, it really began after 
EPA had already implemented the closures and the cutbacks. 
Would it not have made sense, a great deal more sense, to do 
that before implementing the budget reductions and the 
closings, rather than after?
    Ms. O'Neill. Well, let me just be real clear here, just for 
the record. I must say that I started at EPA in January of 
2007, so what I speak about is what I have been told, and what 
I have read about. There was outreach before the closures of 
the libraries, but I can't tell you, but since January, there 
has been additional outreach from the libraries, so I think it 
has been documented that we didn't do any, and I don't think 
that that is true. I think that we did do some outreach to 
different communities, in terms of getting some ideas.
    A lot of the--was mentioned earlier about some of the--we 
started looking at this, I think, back in 2003, and as part of 
that, we did look at other procedures that were out there, from 
different associations, and we did talk to some of these 
associations during, over the course of those years as well.
    Chairman Miller. I assume that all of the other witnesses 
would have been the outreachees?
    Mr. Orzehoskie. Well, you know, I know they have never 
reached out to the Union, and I think my testimony reflects 
that, and that we have had to file grievances, and you know, 
Unfair Labor Practices, just to get where we are, and even 
after getting an Arbitrator to agree to an issue in negotiating 
with us, they still haven't.
    Chairman Miller. Okay. Mr. Stephenson.
    Mr. Stephenson. Think about what was just said by EPA. They 
are in the process of thinking about doing a needs assessment 
to determine what their users need right now. Why wouldn't you 
do that first? That is what their own 2003/2004 study 
recommended. How can you assess your inventories of materials 
and decide what you need and don't need, and throw anything 
away or not before you do that?
    And Ms. O'Neill doesn't know whether they threw out any 
materials. We don't know whether they threw out any materials, 
because they haven't inventoried their materials to determine 
what best to do with them. The whole thing is kind of 
backwards. We are closing libraries first, as I said, and now, 
we are beginning to do the analysis that should have been done 
in the first place.
    Chairman Miller. The GAO is generally noted for very 
temperate, qualified, cautious reports.
    Mr. Stephenson. Fact-based.
    Chairman Miller. Fact-based. I think if Harry Truman wanted 
to find a one-handed economist, he probably would have 
certainly wanted to find a one-handed GAO employee, but you 
seem to be one-handed on this.
    Dr. Grifo, what has been your experience in outreach? I 
assume that the Union of Concerned Scientists or your members 
would have been one of the important clients, and what contact 
did you receive, and what are you receiving now?
    Dr. Grifo. We actually didn't receive any, prior to our 
initiation of contact. I mean, it was only after we generated 
the phone calls, and they essentially, you know, called us and 
begged us to stop, to make the phone calls stop so they could 
use that phone line, that we actually met with them, and began 
our dialogue. There was nothing ahead of time.
    Chairman Miller. Okay. Mr. Rettig.
    Mr. Rettig. The closings brought this to ALA and ALA 
members' attention, and we have been concerned ever since, and 
remain concerned. There are many resources for planning 
digitization projects right here within the Federal Government. 
The National Science Foundation Institute for Museum and 
Library Services, the National Endowments Humanities have made 
grants of millions and millions of dollars over the years to 
develop the standards for digitization and digital libraries.
    Chairman Miller. And my time has expired. Mr. Hall is 
recognized for five minutes.

                 EPA Actions Since the Senate Hearings

    Mr. Hall. Well, I don't--I am not sure I have any 
questions. I have been gone, and I don't know what has been 
asked. I hate to be repetitious, but I do know the importance 
of libraries, and I know that that there is some problem here, 
and I am not sure what the problem is, but I think this is a 
good place to work it out, and hammer it out, and find out what 
has happened, and what ought to happen, and how you can make 
that happen. And I presume that is the Chairman's intent, is to 
get to the bottom of it, not to set blame or punish anyone, but 
to, how to improve it, and make something work. Libraries, the 
Southern Association, when they go to university, they are the 
accrediting entity of state colleges and universities, when 
they go anywhere to any university to talk about granting them 
a doctoral program, the very first place they go is to the 
library, and that is how important it is, and that is how very 
important probably this hearing is, so I guess the only way I 
can be helpful, and there is no one here to be helpful but me 
on this side of the docket, so I am about the best we got going 
right now.
    If libraries have changed over the last 10 or 15 years, 
that may ought to be some input. If attendance to their use has 
dropped in recent years, maybe that ought to be talked about. 
If there is any efforts to engage or not to engage internal APA 
constituency like scientists unions or external users, I would, 
maybe that is important, and maybe this Chairman has gone into 
all that while I was not here, but I might ask to Ms. O'Neill, 
what has EPA done since last year's hearing with the Senate to 
take steps to rectify whatever the problems are, whether you 
agree they exist or not?
    Ms. O'Neill. Since I think the hearing in SEPW was February 
of 2007, I was there, I believe, and I can't remember if it was 
before or after that we put the--it was right around the same 
time, we put the--there had been a 90-day moratorium put out in 
December for making any changes to the library. That includes 
through any more recycling or taking collections away and 
things like that, going through the criteria to do that.
    Given where we were, and a lot of the concerns that were 
out there, and quite frankly, because we also want to make sure 
that we are doing things in a way that makes sense, and in a 
direction that is the correct direction, in around February, I 
don't know the exact date, we put another moratorium out 
indefinitely, and that has not lifted, so there haven't been 
any changes since then.
    So, we haven't had any changes, in terms of reducing hours, 
or closing any libraries since late 2006. The only thing that 
we asked them to do is just continue to look at those unique 
documents, so that when we do do digitization, that we will be 
ready to do that for those--in libraries that hadn't closed. We 
had already gone through that for the library closed.
    Mr. Hall. Is that for those that the Chairman laid out in 
his opening statement? Have you addressed those concerns while 
I have been gone?

                         EPA Report to Congress

    Ms. O'Neill. In my testimony, I think I tried to tell what 
we were trying--what we were doing. Right now, we are in the 
process of finalizing a report to Congress that will put 
together the plan for how we are going to reestablish the 
physical libraries in the regions that have closed, as well as 
in our headquarters and Chemical Libraries that closed, so we 
are working very closely with the regions and headquarters to 
make sure we do that, in a way that makes a lot of good sense.
    And based on what we have learned over the last year, as 
well, and beyond that, we want to make sure that plan addresses 
the libraries that maybe reduced their hours and made some 
changes last year that maybe didn't close, but that we 
established some minimum standards for our entire network.
    Mr. Hall. And have you shared that plan with those that are 
testifying here?
    Ms. O'Neill. Not yet. The plan is not due until the end of 
March. So, it is coming, and we are on schedule to deliver 
that.
    Mr. Hall. Mr. Chairman, I guess I would ask unanimous 
consent for Mr. Sensenbrenner to send whatever questions. He 
will read the testimony, and then, he will have some questions. 
I don't really have any further questions for the witness, and 
I thank you very much.
    Chairman Miller. Without objection, Mr. Sensenbrenner's 
questions will be submitted to all of you to answer.
    After--I do disagree with my distinguished colleague about 
the purpose of oversight hearings. Sometimes, it is to place 
blame. That is one of the things oversight does, is look at 
what has happened, and when what happened shouldn't have 
happened, yes, place blame, criticize harshly what has 
happened. If there is no consequence to bad conduct, it will 
happen again and again. I know there are some time, Mark 
McGwire leaps to mind, who say let us not dwell on the past. 
Let us look to the future. But if we don't look to the past and 
place blame, if blame is merited, then it will happen again, 
without consequence.
    I understand that the report will be due at the end of 
March, and you all will be given some opportunity to respond 
before it is produced. It sounds like you are not going to have 
very long to respond. How long would you expect, Ms. O'Neill, 
how much time will the various interested parties, the 
stakeholders, to use the jargon, have to review the document 
before it is final?
    I believe you just said that it would be, it was due at the 
end of March, that is this month, and they hadn't received it 
yet. Would they be given an opportunity to comment before it 
was released? Is that right?
    Ms. O'Neill. I would have to check and see what the entire 
schedule is, but this is----
    Chairman Miller. I am sorry, what did you say?
    Ms. O'Neill. I am sorry. I would have to check to see what 
the schedules, in terms of where we are in our internal review 
right now, which is where we are right now. We were planning, I 
know, briefing the Union on this. We were waiting for the 
arbitration hearing to see how things were done, and to also, 
what we needed to do, in terms of getting this out. But I have 
to tell you, I mean, internally, we have been spending a lot of 
time trying, within our own organization, trying to figure out 
what we can do, in terms of each of these regional areas.
    They are all different, and as many of you mentioned here, 
Region 5, we have the libraries physically gone. In Region 7 
and 6, we have--so, we have to establish a brand new library, 
and some of the other regions, we have to--we have different 
concerns, and we have been spending a lot of time with--in the 
places that we have closed, to figure out what we can do.
    Chairman Miller. And the report is, the report to Congress 
is due at the end of this month, and if you are not talking to 
the employees of the EPA, if you are not talking to scientists 
who are the clients of the libraries, if you are not talking to 
the librarians, who are you talking to?
    Ms. O'Neill. We are talking to those people. In fact, we 
have been working with our library network. We have been 
working with the management. We have internally been working 
very hard on this, and we have been briefing, I know we are 
briefing some of these organizations, in terms of what the 
plans are. I am not sure we have gotten to all of them.

              Effect of Library Closings on EPA Employees

    Chairman Miller. Mr. Orzehoskie, in my opening statement, I 
said that my understanding what was the abrupt closing and 
boxing up of materials had hobbled EPA's employees' ability to 
do their job. Could you--and that was based upon what I 
understood from your testimony and from others, but could you 
kind of give us a sense of the practical effect of the closings 
and reduced services available from the libraries, the 
practical effect it has on EPA's employees' ability to do their 
job?
    Mr. Orzehoskie. Well, it has an array of effects, and I am 
not the best to be a library expert. I am a Union guy, but I 
have talked to some of our people, and we had testimony at our 
arbitration. And the main thing, in general, is that there is 
no place to go, within EPA Region 5 offices, to get library 
assistance, okay.
    We are told, and I have talked to some people who can get 
help through Cincinnati over the telephone, or through the 
computer network, to get some research. It takes days, now, so 
when you are doing something that is really timely, those 
delays can be very critical. If you are going to be testifying 
at an enforcement hearing the next day or two days later, you 
may not have time to wait to go to a remote location and get 
your information.
    I have had people tell me that some of the technical 
journals that are not necessarily reproducible, because they 
are copyrighted, and some of the technical reference material, 
individuals have actually purchased, because they can't wait 
for delays, and in some cases, can't get it digitized anyway. 
Those kinds of things.
    And if you saw the picture that was up there of all those 
boxes, I mean, if you wanted one of the documents in that box, 
how would you get it?
    Chairman Miller. How would you know where it was?
    Mr. Orzehoskie. Exactly.
    Chairman Miller. Dr. Grifo.

                    Progress Report on Digitization

    Dr. Grifo. I think it is interesting that, you know, we 
still haven't heard a progress report on the digitization. I 
mean, we are talking about, okay, these libraries are gone, 
they are physically not there, and we have talked about the 
kinds of things that are replacing them, I mean, the desktop 
libraries, the digitization of some things, and so on, the 
interlibrary loan system. But I think it is important to 
understand, and this number comes from one of the EPA's own 
documents, that those things, even when that digitization is 
complete, even when those documents, those unique documents, 
which are really all EPA documents, are made available 
electronically, that that is really less than one percent of 
the holdings of the libraries.
    So, I think our concern is with all of these other 
documents. I mean, there are, you know, reference materials, 
copyrighted materials, older journals. I mean, there is a whole 
long list of things, particularly, you know, documents produced 
by contractors, documents produced specifically for guidance, 
as background for guidance and determinations. I mean, if we 
think back to the complexity of the mandate of the 
Environmental Protection Agency, I may not have the number 
exactly right, but it is something like, you know, 14 pieces of 
legislation that govern this Agency, and many of those have 
very specific instructions about best available science, 
science-based information, and how is this to happen if these 
things, if these very important resources have been essentially 
in limbo, inaccessible, you know, unreachable, unusable for now 
going on, what, 17 months, a very long time? How many decisions 
have been made in that 17 months without the best available 
science there for them to be used?
    Chairman Miller. Thank you. I know the red light has come 
on, but Mr. Stephenson, I would like to give you a chance to 
address this as well. Your point of view is not that of a 
stakeholder, but someone who has, I assume, entered upon the 
question without preconception.
    Mr. Stephenson. Well, in these cases, we rely on others 
with their expert opinion, and I think Dr. Grifo mentioned that 
they did a survey of EPA's own scientists, and they admitted 
that it impaired their ability to do their job. The Federal 
Arbitrator, when he rendered his decision, said that was one of 
the factors in his decision, that EPA's actions affected the 
employees' abilities to do their jobs. So, you don't have to 
believe GAO. We didn't have to find anything original.
    There is all kinds of evidence out there that, in fact, 
these documents are in limbo, and--or there is one percent or 
not. EPA at this point doesn't know what it should digitize, 
and what it should not digitize. Should it make a PDF file out 
of it? Should it make a searchable file out of it? It hasn't 
inventoried what it has, and gone through the process of 
determining what makes the most sense for this individual 
document.
    Chairman Miller. My time has expired. Mr. Hall.
    Mr. Hall. Well, I am not here to, as a protector of EPA, 
nor as an admirer of EPA. I have, I represent a state that is 
an energy state, and we have had a lot of problems with the 
EPA, and seeking answers to them, and when they wouldn't give 
us answers, we have sent up amendments to give them 30 days to 
say yes or no, and not caring whether they said yes or no, but 
to give us an answer we could appeal from.
    And that really hasn't worked too well, so--but I want to 
be fair with the lady that is here to offer her knowledge and--
of the past, and what is present, and what they intend to do, 
and then, I guess that is the duty of this Chairman, and of 
those of us who are asking you questions, to lay that out, and 
to be helpful to you if we can be, to pull you together, and 
give us instructions, and if it, your purposes here to tell us 
whether we need further legislation, what to do about the 
future, and I haven't heard anybody say, or make any 
suggestions on that, but I haven't been here, so you might have 
made your suggestions.
    But I have found EPA hard to deal with, and I wouldn't take 
an appointment as the Administrator of EPA if it paid $10 
million a year, because there is no way in the world you can do 
your job. If you do what Congress tells you to do, you are 
going to get sued, and if you don't, you are going to get sued. 
So, it is a tough situation.
    I think they could be better in answering and giving 
definite answers, and not stall anybody that wants to build a 
$100 million refinery when gas prices are going to $4 a gallon, 
when they want an approval of a request for a permit, and just 
not to act on it, because you can't appeal on a no action. You 
have to have either a turn down or an approval, and we set it 
up to where if they made, and I think it is in the Energy Act a 
year and a half ago, had an amendment there that said if we 
made a request, or industry made a request to build or to 
upgrade a refinery, that they would have 30 days, EPA would 
have 30 days to answer that, not caring if they said yes or no, 
because you can appeal from what they do. You can't appeal from 
nothing, and somehow, EPA was strong enough to knock that out, 
and we didn't get that in that Act.
    But I am not here to uphold EPA, but to be fair with Ms. 
O'Neill, and give her a chance to answer any questions that you 
all have set up, and Mr. Sensenbrenner will look at the 
information that you have, that will go of record. The Chairman 
will see that all of your testimony goes into the record, and 
your presentation that you read from initially, and he will 
have some questions.
    So, Mr. Chairman, I don't have anything further to say. I 
yield back my time, and I thank you for it.
    Chairman Miller. Thank you, Mr. Hall.

                    More on EPA's Report to Congress

    Ms. O'Neill, I have a few more questions about the report 
that will be due in just a couple weeks, that you spoke about a 
minute or two ago. Who precisely is participating in preparing 
the report?
    Ms. O'Neill. Excuse me. We have been working with our, at 
OEI, obviously, we take the lead. Our Office of Environmental 
Information takes the lead to do the response, so we are 
working closely with our library network, as well as, with our 
network of libraries for the----
    Chairman Miller. Which--well----
    Ms. O'Neill.--as well as the regions and the headquarters 
and the Chemical Library that are affected with this.
    Chairman Miller. Well, I think my question what I am trying 
to get at is exactly which EPA employees are preparing the 
report, doing the work and putting it together?
    Ms. O'Neill. There are people from my staff, and there are, 
I am not sure if there are, who is actually writing it beyond 
that, in terms of the library network, that they have written 
parts of, but a lot of my staff are.
    Chairman Miller. So, it is your office that is preparing 
it.
    Ms. O'Neill. That is correct.
    Chairman Miller. Okay. And it will be ready in two weeks, 
or----
    Ms. O'Neill. Yes.
    Chairman Miller.--17 days, whatever is left.
    Ms. O'Neill. Yes, we will be responsive.
    Chairman Miller. Okay. And to whom are you submitting it 
for review before it is released?
    Ms. O'Neill. I believe we are, and I apologize for not 
knowing the full process here, this is the first time I have 
had to do an appropriations response, so I know right now, it 
is an internal review with our Office of Financial, or 
Financial Officer right now, just to make sure it is an 
appropriations request, to see if we have fully answered the 
request.
    Chairman Miller. What about OMB?
    Ms. O'Neill. I don't know. I am assuming it is going.
    Chairman Miller. You are assuming?
    Ms. O'Neill. It is going.
    Chairman Miller. That OMB will see it.
    Ms. O'Neill. I don't know for a fact.

              Is EPA Briefing Stakeholders on the Report?

    Chairman Miller. Okay. A moment ago, Ms. O'Neill said that 
stakeholders were being briefed in advance. Is that correct?
    Ms. O'Neill. To my knowledge, I believe we talked about 
this yesterday in my, in one of my briefings, that we were 
going to reach out to--if we had time, obviously, if we had an 
opportunity to reach out to the--if there is a union meeting 
set up or something to reach out and talk to the unions, 
because we talked about, when the arbitration hearing came 
down, what we can do, in terms of telling them what was going 
to be in the plan.
    Beyond that, quite frankly, I will have to get back to you 
on specifically who else we have reached out to, external to 
EPA.
    Chairman Miller. Mr. Orzehoskie, have you been briefed, 
or--do you know if the AFGE has been briefed or consulted in 
any way?
    Mr. Orzehoskie. As far as I know, AFGE has not been 
briefed. I know I personally have not.
    Chairman Miller. Right.
    Mr. Orzehoskie. And I think that is my concern, she said if 
we had time. You know, we went to arbitration. We have a 
Federal Arbitrator say they are supposed to negotiate with us, 
and she says if they have time, they might talk to us.
    Chairman Miller. And that time would come in the next two 
weeks. Ms. O'Neill said if there was a meeting already 
scheduled or not. Could you schedule a meeting just for this?
    Mr. Orzehoskie. Well, certainly.
    Chairman Miller. All right. I thought you might be able to 
work that into your schedule. How about Dr. Grifo, has Union of 
Concerned Scientists or scientists individually been consulted, 
briefed, that you know of?
    Dr. Grifo. Not to my knowledge, but we would be happy to 
set up a meeting on a moment's notice, almost.
    Chairman Miller. All right. Well, it sounds like that is 
what you will get.
    Dr. Grifo. That is okay.
    Chairman Miller. You might want to clear your calendar for 
March 30 and 31.
    Dr. Grifo. Good enough.
    Chairman Miller. Mr. Rettig, how about you. How about the 
librarians?
    Mr. Rettig. Well, the ALA Washington office staff would be 
the contact for that, and they have not informed me of any such 
discussions to date.
    Chairman Miller. Would you expect that they would?
    Mr. Rettig. We certainly hope so, and we would be very 
willing to enter into dialogue.
    Chairman Miller. Okay. But would you expect that the 
Washington office would have told you, would have mentioned it 
to you?
    Mr. Rettig. I don't know how many times I have spoken with 
staff at the Washington office this week. It would have come up 
then, I am sure.
    Chairman Miller. Okay. It seems like something might come 
up, particularly since you were testifying today. And you might 
want to suggest to the librarians that they keep the 30th and 
31st of March free as well for consultation before the report 
is released.

               Effect of Librarian Loss on EPA Employees

    Mr. Rettig, I know I asked Mr. Orzehoskie and Dr. Grifo 
about the--how the day to day work of EPA employees and 
scientists was affected by the closing and limiting of the 
libraries, but how is the loss of librarians, what role do they 
play, and how does that affect employee effectiveness, and the 
effectiveness for scientists in doing their research?
    Mr. Rettig. Librarians bring an added value to any 
organization that operates on information. Not every scientist 
can know where all of the information that might be relevant to 
his or her work is available. This is what librarians 
specialize in. This is what we do. We help connect people to 
that relevant information that they can use. This is not 
something that one, you know, picks up just even from day to 
day experience. It requires education and study, and we believe 
that it is essential that if a federal agency is going to call 
something a library, that it be managed by librarians.

       Is EPA Reaching Out to Communities With Library Closures?

    Chairman Miller. Okay. Ms. O'Neill, Ms. Eddie Bernice 
Johnson was here earlier, but was not able to come back after 
the moment of silence, but she is particularly interested in 
Dallas, Texas. We are all proudly parochial in our jobs in the 
House. That is our job. And the regional library there, of 
course, was closed.
    The public, in addition to the EPA employees in that 
region, relied on that office, as did the public. What are you 
all doing to reach out specifically to the people in the 
regions where the libraries are closed, and most specifically, 
to Dallas? Or they should be available on March 30 or 31, for 
consultation?
    Ms. O'Neill. No. No, we have been working with the regions, 
as I mentioned over the past two months, in terms of what the 
needs are, in terms of reestablishing the physical presence. 
Dallas is not--is one of those regions that we are working 
with.
    Chairman Miller. Who precisely are you talking about?
    Ms. O'Neill. I would have to get back to you on the exact 
names, but I am sure we have been coordinating through the ARA, 
the Assistant Regional Administrator, and his staff there.
    Chairman Miller. And they have been talking to members of 
the public who use that library?
    Ms. O'Neill. I can't answer that question for the record.
    Chairman Miller. Okay. We are obviously being called to the 
Floor for something. Mr. Hall, do you have any questions at 
this point?
    Mr. Hall. I will ask one question. Ms. O'Neill, is there 
anything that we haven't asked you that you would like for us 
to ask you, to where you can give us full information that you 
have for these four people that are sitting by you there?
    Ms. O'Neill. Yeah, thank you for the opportunity. Just, you 
know, we have talked a little bit about, a little bit, and I 
recognize that we don't have a lot of time here, about the plan 
that is coming out to reestablish the physical presence in the 
actual regions and headquarters, and the Chemical Library, that 
have closed. I also want to just say for the record, one of the 
things that we are doing, because we have been listening to 
people, we have spent a lot of time in the last year reaching 
out to people, is that beyond that, we are actually looking at 
establishing some minimum standards for those libraries that 
have remained open, but to make sure everyone is on the same, 
and has the same amount of good quality service, that we have 
standard hours in place, and things like that. So, we really 
have gone out and listened, in terms of some of the things that 
people are concerned about. So, the report will also address 
that as well.

                   More on the EPA Report to Congress

    Mr. Hall. And is your deadline for support set by someone 
above, and within the EPA, or is that Congressional, or who 
sets that deadline that you are trying to meet?
    Ms. O'Neill. Yeah, there is a Congressional deadline, 
actually. I believe it is the 26th, so the time would be before 
that, Mr. Chairman, or the 30th or 31st.
    Mr. Hall. And that is--and you intend to comply with that.
    Ms. O'Neill. We have to comply with that. But we, I will 
say, even after the report is written, we do plan on meeting 
with a lot of the folks outside to get the details of the plan, 
to make sure, because some of these, as I have mentioned, each 
region has a different, is in a different place right now, so 
we have to really work through some of the details, in terms of 
buildouts, what the requirements are going to be for each of 
these libraries, and things like that. And we have got to, we 
have got a very good idea of what those things are, but we can 
certainly have some of these other folks that are interested in 
working with us identify some of the details to that, but----
    Mr. Hall. Do you seek any of their advice on when you are 
writing out your report? It would seem like Mr. Rettig would be 
a great source for you.
    Ms. O'Neill. Yes, and as I mentioned earlier, we have been 
very, very busy internally, making sure that we can meet our 
commitment, okay, both from a financial standpoint--but one of 
the things we don't want to do, quite frankly, is reestablish 
these libraries, and then not have the commitment to make sure 
that they continue beyond next year. And so, one of the things 
we have been really working with is to make sure there is a 
commitment financially as well, to make sure that we open them, 
and that they stay open, meeting the requirements that we are 
putting in place.
    Mr. Hall. And I can't see Charlie's last name, but he 
represents an awful lot of people that are looking to him to 
represent them, and to give them advice, and would he not be a 
good reference for you, someone to work with?
    Ms. O'Neill. Yes, he would, sir.
    Mr. Hall. I would yield back my time.

                        Reopening EPA Libraries

    Chairman Miller. Thank you, Mr. Hall. We do have a few more 
minutes, because the vote will be a procedural vote, and it 
usually is left open for a while.
    Ms. O'Neill, I have a few questions that are not essay 
questions or even short answer questions, but really are true/
false questions, or yes or no questions.
    Will the EPA reopen the three closed regional libraries 
this fiscal year?
    Ms. O'Neill. Yes.
    Chairman Miller. That is your commitment.
    Ms. O'Neill. Yes.
    Chairman Miller. Will you reopen the headquarters library 
this fiscal year?
    Ms. O'Neill. Yes.
    Chairman Miller. That is your commitment.
    Ms. O'Neill. Yes.
    Chairman Miller. Will the EPA reopen the Chemical Library 
this fiscal year?
    Ms. O'Neill. Yes.
    Chairman Miller. And that is your commitment.
    Ms. O'Neill. Yes.
    Chairman Miller. Okay. Mr. Stephenson, again, thank you for 
the GAO's report, for your work on this. It certainly sounds 
like there may be the occasion for more work. Will the GAO be 
ready to assess what happens from this point forward?
    Mr. Stephenson. We respond to all requests.
    Chairman Miller. Well, I appreciate that you will respond. 
I hope the response will be yes, you will do the report, 
additional report.
    All right. Thank you all for appearing. We do need to go 
for votes, and I think that we don't really have time for 
closing statements, but I think we have all made our views 
pretty well known. So, thank you for appearing, and this may 
not be the last time.
    And under the rules of the Committee, the record will be 
held open for two weeks for Members to submit additional 
statements, and any additional questions, including from Mr. 
Sensenbrenner, that they might have for the witnesses, and I 
ask now for unanimous consent to enter a packet of materials in 
the record. Hearing no objection, the materials will be entered 
in the record.
    And the hearing is now adjourned. Thank you.
    [Whereupon, at 11:27 a.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by John B. Stephenson, Director, Natural Resources and 
        Environment, Government Accountability Office

Q1.  You stated in your testimony that EPA's justification for 
reorganizing the library system was to generate cost savings. How much 
was needed to operate the library system before this reorganization 
occurred?

        a.  Did EPA conduct a cost-benefit analysis to determine 
        whether such reorganization would actually produce cost 
        savings?

        b.  If not, how could EPA determine it was not setting itself 
        up for greater funding needs through this reorganization?

A1. According to EPA officials, the agency began reorganizing the 
library network to create cost savings through a more coordinated 
library network and more electronic delivery of services. EPA's 26 
libraries within the network are operated by eight program offices and 
the regional offices. There is no line item for EPA libraries included 
in the President's budget nor in EPA's more detailed budget 
justification to Congress. Because of this and due to the decentralized 
nature of the library network, funding for the entire library network 
was not tracked by EPA. As a result of our review, however, EPA did 
provide us with estimated figures on the amount of spending by each 
library within the network over a five-year period. Based on this data, 
library spending remained relatively stable, ranging from about $7.14 
million to $7.85 million between fiscal years 2002 through 2006.\1\
---------------------------------------------------------------------------
    \1\ These figures are based on estimates from EPA. We did not 
independently determine their accuracy. Because EPA did not track 
library funding, each library in the network provided estimates that 
were based on past spending or enacted funding or both. In addition, 
libraries also varied in the type of spending data provided in terms of 
whether the data included contract costs, salaries, and acquisitions.
---------------------------------------------------------------------------
    EPA did not conduct a formal benefit-cost analysis to determine 
whether the reorganization, as it occurred in fiscal year 2007, would 
result in cost savings. Beginning in 2003, EPA began assessing its 
library network by conducting a business case assessment of its library 
network and a study of options for future regional library 
operations.\2\ These two studies primarily focused on the Office of 
Environmental Information (OEI) headquarters library and the regional 
office libraries and were intended to determine the value of library 
services and inform management in the regions on their options to 
support library services beyond fiscal year 2006. However, EPA did not 
conduct a formal benefit-cost analysis of various alternatives to 
reorganizing the entire library network per OMB guidance.\3\ Such 
guidance specifies that agencies should conduct a benefit-cost analysis 
to support decisions to initiate, renew, or expand programs or 
projects, and that in conducting such an analysis, tangible and 
intangible benefits and cost should be identified, assessed, and 
reported. One element of a benefit-cost analysis is an evaluation of 
alternatives that would consider different methods of providing 
services in achieving program objectives.
---------------------------------------------------------------------------
    \2\ U.S. Environmental Protection Agency, Office of Environmental 
Information, Business Case for Information Services: EPA's Regional 
Libraries and Centers, EPA 260-R-04-001 (January 2004); and Optional 
Approaches to U.S. EPA Regional Library Support, EPA 260-R-05-002 (June 
2005).
    \3\ Office of Management and Budget, Guidelines and Discount Rates 
for Benefit-Cost Analysis of Federal Programs, OMB Circular A-94 
(Washington, D.C., Oct. 29, 1992).
---------------------------------------------------------------------------
    In determining the $2 million cost reduction for the OEI and 
regional office libraries as proposed in the President's fiscal year 
2007 budget, EPA did not conduct a formal cost assessment. According to 
EPA officials, the $2 million funding reduction was informally 
estimated in 2005 with the expectation that EPA would have been further 
along in its library reorganization effort. Furthermore, EPA did not 
comprehensively assess library network spending in advance of the $2 
million estimation of budget cuts.
    Without conducting a formal benefit-cost assessment, it would have 
been difficult for EPA to determine whether the reorganization approach 
taken would be the most cost effective and beneficial in the long-term 
or whether additional funds would be needed in the short-term to 
implement the reorganization--such as boxing, shipping, and digitizing 
library materials.

Q2.  When disposing of documents, did EPA violate the Federal Property 
Management Regulations?

A2. We believe EPA did not follow federal property management statutes 
and regulations when its libraries transferred property to non-
governmental entities; as well as when its libraries abandoned or 
destroyed property without first making a written determination that it 
had no commercial value.
    The management of federal property generally is governed by federal 
property management laws, 40 U.S.C.  101 et seq. By law, ``property'' 
means ``any interest in property,'' and excludes ``records of the 
Government.'' 40 U.S.C.  102. Under the Federal Records Act, the term 
``records'' does not include ``library. . .material made or acquired 
and preserved solely for reference. . .purposes,'' 44 U.S.C.  3301, 
and thus disposition of government library reference materials is to be 
carried out in accordance with the federal property management laws.
    Under the federal property management laws and regulations, 
``excess property'' is ``property under the control of a federal agency 
that the head of the agency determines is not required to meet the 
agency's needs or responsibilities.'' 40 U.S.C.  102(3), 41 C.F.R.  
102-36.40. Generally, federal agencies must promptly report their 
excess property to the General Services Administration (GSA), which 
administers the federal property management system. 40 U.S.C.  
524(a)(3). GSA then may determine whether the property may still meet 
the needs and responsibilities of other federal agencies. 41 C.F.R.  
102-36.35. If the property is not needed within the Federal Government, 
GSA then determines the property surplus to the Federal Government and 
may direct that the surplus property be donated to eligible entities or 
that. it be offered for sale to the public by competitive offerings. 
Id. However, federal agencies may take certain actions without first 
notifying GSA. For example, agencies may abandon or destroy excess 
property without first notifying GSA, provided that the agency makes a 
written determination that the property has no commercial value or the 
estimated cost of its continued care and handling would exceed the 
estimated profits from its sale. 41 C.F.R.  102-36.305. In lieu of 
abandonment or destruction, agencies may donate excess property without 
first notifying GSA; however, such donations must be only to a ``public 
body,'' such as a State or local government agency. 41 C.F.R.  102-
36.320. In addition, under some circumstances federal agencies may 
transfer excess property directly to another federal agency without 
first notifying GSA. 41 C.F.R.  102-36.145. Although government 
agencies may donate property that is ultimately given to non-profit 
entities, generally GSA must approve such donations.\4\ 41 C.F.R.  
102-37.120.
---------------------------------------------------------------------------
    \4\ Generally, agencies may not donate property directly to non-
profit entities. Instead, such donations must be made to a designated 
state agency, which then transfers the property to the non-profit 
entity. 41 C.F.R.  102-37.35.
---------------------------------------------------------------------------
    Because the EPA materials at issue are library materials acquired 
for reference purposes, the materials are not ``records'' and instead 
are ``property''; therefore, the materials are subject to the 
provisions of the federal property management statutes and their 
implementing regulations.
    EPA libraries in Regions 5 and 6 did not follow federal property 
management statutes and their implementing regulations when the 
libraries transferred materials to nongovernmental entities.\5\ After 
EPA determined that library materials in Regions 5 and 6 were not 
required to meet EPA's needs or responsibilities, the materials became 
excess property. EPA could have transferred the excess property 
directly to another federal agency. Had EPA first made a written 
determination that the property lacked commercial value or that the 
estimated cost of continued care and handling of the property exceeded 
the estimated proceeds from sale, EPA could have abandoned or destroyed 
the property. In lieu of abandonment or destruction, EPA could have 
transferred the excess property to eligible public bodies. 
Alternatively, EPA could have notified GSA of its excess property and 
then followed the applicable GSA regulations for the disposition of 
such property. As discussed in our report, however, EPA did not notify 
GSA of its excess property, made no written determination that the 
property lacked commercial value or that the estimated cost of 
continued care and handling of the property exceeded the estimated 
proceeds from sale, and transferred the property without charge 
directly to private entities.\6\
---------------------------------------------------------------------------
    \5\ For example, the Region 5 library transferred materials to BASF 
Corporation of Wyandotte, Michigan and to Bear River Associates of 
Oakland, California. In addition, the Region 6 library transferred 
materials such as Preliminary Air Pollution Survey of Chromium and Its 
Compounds: a Literature Review to Cambridge Environmental of Boston, 
Massachusetts.
    \6\ GAO, Environmental Protection: EPA Needs to Ensure That Best 
Practices and Procedures Are Followed When Making Further Changes to 
Its Library Network, GAO-08-304, at 39 (February 29, 2008).
---------------------------------------------------------------------------
    Similarly, EPA did not follow the federal property statutes and 
their implementing regulations when the OEI headquarters library and 
the Office of Prevention, Pesticides, and Toxic Substances chemical 
library abandoned or destroyed property without first making a written 
determination that it had no commercial value or that the estimated 
cost of continued care and handling of the property exceeded the 
estimated proceeds from sale. In total, the OEI headquarters library 
abandoned or destroyed over 800 books and journals and the chemical 
library abandoned or destroyed over 3,000 books and journals without 
making a written determination that the property had no commercial 
value or that the estimated cost of continued care and handling of the 
property exceeded the estimated proceeds from sale.\7\
---------------------------------------------------------------------------
    \7\ For example, the chemical library abandoned or destroyed Smith, 
Mark C., Christiani, David C., and Kelsey, Karl T. Chemical Risk 
Assessment and Occupational Health: Current Applications, Limitations, 
and Future Prospects. Westport, Connecticut: Auburn House, 1994. 
Journal titles abandoned or destroyed include Journal of Environmental 
Pathology and Toxicology and Pesticides Monitoring Journal.
---------------------------------------------------------------------------
                   Answers to Post-Hearing Questions
Responses by Molly A. O'Neill, Assistant Administrator for 
        Environmental Information, The Office of Environmental 
        Information (OEI); Chief Information Officer (CIO), U.S. 
        Environmental Protection Agency

Q1.  How did EPA evaluate the potential cost savings of its library 
modernization?

A1. EPA is moving to an expanded reliance on the electronic delivery of 
library services, which will provide greater access to information for 
EPA employees and the public. This model provides more library 
materials electronically and on the EPA Web site thereby increasing 
accessibility to environmental information and increasing the 
efficiency by which employees and the public can find and obtain the 
materials they need. In addition to improved electronic access, EPA 
continues to maintain a strong network of physical libraries to provide 
another avenue for access to EPA materials. While EPA did not conduct a 
formal evaluation of the potential costs savings, we are confident that 
the modernization of our overall library network and the expanding use 
of electronic delivery of these services will allow for greater access 
to information, faster, and at reduced costs.

Q2.  How much money did EPA determine it would save by closing and 
reducing operations at libraries?

A2. While EPA did not conduct a formal evaluation of the potential 
costs savings, we are confident that the modernization of our overall 
library network and the expanding use of electronic delivery of these 
services will allow for greater and faster access to information at 
reduced costs.

Q3.  In 2004 EPA conducted a review of the library system and found 
that it was cost effective. Given the findings of this report, why 
would EPA close libraries because of budget constraints?

A3. The review that EPA conducted in 2004 was not a review of its 
library system, but rather a review of the cost-benefit of its library 
services. The report found that the services provided by the network 
libraries were of value to the agency. During the development of the 
modernization plan every effort was made to ensure continuity of these 
valuable services. Furthermore, modernizing the EPA's library network 
system will enable EPA to provide library services more efficiently and 
will ensure that a high level of service will continue to all users.

Q4.  When was the planning for these closings initiated? Was it before 
or after the 2004 Business Case Report?

A4. Preliminary discussion on the effort to modernize the library 
network was begun as early as 2003 and the business case and other 
studies were conducted as part of the overall plan for the 
modernization efforts.

Q5.  To what extent did EPA include findings and recommendations from 
earlier reviews in their decision to close and scale back operations at 
libraries?

A5. EPA's commitment to maintaining library services, as opposed to 
physical library space, was built upon earlier findings, including 
recommendations from the Regional Library Network Workgroup.

Q6.  Would you characterize this situation as an anomaly for EPA, or is 
it representative of systematic problems at the agency?

A6. EPA believes that the efforts we have undertaken as part of our 
overall library modernization efforts are important ways to ensure that 
more information about the environment is accessible to a wider 
audience for EPA staff, our partners and the public. However, EPA does 
recognize that more could have been done to better communicate the 
details of the plan and its implementation. EPA is working closely with 
both internal and external stakeholders to ensure that as we continue 
to move forward with making more information available to a broader 
audience we do so understanding we are meeting their library service 
needs.

Q7.  Please describe the difference between EPA unique documents and 
non-unique documents? How does EPA plan on handling each?

A7. EPA unique documents are those documents published by or on behalf 
of EPA for which only one copy exists within the EPA National Library 
Network (Network). Non-unique EPA documents are those published by or 
on behalf of EPA for which multiple copies exist within the Network. 
Non-EPA documents that are EPA library holdings are addressed below in 
the response to Question 10.
    EPA's goal is to hold one copy of each of the unique EPA documents 
in one of the Agency's Repositories, and create a second paper copy to 
be held in archive in a separate location accessible only to library 
staff. In addition, the Agency's goal is to hold one copy of each of 
the non-unique EPA documents in the appropriate Agency Repository and a 
second copy in the archive. Any Network library holding copies of the 
non-unique EPA documents will be able to keep them in their 
collections.

Q8.  What is EPA doing with non-unique EPA documents? Are they being 
donated or destroyed?

A8. Each library in the Network holding copies of the non-unique EPA 
documents will follow best library practices and Agency procedures on 
the areas of collection development, library materials dispersal, and 
repository management in handling those copies. Such practices would 
include:

        <bullet>  Sending to one of the designated EPA repositories in 
        RTP, Cincinnati, or Headquarters, or send to another EPA 
        library in the Library Network.

        <bullet>  Offering parts of collections to other libraries in 
        EPA.

    For those documents that EPA decides should be dispersed outside of 
the Agency, EPA will choose from the following external dispersion 
options:

        <bullet>  Offer parts of collections to the Library of 
        Congress.

        <bullet>  Offer parts of collections to other federal, State 
        and local governments for their libraries.

        <bullet>  Offer parts of collections to local research 
        universities for their libraries.

    In addition, EPA will follow federal property management 
regulations when determining disposition of library materials.

Q9.  What percentage of documents at EPA libraries is unique to those 
libraries?

A9. The percentages vary from a high of around 15 percent for three 
libraries to a low of 0.03 percent for five libraries.

Q10.  How did EPA intend to handle non-EPA documents that may be under 
copyright protection? How do you ensure that access to that information 
does not change when you are transitioning to a modern database?

A10. EPA recognizes that copyrighted materials cannot be digitized and 
that not all such materials are available in digital format. For this 
reason, EPA will continue to have physical library collections 
available to meet the needs of its users.

Q11.  Is the Great Lakes Collection referenced by Mr. Orzehoskie in his 
testimony an EPA unique document that would be digitized and retained? 
Is it available anywhere outside of the EPA library system?

A11. The EPA library system holds a number of EPA publications and 
other commercially produced materials on the topic of Great Lakes. Many 
if not most of these materials are available outside the EPA library 
system. The unique EPA documents will be digitized, and hard copies 
will be retained, as described in the answer to Question 7.

Q12.  What effect did increased security procedures at federal 
facilities after September 1, 2001 have on the use of EPA libraries?

A12. Most of the EPA libraries have experienced a downward trend in the 
number of on-site visitors over the past few years. That trend has 
continued since September 11, 2001, due, in part, to increased security 
in federal facilities, as well as the increased availability of 
information in electronic format.

Q13.  Has attendance and use of EPA libraries dropped in recent years? 
Which regions were affected the most? Was there a difference in the 
number of requests placed at those sites, or simply the number of 
users? How does this influence staffing and hours of operation?

A13. Overall EPA libraries have seen a reduction in the on-site use of 
our physical library space. The libraries in Region 1, Boston, Region 
2, New York City, and Region 7, Kansas City were affected the most. It 
is difficult to analyze the foot traffic to determine how libraries are 
being used by the public or EPA employees. For example, libraries 
expressed that they have seen increased use by external and internal 
library patrons of e-mail, telephone, and the Internet to request 
assistance from the library staff. These popular access venues, coupled 
with increased security at federal facilities could explain the 
reported decrease in walk-ins. The decline in walk-in users led EPA to 
adjust on-site staffing and hours, and to offer more on-line services 
to its internal and external patrons.

Q14.  Did any libraries choose to close or limit operations without EPA 
Headquarters direction?

A14. For the last few years, Regions have faced significant budget 
constraints in the delivery of central support services including 
libraries. When it appeared that further reductions to the support 
dollars were likely, they assessed their situation and made independent 
decisions as to how to respond.

Q15.  What steps did EPA take to comply with the Federal Property 
Management Regulations? Did EPA violate that Act?

A15. EPA followed the General Services Administration (GSA) Property 
Disposition Guidelines for any furniture or equipment removed from 
closed libraries.
    It is unclear whether library holdings (i.e., books, journals, 
magazines, newspapers, etc.) are subject to the Federal Property 
Management Regulations. EPA contacted GSA staff for advice on handling 
materials in the EPA libraries. GSA recommended that EPA property 
management officials be consulted. In general the property management 
regulations apply to items such as furniture. Whether and how these 
standards apply to some resources provided by libraries is a unique 
problem that continues to be addressed.
    Because of this lack of overall guidance for federal libraries, the 
Library of Congress' Federal Library and Information Collection 
Committee (FLICC)/Fedlink is establishing a work group to work with GSA 
to develop guidelines for federal libraries in accordance with library 
best practices and property regulations.

Q16.  Is there a universal criterion for document disposition? What 
types of information will be destroyed? What type of information will 
be donated?

A16. There is no universal criterion for document disposition in the 
library profession. Libraries, in general, are organic operations that 
regularly engage in the process of acquiring and dispersing materials 
to manage their collections to meet the needs of their users. The EPA 
National Library Network is developing dispersal procedures to assist 
network libraries in managing their on-site collections.

Q17.  What is EPA's timeline for completing the modernization process?

A17. With technology that allows for greater access and use of 
information evolving every day, EPA cannot put a specific end date on 
the continuing modernization of our library network and the expansion 
of access to more and more information. EPA does intend to ensure on-
site library services to its Headquarters and Regional facilities by 
September 30, 2008.

Q18.  How long does the typical interlibrary loan process take?

A18. Interlibrary Loan (ILL) requests for materials within the Network 
are supplied quickly, usually in a matter of a day or two for items 
that require hard copy delivery and possibly in the same day if the 
material is scanned and delivered electronically. Rush requests are 
expedited and have been filled in as little as one hour. For example 53 
percent of the Region 5 requests were provided the same or next day 
with many requests being provided within an hour or two. Also, 87 
percent of the items requested by Region 5 were received within two to 
five days. Survey results from the lead service centers show a customer 
satisfaction rate of 95 percent or higher for turnaround time.
    In certain situations the process can take up to ten business days. 
This could occur when the materials requested are from libraries 
outside the EPA Network and depends on the availability of the 
requested materials and the response time of the outside libraries.

Q19.  When will digitization be completed? Has EPA consulted with 
outside groups on how this process will be carried out?

A19. No further digitization of EPA documents has taken place since 
January 31, 2007. EPA requested a third party review of its 
digitization efforts in early 2007. The resulting documents include a 
series of recommendations on the digitization process and on the 
usability of the user interface. EPA plans to convene a panel of 
outside experts to assist the Agency in prioritizing the 
recommendations made in the study. Once this occurs, digitization can 
restart. At that time we can project a completion date for this effort.





















                              Appendix 2:

                              ----------                              


                   Additional Material for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT

</pre></body></html>
